No. 21-___
IN THE

Supreme Court of the United States
————
ADOLFO R. ARELLANO,
v.

Petitioner,

DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
JAMES R. BARNEY
Counsel of Record
KELLY S. HORN
ALEXANDER E. HARDING
FINNEGAN, HENDERSON,
FARABOW, GARRETT &
DUNNER, LLP
901 New York Avenue, NW
Washington, DC 20001-4413
(202) 408-4000
James.Barney@finnegan.com
Counsel for Petitioner
September 17, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTIONS PRESENTED
Under 38 U.S.C. § 5110(b)(1), “[t]he effective date
of an award of disability compensation to a veteran
shall be the day following the date of the veteran’s
discharge or release if application therefor is received
within one year from such date of discharge or
release.” (emphasis added.) Veterans who miss this
one-year statutory deadline—even if because of a
service-connected physical or mental impairment—
are barred from recovering retroactive disability
benefits reaching back to their date of discharge. In
Irwin, this Court held that “the same rebuttable presumption of equitable tolling applicable to suits
against private defendants should also apply to suits
against the United States.” Irwin v. Dep’t of Veterans
Affairs, 498 U.S. 89, 95-96 (1990). Despite this, an
“equally divided” Federal Circuit held 6-6 that military veterans are categorically precluded from pursuing equitable tolling of § 5110(b)(1)’s one-year deadline, regardless of the facts and circumstances of
their individual cases.
The questions presented are:


(1) Does Irwin’s rebuttable presumption of
equitable tolling apply to the one-year statutory
deadline in 38 U.S.C. § 5110(b)(1) for seeking
retroactive disability benefits, and, if so, has the
Government rebutted that presumption?



(2) If 38 U.S.C. § 5110(b)(1) is amenable to
equitable tolling, should this case be remanded
so the agency can consider the particular facts
and circumstances in the first instance?

(i)

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
Petitioner Adolfo R. Arellano was Claimant-Appellant
in No. 20-1073.
Respondent Denis McDonough, Secretary of Veterans Affairs, was Respondent-Appellee in No. 20-1073.
There are no publicly held corporations involved in
this proceeding.

iii
RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):


Arellano v. McDonough, United States Court of
Appeals for the Federal Circuit, No. 20-1073



Arellano v. Wilkie, United States Court of
Appeals for Veterans Claims, No. 18-3908

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT ...............................

ii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

viii

OPINIONS BELOW ............................................

1

STATEMENT OF JURISDICTION ....................

1

STATUTORY PROVISIONS INVOLVED ..........

1

INTRODUCTION ................................................

2

STATEMENT OF THE CASE ............................

3

A.

Background ...............................................

3

B. Proceedings Before the VA and the
Veterans Court ..........................................

4

C.

The Federal Circuit’s En Banc Decision ..

5

REASONS FOR GRANTING THE PETITION..

7

I. THE FEDERAL CIRCUIT IS DEADLOCKED 6-6 ON AN ISSUE FOR
WHICH IT HAS EXCLUSIVE APPELLATE JURISDICTION .............................

7

II. WHETHER 38 U.S.C. § 5110(b)(1) IS
AMENABLE TO EQUITABLE TOLLING
IS AN ISSUE OF GREAT IMPORTANCE TO MILITARY VETERANS AND
THEIR FAMILIES ....................................

9

(v)

vi
TABLE OF CONTENTS—Continued
Page
III. THIS CASE IS A GOOD VEHICLE TO
RESOLVE THE FEDERAL CIRCUIT’S
SPLIT ........................................................

14

IV. THE FEDERAL CIRCUIT’S DECISION
BELOW SHOULD BE OVERTURNED
BECAUSE IT IS INCONSISTENT
WITH IRWIN AND ITS PROGENY ........

16

A. The Irwin Presumption Applies to the
One-Year Filing Deadline of 38 U.S.C.
§ 5110(b)(1) ..........................................

16

B. The Irwin Presumption Has Not Been
Rebutted for 38 U.S.C. § 5110(b)(1) ....

22

C. If 38 U.S.C. § 5110(b)(1) Is Amenable
to Equitable Tolling, Mr. Arellano’s
Case Must Be Remanded for Further
Factual Development ..........................

26

CONCLUSION ....................................................

29

APPENDIX
APPENDIX A: JUDGMENT, U.S. Court of
Appeals for Veterans Claims (August 14,
2019) ...............................................................

1a

APPENDIX B: MEMORANDUM
DECISION, U.S. Court of Appeals for Veterans
Claims (July 23, 2019) ...................................

2a

APPENDIX C: SUA SPONTE HEARING
EN BANC, U.S. Court of Appeals for the
Federal Circuit (August 5, 2020) ...................

8a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX D: ORDER, U.S. Court of
Appeals for the Federal Circuit (September
24, 2020) .........................................................

12a

APPENDIX E: OPINION, U.S. Court of
Appeals for the Federal Circuit (June 17,
2021) ...............................................................

14a

APPENDIX F: JUDGMENT, U.S. Court of
Appeals for the Federal Circuit (June 17,
2021) ...............................................................

98a

APPENDIX G: MANDATE, U.S. Court of
Appeals for the Federal Circuit (August 9,
2021) ...............................................................

99a

APPENDIX H: GENERAL DOCKET APPENDIX ............................................................ 100a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Andrews v. Principi,
351 F.3d 1134 (Fed. Cir. 2003) ................passim
Aspen Tech., Inc. v. M3 Tech., Inc.,
569 F. App’x 259 (5th Cir. 2014) ..............

21

Butler v. Peake,
No. 07-1985, 2008 WL 5101007,
(Vet. App. Nov. 26, 2008), aff’d,
603 F.3d 922 (Fed. Cir. 2010). ..................

12

Carnegie-Mellon Univ. v. Cohill,
484 U.S. 343 (1988) ...................................

9

Camp v. Pitts,
411 U.S. 138 (1973) ...................................

26

Connick v. Thompson,
563 U.S. 51 (2011) .....................................

9

CTS Corp. v. Waldburger,
573 U.S. 1 (2014) .......................................

19

Ford v. McDonald,
No. 15-3306, 2016 WL 4137532
(Vet. App. Aug. 3, 2016) ............................

10

Goonsuwan v. Ashcroft,
252 F.3d 383 (5th Cir. 2001) .....................

29

Hardaway v. Hartford Pub. Works Dep’t,
879 F.3d 486 (2d Cir. 2018) ......................

18

Henderson v. Shinseki,
562 U.S. 428 (2011) ................................... 9, 24
INS v. Ventura,
537 U.S. 12 (2002) ........................................... 16

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Irwin v. Dep’t of Veterans Affairs,
498 U.S. 89 (1990) ....................................passim
John R. Sand & Gravel Co. v.
United States,
552 U.S. 130 (2008) ................................... 19, 23
Kappen v. Wilkie,
No. 18-3484, 2019 WL 3949462
(Vet. App. Aug. 22, 2019) ..........................

10

K. G. v. Sec’y of Health & Hum. Servs.,
951 F.3d 1374 (Fed. Cir. 2020) ................

27

Lozano v. Montoya Alvarez,
572 U.S. 1 (2014) .......................................

19

Lucia v. SEC,
138 S. Ct. 2044 (2018) ...............................

9

In re Neff,
824 F.3d 1181 (9th Cir. 2016) ...................

19

Petrella v. Metro-Goldwyn-Mayer, Inc.,
572 U.S. 663 (2014) ...................................

21

Prather v. Neva Paperbacks, Inc.,
446 F.2d 338 (5th Cir. 1971) .....................

21

Rhoa Zamora v. INS,
971 F.2d 26 (7th Cir. 1992), as modified
on denial of reh’g (Nov. 4, 1992 ................

29

Rotella v. Wood,
528 U.S. 549 (2000) ...................................

20

Savage v. Wilkie,
No. 18-6687, 2020 WL 1846012
(Vet. App. Apr. 13, 2020) .......................... 10, 11

x
TABLE OF AUTHORITIES—Continued
Page(s)
SCA Hygiene Prods. Aktiebolag v.
First Quality Baby Prods., LLC,
137 S. Ct. 954 (2017) .................................

21

Scarborough v. Principi,
541 U.S. 401 (2004) ................................... 17, 18
Sebelius v. Auburn Reg’l Med. Ctr.,
568 U.S. 145 (2013) ...................................

16

SEC v. Chenery Corp.,
332 U.S. 194 (1947) ............................. 15, 28, 29
Shinseki v. Sanders,
556 U.S. 396 (2009) ...................................

9

Taylor v. McDonough,
3 F.4th 1351 (Fed. Cir.),
reh’g en banc granted and op. vacated,
4 F.4th 1381 (Fed. Cir. 2021) ................... 12, 13
Taylor v. Wilkie,
31 Vet. App. 147 (2019) ............................

13

Tejeda Mata v. INS,
626 F.2d 721 (9th Cir. 1980) .....................

29

Tinker v. Des Moines Indep.
Cmty. Sch. Dist.,
393 U.S. 503 (1969) ...................................

9

TRW Inc. v. Andrews,
534 U.S. 19 (2001) ..................................... 24, 25
Uanreroro v. Gonzales,
443 F.3d 1197 (2006) ................................

29

United States v. Kwai Fun Wong,
575 U.S. 402 (2015) ................................... 23, 24

xi
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Oregon,
366 U.S. 643 (1961) ...................................

9

Walters v. Nat’l Ass’n of Radiation
Survivors,
473 U.S. 305 (1985) ...................................

9

Young v. United States,
535 U.S. 43 (2002) ......................... 18, 19, 20, 22
Zipes v. Trans World Airlines, Inc.,
455 U.S. 385 (1982) ................................... 17, 18
Zuni Pub. Sch. Dist. No. 89 v.
Dep’t of Educ.,
550 U.S. 81 (2007) .....................................

9

FEDERAL STATUTES
11 U.S.C. § 507(a)(8)(A)(i) ............................

19

28 U.S.C. § 1254(1) .......................................

1

28 U.S.C. § 2401(b) ....................................... 23, 24
38 U.S.C. § 301(b) .........................................

2

38 U.S.C. § 1114 ...........................................

22

38 U.S.C. § 5110 ..........................................passim
38 U.S.C. § 5110(a)(1)..................................passim
38 U.S.C. § 5110(b)(1)..................................passim
38 U.S.C. § 5110(b)-(n) ................................. 24, 25
38 U.S.C. § 5110(d) .......................................

25

38 U.S.C. § 7252(a) .......................................

7

xii
TABLE OF AUTHORITIES—Continued
Page(s)
38 U.S.C. § 7292(c) .......................................

3, 7

Civil Rights Act Title VII, 42 U.S.C.
§ 2000e-5(e) ...............................................

17

Equal Access to Justice Act, 28 U.S.C.
§ 2412(d)(1)(B) ...........................................

18

Federal Tort Claims Act, 28 U.S.C.
§ 2401(b) ....................................................

24

National Childhood Vaccine Injury Act of
1986, 42 U.S.C. § 300aa-16(a)(2) ..............

22

OTHER AUTHORITIES
1 Calvin W. Corman, Limitation of Actions
(1991) .........................................................

22

DEP’T OF VETERANS AFFAIRS OFFICE OF
INSPECTOR GENERAL, REP. NO. 17-05248241, DENIED POSTTRAUMATIC STRESS
DISORDER CLAIMS RELATED TO MILITARY
SEXUAL TRAUMA (Aug. 21, 2018), available at https://www.va.gov/oig/pubs/VAO
IG-17-05248-241.pdf .................................

14

NATIONAL SURVEY OF VETERANS (Oct. 18,
2010), available at https://www.va.gov/
SURVIVORS/docs/NVSSurveyFinalWeig
htedReport.pdf ...........................................

11

U.S. DEP’T OF VETERANS AFFAIRS, THE MILITARY TO CIVILIAN TRANSITION 2018,
available at https://www.benefits.va.gov/
TRANSITION/docs/mct-report-2018.pdf ....

10

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. DEP’T OF VETERANS AFFAIRS, SUICIDE
RISK AND RISK OF DEATH AMONG RECENT
VETERANS, www.publichealth.va.gov/epid
emiology/studies/suicide-risk-death-riskrecent-veterans.asp (last visited Sept. 8,
2021) ..........................................................

3

U.S. DEP’T OF VETERANS AFFAIRS, WHAT IS
PTSD, AVOIDANCE, https://www.ptsd.va.
gov/understand/what/avoidance.asp (last
visited Sept. 6, 2021) ................................

13

PETITION FOR A WRIT OF CERTIORARI
U.S. Navy veteran Adolfo R. Arellano respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Federal
Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Federal Circuit is reported at Arellano v.
McDonough, 1 F.4th 1059 (Fed. Cir. 2021) (en banc).
The opinion of the United States Court of Appeals
for Veterans Claims is reported at Arellano v. Wilkie,
No. 18-3908, 2019 WL 3294899 (Vet. App. July 23,
2019).
STATEMENT OF JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1). The petition is timely filed per the
Court’s March 19, 2020, order extending the time to
file any petition to 150 days after the lower court
judgment.
STATUTORY PROVISIONS INVOLVED
Section 5110 of title 38 is titled “Effective dates of
awards.” Section 5110(a)(1) states:
Unless specifically provided otherwise in this
chapter, the effective date of an award based
on an initial claim, or a supplemental claim,
of compensation, dependency and indemnity
compensation, or pension, shall be fixed in
accordance with the facts found, but shall
not be earlier than the date of receipt of
application therefor.
38 U.S.C. § 5110(a)(1).

2
Section 5110(b)(1) states:
The effective date of an award of disability
compensation to a veteran shall be the day
following the date of the veteran’s discharge
or release if application therefor is received
within one year from such date of discharge
or release.
38 U.S.C. § 5110(b)(1).
INTRODUCTION
When service-disabled veterans are discharged
from military service, they have one year to file an
application for disability benefits retroactive to their
date of discharge. 38 U.S.C. § 5110(b)(1). If they fail
to do so within one year, the effective date of any
subsequent award “shall not be earlier than the date
of receipt of application therefor.” 38 U.S.C. § 5110(a)(1).
Thus, service-disabled veterans who fail to file a
claim within one year of discharge lose the retroactive disability compensation to which they would
otherwise be entitled. This case presents a simple
but important question: can the one-year filing deadline of § 5110(b)(1) be equitably tolled for good cause?
Sitting en banc, the Federal Circuit split evenly
on this question. App. 16a (“The court is equally
divided as to the reasons for its decision and as to
the availability of equitable tolling with respect to
38 U.S.C. § 5110(b)(1) . . . .”). Six judges concluded
that the Federal Circuit’s earlier decision in Andrews
v. Principi, 351 F.3d 1134 (Fed. Cir. 2003), which
held that equitable tolling is categorically unavailable
for the one-year period in § 5110(b)(1), was correctly
decided and should remain in effect. App. 69a. The
other six judges concluded that, under this Court’s
Irwin decision, a rebuttable presumption of equitable

3
tolling applies to § 5110(b)(1) and the Government
failed to rebut this presumption. App. 97a.
Because the Federal Circuit has exclusive jurisdiction to review veterans’ benefits statutes, see 38
U.S.C. § 7292(c), this 6-6 split at the Federal Circuit is
unlikely to be addressed or resolved by any other circuit courts. Accordingly, this appeal is ripe for
Supreme Court review.
The issue presented here is important to tens of
thousands of current and future military veterans. It
is an unfortunate reality that many members of the
armed forces face a difficult path once discharged from
service. Some suffer from severe physical and mental
impairments such as brain injuries, post-traumatic
stress disorder (“PTSD”), and depression,1 which can
impair their ability to timely file a disability claim
within one year of discharge. Indeed, the sad irony is
that the very illnesses the veterans’ benefits system is
designed to address, such as PTSD, are often the ones
that cause veterans to miss the one-year deadline of
§ 5110(b)(1), forfeiting retroactive benefits to which
they would otherwise be entitled.
STATEMENT OF THE CASE
A. Background
Mr. Arellano served honorably in the U.S. Navy
from November 1977 to October 1981. App. 23a. Mr.
Arellano’s psychiatric problems include prolonged
schizoaffective disorder and bipolar disorder with
1

Research shows the rate of suicide among veterans is greatest within three years of leaving service. U.S. DEP’T OF VETERANS
AFFAIRS, SUICIDE RISK AND RISK OF DEATH AMONG RECENT
VETERANS, www.publichealth.va.gov/epidemiology/studies/suiciderisk-death-risk-recent-veterans.asp (last visited Sept. 8, 2021).

4
PTSD. Id. The Department of Veterans Affairs (“VA”)
found that symptoms of these disorders were causally
linked to trauma he suffered while in service when
he was working on an aircraft carrier during a collision that killed and injured several of his shipmates
and nearly swept him overboard. App. 23a-24a, 155a156a.
B. Proceedings Before
Veterans Court

the

VA

and

the

Mr. Arellano first applied for disability benefits in
2011 and was awarded a 100% disability rating for
his psychiatric disorders with an effective date of June
3, 2011, the date of his application. App. 153a, 156a.
Mr. Arellano, through his brother as his representative, appealed the decision to the Board of Veterans’
Appeals (“Board”), arguing that the one-year filing
deadline in § 5110(b)(1) should be equitably tolled to
allow Mr. Arellano to claim retroactive benefits back
to the date of his discharge from service. App. 123a139a.
The Board acknowledged that “the assertion has
been raised that the Veteran’s mental illness prevented him from filing a claim earlier than June 3,
2011.” App. 116a. Nevertheless, the Board declined to
consider a claim for equitable tolling because it construed Federal Circuit precedent as categorically barring equitable tolling of the one-year filing period of
§ 5110(b)(1) under any circumstances. App. 116a-117a.
Mr. Arellano timely appealed to the Court of Appeals
for Veterans Claims (“Veterans Court”) and again
argued that the facts of his case warrant equitably
tolling the one-year filing deadline of § 5110(b)(1).
App. 2a-3a. The Veterans Court dismissed that argument and held that the Federal Circuit’s decision in

5
Andrews categorically precludes equitable tolling of
any of the deadlines in 38 U.S.C. § 5110. App. 4a5a (“Appellant’s argument is squarely foreclosed by
binding precedent. In Andrews . . . [,] the Federal
Circuit addressed whether section 5110 was subject
to equitable tolling. It rejected that argument.”
(citations omitted)). Yet despite finding that Andrews
“binds the Court today,” the Veterans Court stated
that, “[i]f we were writing on a blank slate, appellant’s
arguments would be worth exploring.” App. 6a.
Thus, the Veterans Court did not reach the merits
of Mr. Arellano’s equitable tolling argument because
it held that equitable tolling is inapplicable to § 5110
under any circumstances. Id. Mr. Arellano timely
appealed the Veterans Court’s decision to the Federal
Circuit.
C. The Federal Circuit’s En Banc Decision
Following oral argument before the assigned threejudge panel, the Federal Circuit sua sponte ordered
the case to be reheard en banc. App. 9a. The court
requested supplemental briefing on several questions,
including:
A. Does the rebuttable presumption of the
availability of equitable tolling articulated in
Irwin . . . apply to 38 U.S.C. § 5110(b)(1), and
if so, is it necessary for the court to overrule
Andrews . . . ?
B. Assuming Irwin’s rebuttable presumption applies to § 5110(b)(1), has that presumption been rebutted?
App. 9a-10a.

6
On June 17, 2021, the Federal Circuit issued a per
curiam decision affirming the Veterans Court’s decision based on two evenly divided and contradictory
grounds. App. 14a-97a. In a concurring opinion by
Circuit Judge Chen, six judges concluded that, consistent with the Federal Circuit’s earlier ruling in
Andrews, “§ 5110(b)(1) is not a statute of limitations
subject to Irwin’s presumption of equitable tolling.”
App. 69a. They further concluded that, “even if Irwin’s
presumption were to apply, it would be rebutted by
the statutory text of § 5110, which evinces clear
intent from Congress to foreclose equitable tolling of
§ 5110(b)(1)’s one-year period.” Id.
The other six judges, in a concurring opinion by
Circuit Judge Dyk, reached the opposite conclusion
regarding the Irwin presumption and the availability
of equitable tolling. They concluded that “§ 5110(b)(1)
is a statute of limitations that is subject to the
rebuttable presumption of equitable tolling under
Irwin,” and that “the presumption has not been rebutted.” App. 97a. On the other hand, they found that Mr.
Arellano’s “specific circumstances” did not justify equitable tolling in this case, and they therefore concurred in the judgment affirming the Veterans
Court’s decision with respect to Mr. Arellano. Id.
The judges joining Judge Chen’s concurrence disagreed with those who joined Judge Dyk’s concurrence
as to whether, if equitable tolling is available, this
appeal can be decided without a remand based on
the facts of Mr. Arellano’s particular case. As they
explained, if equitable tolling were deemed to apply to
§ 5110(b)(1), “we would remand this case for further
factual development—which is all the more justified
because Mr. Arellano has expressly requested this
outcome under such circumstances and no party has

7
argued that we may affirm the Veterans Court’s
decision on factual grounds.” App. 68a-69a.
Thus, although the judgment below is a per curiam
affirmance, there is no single majority opinion
supporting this outcome. As the Federal Circuit itself
observed:
The court is equally divided as to the reasons
for its decision and as to the availability of
equitable tolling with respect to 38 U.S.C.
§ 5110(b)(1) in other circumstances. The
effect of our decision is to leave in place our
prior decision, Andrews . . . , which held
that principles of equitable tolling are not
applicable to the time period in 38 U.S.C.
§ 5110(b)(1).
App. 16a.
REASONS FOR GRANTING THE PETITION
I. THE FEDERAL CIRCUIT IS DEADLOCKED 6-6 ON AN ISSUE FOR
WHICH IT HAS EXCLUSIVE APPELLATE
JURISDICTION
This case is ripe for Supreme Court review because
it involves a clear intra-circuit conflict regarding a
federal statute for which the Federal Circuit has
exclusive appellate jurisdiction. Specifically, 38 U.S.C.
§ 7292(c) gives the Federal Circuit “exclusive jurisdiction to review and decide any challenge to the
validity of any statute or regulation or any interpretation thereof” raised in an appeal from the Veterans
Court. The Veterans Court, in turn, has exclusive
jurisdiction to review decisions of the Board, which
is part of the VA. See 38 U.S.C. § 7252(a). Because the
VA is the sole agency charged with administering

8
veterans’ benefits statutes, see 38 U.S.C. § 301(b), this
means the Federal Circuit has exclusive jurisdiction
for reviewing any challenge to the interpretation
of such statutes, including 38 U.S.C. § 5110(b)(1).
Given the Federal Circuit’s unique subject matter
jurisdiction, no other circuit is likely to address or
critique the Federal Circuit’s 6-6 decision in this case
regarding the availability of equitable tolling for
§ 5110(b)(1). In other words, this is not a situation
where a majority view will eventually emerge among
the circuits given enough time. The only circuit with
jurisdiction to address this issue has spoken, and it is
deadlocked.
Moreover, this is not a situation where the intracircuit conflict exists only in the form of contradictory
panel decisions. In such cases, this Court may prefer
to allow the circuit to try to resolve the conflict on
its own. Here, however, the Federal Circuit has
already attempted to resolve its internal conflict by
sua sponte ordering this case to be reheard en banc.
App. 9a. Even then, the conflict persisted, resulting
in the Federal Circuit being “equally divided as to the
reasons for its decision and as to the availability of
equitable tolling with respect to 38 U.S.C. § 5110(b)(1)
in other circumstances.” App. 16a.
Because there is no majority opinion in the decision
below, the effect is to leave in place the Federal
Circuit’s earlier panel decision in Andrews, which held
that § 5110(b)(1) is not amenable to equitable tolling
under any circumstances. Id. Yet fully half of the
en banc court believes Andrews was wrongly decided
in light of Irwin and should be overturned. App. 19a
(“Judge Dyk and five of our colleagues, however, would
overturn Andrews and conclude that § 5110(b)(1) is a
statute of limitations entitled to Irwin’s presumption.”).

9
In similar situations where a circuit court has been
evenly divided on an issue after thoroughly considering it en banc, this Court has granted certiorari to
resolve the conflict. See, e.g., Lucia v. SEC, 138 S. Ct.
2044, 2050-51 (2018); Connick v. Thompson, 563 U.S.
51, 54 (2011); Zuni Pub. Sch. Dist. No. 89 v. Dep’t of
Educ., 550 U.S. 81, 89 (2007); Carnegie-Mellon Univ.
v. Cohill, 484 U.S. 343, 348 (1988); Tinker v. Des
Moines Indep. Cmty. Sch. Dist., 393 U.S. 503, 505-06
(1969). The Court should likewise do so here.
II. WHETHER 38 U.S.C. § 5110(b)(1) IS AMENABLE TO EQUITABLE TOLLING IS
AN ISSUE OF GREAT IMPORTANCE TO
MILITARY VETERANS AND THEIR
FAMILIES
Congress created the veterans’ benefits system to
compensate veterans for the sacrifices they make in
service to our country. The system “is designed to
function throughout with a high degree of informality
and solicitude for the claimant.” Henderson v. Shinseki,
562 U.S. 428, 431 (2011) (quoting Walters v. Nat’l Ass’n
of Radiation Survivors, 473 U.S. 305, 311 (1985)); see
also United States v. Oregon, 366 U.S. 643, 647 (1961)
(“The solicitude of Congress for veterans is of long
standing.”).
A unique aspect of the veterans’ benefits system is
that “the veteran is often unrepresented during the
claims proceedings.” Shinseki v. Sanders, 556 U.S.
396, 412 (2009) (citation omitted). This is especially
true at the beginning of the process when the veteran
first separates from the military and transitions to
civilian life. It is during this tumultuous transition2
2

“The transition from military to civilian life is widely recognized as a sometimes challenging and stressful process for

10
that the one-year clock of 38 U.S.C. § 5110(b)(1) begins
winding down.
Mr. Arellano, suffering from severe serviceconnected cognitive impairments and unrepresented
by counsel, missed his one-year deadline for filing a
claim for retroactive disability benefits. But he is
hardly alone in doing so. Other veterans have likewise argued that they lacked the mental or physical
capacity during this one-year period to file a disability claim, yet the Veterans Court has consistently
dismissed such arguments as being “foreclosed” by
binding Federal Circuit precedent. See, e.g., Kappen v.
Wilkie, No. 18-3484, 2019 WL 3949462, at *3 (Vet.
App. Aug. 22, 2019); Savage v. Wilkie, No. 18-6687,
2020 WL 1846012, at *2 (Vet. App. Apr. 13, 2020);
Ford v. McDonald, No. 15-3306, 2016 WL 4137532, at
*3-4 (Vet. App. Aug. 3, 2016).
At times, the Veterans Court has acknowledged
the harshness of Andrews, which categorically precludes all veterans from seeking equitable tolling of
§ 5110(b)(1) no matter how compelling their individual circumstances. For instance, the veteran in Savage
began experiencing severe psychological symptoms
while on active duty in the Navy and was later diagnosed with service-connected “bipolar disorder and
panic disorder with agoraphobia.” 2020 WL 1846012,
at *1. However, because he missed the deadline to
apply for retroactive benefits under § 5110(b)(1), he
lost eight years of payments to which he otherwise
would have been entitled. While sympathizing with
Service members, Veterans, their families, caregivers, and survivors.” U.S. DEP’T OF VETERANS AFFAIRS, THE MILITARY TO CIVILIAN TRANSITION 2018, at 1, available at https://www.benefits.
va.gov/TRANSITION/ docs/mct-report-2018.pdf.

11
Mr. Savage’s predicament, the Veterans Court
explained that its hands were tied by Andrews and its
progeny.
We have profound sympathy for appellant
and his family and their collective struggles
with mental illness. We do not question that
appellant suffered from a severe mental
illness during the period after his separation
from service and when he filed a claim for VA
benefits. However, we cannot provide the
relief sought in this appeal under the law that
binds us.
Id. at *2 (citation omitted). In Mr. Arellano’s case, the
Veterans Court expressed a similar sentiment. App.
6a (“If we were writing on a blank slate, appellant’s
arguments would be worth exploring. But our slate is
far from blank.” (citation omitted)).
Aside from psychological impairments such as those
at issue here and in Savage, there are other extenuating reasons why service-disabled veterans sometimes miss the one-year deadline of § 5110(b)(1). Some
veterans are simply unaware of their eligibility for
disability compensation.3 Others are misled or confused by contradictory—and sometimes incorrect—
information provided by VA personnel.
For instance, in Butler, the veteran alleged that VA
personnel actively “discouraged” him from filing a
timely claim within one year of his discharge from
service, resulting in him losing retroactive benefits.
3

See NATIONAL SURVEY OF VETERANS, at xiii (Oct. 18, 2010),
available at https://www.va.gov/SURVIVORS/docs/NVSSurvey
FinalWeightedReport.pdf (reporting 17.1% of veterans who failed
to apply for disability benefits were not aware of the VA’s
disability benefits program).

12
Butler v. Peake, No. 07-1985, 2008 WL 5101007, at *3
(Vet. App. Nov. 26, 2008), aff’d, 603 F.3d 922 (Fed. Cir.
2010). Relying on Andrews, the Veterans Court held
that, “[e]ven if it is assumed that VA personnel discouraged [Mr. Butler] from filing a claim and that
such an action was unlawful,” § 5110 is not subject
to equitable tolling under those circumstances. Id.
(emphasis added) (citing Andrews, 351 F.3d at 113738). Thus, under Andrews, even unlawful efforts by
the VA to discourage a veteran from filing a timely
disability claim are not enough to warrant equitable
tolling.
Another reason some service-disabled veterans fail
to meet the one-year deadline of § 5110(b)(1) is that
they are under secrecy orders not to disclose the
very facts and circumstances that gave rise to their
injuries. For instance, in Taylor, the veteran voluntarily participated in military experiments involving
chemical warfare agents and was required to sign
a secrecy oath preventing him from divulging “any
information” about these experiments. Taylor v.
McDonough, 3 F.4th 1351, 1356 (Fed. Cir.) (citation
omitted), reh’g en banc granted and op. vacated,
4 F.4th 1381 (Fed. Cir. 2021). During these experiments, “Mr. Taylor was exposed to EA-3580 (a nerve
agent akin to VX and sarin), EA-3547 (also called CR,
a tear gas agent), and other chemical agents.” Id. at
1357 (citations omitted).
In 2006, the Department of Defense declassified
the names of the military members who had volunteered for these experiments. Id. at 1358 (citation
omitted). The following year, in 2007, Mr. Taylor filed
a claim for a service-connected disability relating to
his involvement in the previously classified program.
Id. The VA granted his 2007 claim for prospective

13
benefits but denied his request for retroactive benefits
dating back to his discharge from service, notwithstanding that he potentially faced disciplinary action
had he disclosed the existence of the military’s secret
chemical/biological human testing program earlier
than he did. Id. at 1359. The Veterans Court affirmed
the VA’s ruling, citing Andrews for the proposition
that § 5110 is not subject to equitable tolling under
any circumstances, no matter how compelling the
facts. Id. at 1360 (citing Taylor v. Wilkie, 31 Vet. App.
147, 154 (2019)). The Taylor case is currently pending
en banc review at the Federal Circuit.4
Still another reason some service-disabled veterans
fail to file a claim for disability benefits within the
one-year deadline of § 5110(b)(1) is the nature of
PTSD itself. A common symptom of PTSD is
avoidance. See U.S. Dep’t of Veterans Affairs, What Is
PTSD, Avoidance, https://www.ptsd.va.gov/understan
d/what/avoidance.asp (last visited Sept. 6, 2021).
Avoidance occurs “when a person avoids thoughts or
feelings about a traumatic event.” Id. Avoidance
causes the veteran to shun reminders of the trauma.
Id.
This avoidance phenomenon is particularly prevalent among veterans suffering from PTSD caused by
4

On June 30, 2021, a panel of the Federal Circuit held that,
although Andrews precludes equitably tolling the one-year deadline of § 5110(b)(1), principles of equitable estoppel precluded the
VA from asserting § 5110(a)(1)’s default rule against Mr. Taylor
to deprive him of retroactive benefits dating back to his discharge
from service. Taylor, 3 F.4th at 1372 n.13, 1374. On July 22, 2021,
the Federal Circuit sua sponte vacated the panel decision and
ordered the case to be reheard en banc, but only as to the issue
of equitable estoppel, not equitable tolling. Taylor, 4 F.4th at
1381-82.

14
military sexual trauma (“MST”), an unfortunately
growing problem. Evidence shows MST victims are
reluctant to file for VA disability compensation due
to avoidance, stigma, or concerns the VA will erroneously deny their claims. See Dep’t of Veterans Affairs
Office of Inspector General, Rep. No. 17-05248-241,
Denied Posttraumatic Stress Disorder Claims Related
to Military Sexual Trauma, at i-ii, 1-4, 8-9 (Aug. 21,
2018), available at https://www.va.gov/oig/pubs/VA
OIG-17-05248-241.pdf. As the VA’s own Office of
Inspector General report found, “the trauma of
restating or reliving stressful events could cause
psychological harm to MST victims and prevent them
from pursuing their claims.” Id. at 9.
III. THIS CASE IS A GOOD VEHICLE TO
RESOLVE THE FEDERAL CIRCUIT’S
SPLIT
This case is an ideal vehicle for resolving the 6-6
split at the Federal Circuit as to whether the Irwin
presumption applies to 38 U.S.C. § 5110(b)(1) and
whether the Government can rebut it. First and foremost, the 6-6 split occurred in this case, making it
the most logical vehicle for resolving the dispute.
In addition, the issue of equitable tolling of
§ 5110(b)(1) was specifically and carefully preserved
at every level of the adjudicatory process in this case,
from the agency level through Mr. Arellano’s appeal
to the Federal Circuit. Thus, there are no concerns
about waiver, nor are there any concerns that the
lower tribunals did not have a clear opportunity to
consider and address this issue. In fact, equitable
tolling of § 5110(b)(1) was the only issue raised before
the Veterans Court and the Federal Circuit, making
this a highly focused appeal with just one determinative legal issue. See App. 3a (“Appellant’s sole

15
argument on appeal is that the Board erred when it
did not ‘toll’ the operation of 38 U.S.C. § 5110 concerning the ‘effective dates of awards.’”).
This Court has jurisdiction over this appeal, the
petitioner has standing, and the issue of equitable
tolling of § 5110(b)(1) is clearly ripe for review. Thus,
there are no procedural hurdles or jurisdictional
pitfalls associated with this case.
Finally, there are no disputed factual issues precluding this Court from reaching and resolving the
legal question presented—whether § 5110(b)(1) is
amenable to equitable tolling. Although the Dyk concurrence concluded that equitable tolling is not available in Mr. Arellano’s “specific circumstances,” App.
97a, the Chen concurrence disagreed that this case
can be resolved without a remand if § 5110(b)(1) is
deemed amenable to equitable tolling. App. 68a-69a.
Thus, even on this issue, the Federal Circuit is equally
divided.
In any event, the question of whether a remand is
necessary if this Court concludes that § 5110(b)(1) is
amenable to equitable tolling is not a question that
turns on disputed facts. Rather, it turns on a disputed
principle of jurisprudence, namely whether it is appropriate for an appellate court reviewing an agency’s
decision to apply the law to the facts of a particular
case when the agency itself specifically declined to
address those facts and made no factual findings. On
this point, the Dyk concurrence represents not only a
split from the six judges of the Chen concurrence, but
also from all other circuits and this Court’s longstanding guidance. See SEC v. Chenery Corp., 332 U.S. 194,
196 (1947) (“[A] reviewing court, in dealing with a
determination or judgment which an administrative
agency alone is authorized to make, must judge the

16
propriety of such action solely by the grounds invoked
by the agency. If those grounds are inadequate or
improper, the court is powerless to affirm the administrative action by substituting what it considers to be
a more adequate or proper basis.”); accord INS v.
Orlando Ventura, 537 U.S. 12, 16-17 (2002) (“Generally speaking, a court of appeals should remand a case
to an agency for decision of a matter that statutes
place primarily in agency hands.”). This Court can
resolve this intra- and inter-circuit jurisprudential split
without having to wade into any disputed facts.
IV. THE FEDERAL CIRCUIT’S DECISION
BELOW SHOULD BE OVERTURNED
BECAUSE IT IS INCONSISTENT WITH
IRWIN AND ITS PROGENY
A. The Irwin Presumption Applies to the
One-Year Filing Deadline of 38 U.S.C.
§ 5110(b)(1)
In Irwin, this Court announced a new, “more
general rule” to determine when equitable tolling is
available in suits against the Government. 498 U.S. at
95-96. The Court held that “the same rebuttable
presumption of equitable tolling applicable to suits
against private defendants should also apply to suits
against the United States.” Id. The Court used broad
language to describe the timing provisions to which
this new rule would apply, including “statutory time
limit[s],” “statutory filing deadline[s],” “time limits in
suits against the Government,” and “[t]ime requirements.” Id. at 94-95. The Court gave no indication that
the presumption could not apply to administrative
deadlines or to deadlines set forth in federal disability benefits programs. Cf. Sebelius v. Auburn Reg’l
Med. Ctr., 568 U.S. 145, 162 (2013) (Sotomayor, J.,
concurring) (“[W]e have never suggested that the

17
presumption in favor of equitable tolling is generally
inapplicable to administrative deadlines.”); Scarborough
v. Principi, 541 U.S. 401, 422 (2004) (noting that
Irwin’s presumption could extend to “the administration of benefit programs”).
In his concurring opinion below, Judge Chen concludes that Irwin’s presumption of equitable tolling
is categorically inapplicable to the one-year deadline
in 38 U.S.C. § 5110(b)(1) because this provision does
not meet the traditional definition of a statute of
limitations. App. 27a-29a, 54a-55a. In contrast, Judge
Dyk concludes just the opposite—that “§ 5110(b)(1)
is a statute of limitations that is subject to the rebuttable presumption of equitable tolling under Irwin.”
App. 97a. This Court should resolve this 6-6 split in
favor of Judge Dyk’s view because it more clearly
aligns with Irwin and other decisions of this Court.
To begin with, contrary to the assumption at the
heart of Judge Chen’s concurrence, nowhere does
Irwin state that its new, “more general rule” regarding
equitable tolling was intended to apply only to traditional or rigidly defined statutes of limitations. For
instance, Irwin itself cites Zipes as informative on
the issue of equitable tolling. See 498 U.S. at 95 & n.2
(citing Zipes v. Trans World Airlines, Inc., 455 U.S.
385, 394 (1982)). Zipes involved an administrative
filing deadline that was “like” a statute of limitations,
albeit not necessarily one in the definitional sense.
455 U.S. at 393.
Zipes involved a 180-day administrative requirement for lodging a charge of workplace discrimination
under Title VII of the Civil Rights Act. Id. at 388-89
(citing 42 U.S.C. § 2000e-5(e)). In deciding whether
failure to satisfy this provision constituted a nonwaivable impediment to maintaining a federal lawsuit,

18
this Court applied the traditional distinction between
jurisdictional and nonjurisdictional timing requirements. Id. at 392 (formulating the question as
“whether the timely filing of an EEOC [Equal
Employment Opportunity Commission] charge is a
jurisdictional prerequisite to bringing a Title VII
suit in federal court or whether the requirement is
subject to waiver and estoppel”). The Court concluded
that “filing a timely charge of discrimination with the
EEOC is not a jurisdictional prerequisite to suit in
federal court, but a requirement that, like a statute
of limitations, is subject to waiver, estoppel, and
equitable tolling.” Id. at 393 (emphases added). The
word “like” indicates that this Court considered the
EEOC deadline to be similar to a statute of limitations, in the sense that it is nonjurisdictional and
waivable, but nevertheless distinct. Other courts
have described the EEOC filing deadline as an “exhaustion of remedies” requirement rather than a statute
of limitations. See, e.g., Hardaway v. Hartford Pub.
Works Dep’t, 879 F.3d 486, 489-90 (2d Cir. 2018)
(holding that “the failure to exhaust administrative
remedies is a precondition to bringing a Title VII
claim in federal court, rather than a jurisdictional
requirement” (citation omitted)).
Consistent with Zipes, this Court has held that
timing provisions that function as statutes of limitations, or that operate as “limited” statutes of limitations, are subject to the Irwin presumption. See,
e.g., Scarborough, 541 U.S. at 420-23 (applying the
Irwin presumption to a thirty-day deadline for
applying for fees under the Equal Access to Justice
Act, 28 U.S.C. § 2412(d)(1)(B)); Young v. United States,
535 U.S. 43, 47-48 (2002) (applying the presumption
to a three-year lookback provision in the bankruptcy
statute). In determining whether a timing provision

19
functions as a statute of limitations, this Court
considers the provision’s “functional characteristics,”
i.e., whether it serves the policies of a statute of
limitations. Lozano v. Montoya Alvarez, 572 U.S. 1, 1415 & n.6 (2014). Statutes of limitations encourage
“plaintiffs to pursue ‘diligent prosecution of known
claims,’” CTS Corp. v. Waldburger, 573 U.S. 1, 8 (2014)
(citation omitted), and thereby “protect defendants
against stale or unduly delayed claims,” John R. Sand
& Gravel Co. v. United States, 552 U.S. 130, 133 (2008).
Thus, in determining whether a timing provision
functions as a statute of limitations, courts focus on
whether the provision serves “the main goal of a
statute of limitations: encouraging plaintiffs to
prosecute their actions promptly or risk losing rights.”
In re Neff, 824 F.3d 1181, 1185 (9th Cir. 2016).
In Young, this Court considered whether equitable
tolling was available for the three-year “lookback”
period in 11 U.S.C. § 507(a)(8)(A)(i), which provides
that a claim by the Internal Revenue Service (“IRS”)
for tax liabilities owed by a bankrupt taxpayer is
nondischargeable if the tax return was due within
three years before the bankruptcy petition was filed.
535 U.S. at 46-47. This Court agreed with the IRS
that “[t]he three-year lookback period is a limitations
period subject to traditional principles of equitable
tolling.” Id. at 47. The Court acknowledged that,
“unlike most statutes of limitations, the lookback
period bars only some, and not all, legal remedies
for enforcing the claim (viz., priority and nondischargeability in bankruptcy).” Id. at 47-48 (footnote
omitted). But it nevertheless serves the same “basic
policies [furthered by] all limitations provisions:
repose, elimination of stale claims, and certainty
about a plaintiff’s opportunity for recovery and a
defendant’s potential liabilities.” Id. (alteration in

20
original) (quoting Rotella v. Wood, 528 U.S. 549, 555
(2000)). The Court reasoned that this “makes it a
more limited statute of limitations, but a statute of
limitations nonetheless.” Id.
Section 5110(b)(1) of title 38 functions as a statute
of limitations every bit as much as the three-year
lookback period in Young, if not more. Like the
lookback period in Young, § 5110(b)(1) “prescribes a
period within which certain rights”—namely a disabled veteran’s right to claim retroactive disability
benefits—“may be enforced.” Id. at 47. Like the lookback period in Young, § 5110(b)(1) encourages disabled veterans to protect their rights by filing any
ripe disability claims within one year of discharge.
And, as in Young, if disabled veterans “sleep[] on
[their] rights,” they lose entitlement to any retroactive
benefits they otherwise could have been awarded. Id.
This, in turn, serves the “basic policies of . . . repose,
elimination of stale claims, and certainty about a
plaintiff’s opportunity for recovery and a defendant’s
potential liabilities.” Rotella, 528 U.S. at 555.
In his concurring opinion, Judge Chen reasons that
§ 5110(b)(1) is not a statute of limitations because
it “does not operate to bar a veteran’s claim for benefits
for a particular service-connected disability after one
year has passed.” App. 30a. But as Judge Dyk correctly
recognizes in his concurrence, § 5110(b)(1) controls
whether service-disabled veterans are entitled to retroactive disability benefits dating back to their discharge from service. App. 77a. As Judge Dyk explains,
“[t]he claim for benefits here has two components: (1)
a retrospective claim for benefits for past disability,
and (2) a prospective claim for future benefits.” Id.
“[Section] 5110(b)(1) does impose what is clearly a
one-year statute of limitations for retrospective

21
claims—making retrospective benefits unavailable
unless the claim is filed within one year after
discharge.” Id.
Judge Chen also opines that § 5110(b)(1) “determines one of many elements of a benefits claim that
affects the amount of a veteran’s award but, unlike a
statute of limitations, does not eliminate a veteran’s
ability to collect benefits for that very disability.” App.
30a. But this Court has deemed similar timing
provisions to be statutes of limitations amenable to
equitable tolling, despite being primarily related to
the amount a claimant can recover. For instance, the
Court has described the copyright damages statute
as “a three-year look-back limitations period.” Petrella
v. Metro-Goldwyn-Mayer, Inc., 572 U.S. 663, 670
(2014). As the Court explained in Petrella, the copyright damages statute, “coupled to the separateaccrual rule,” means that a copyright owner can sue
anytime during an ongoing infringement. Id. at 68283. “She will miss out on damages for periods prior
to the three-year look-back, but her right to prospective injunctive relief should, in most cases, remain
unaltered.” Id. The six-year lookback period in the
patent damages statute operates similarly, and this
Court has likewise described it as a statute of limitations. See SCA Hygiene Prods. Aktiebolag v. First
Quality Baby Prods., LLC, 137 S. Ct. 954, 961-62
(2017).
The three-year copyright statute of limitations has
long been understood to be amenable to equitable
tolling for circumstances such as the legal disability
of an injured party. See, e.g., Aspen Tech., Inc. v. M3
Tech., Inc., 569 F. App’x 259, 264 (5th Cir. 2014);
Prather v. Neva Paperbacks, Inc., 446 F.2d 338, 33940 (5th Cir. 1971). In response, Judge Chen attempts

22
to distinguish copyright causes of action based on a
“series of discrete infringing acts” from a veteran’s
claim for disability benefits, which he describes as a
“single benefits claim for an ongoing disability.” App.
37a-38a (quoting Petrella, 572 U.S. at 671-72). But as
Judge Dyk correctly notes in his concurrence, a
veteran’s claim for disability benefits is, in reality, “not
a single benefits claim, but a claim for a series of
payments allegedly due.” App. 80a (citations omitted);
see also 38 U.S.C. § 1114 (providing monthly rates for
disability compensation).
Judge Chen further contends that § 5110(b)(1) is
not a statute of limitations because it “is not triggered
by harm from the breach of a legal duty owed by
the opposing party, and it does not start the clock on
seeking a remedy for that breach from a separate
remedial entity.” App. 30a-31a (citing 1 Calvin W.
Corman, Limitation of Actions, § 6.1, at 370 (1991)).
But as Judge Dyk correctly notes in his concurrence,
many statutory time periods and deadlines that do not
fall within these rigid definitional constraints have
been found amenable to equitable tolling. App. 73a76a (citing the thirty-six-month filing deadline of the
National Childhood Vaccine Injury Act of 1986, 42
U.S.C. § 300aa-16(a)(2), as a “primary example of a nofault statute of limitations” found amenable to
equitable tolling).
B. The Irwin Presumption Has Not Been
Rebutted for 38 U.S.C. § 5110(b)(1)
Judge Chen opines in his concurrence that, “even if
Irwin’s presumption were to apply, equitable tolling
would nonetheless be unavailable because it is ‘inconsistent with the text of the relevant statute.’” App. 55a
(quoting Young, 535 U.S. at 49). This is incorrect.

23
Judge Chen’s concurrence first attempts to rebut
Irwin by arguing that § 5110(a)(1) is part of a “highly
detailed statutory scheme dictating specific legislative choices for when a veteran’s claim may enjoy an
effective date earlier than the date it was received
by the VA.” Id. Judge Chen points to § 5110(a)(1)’s
text, which instructs that a day-of-receipt effective
date applies “[u]nless specifically provided otherwise
in this chapter.” App. 57a (quoting 38 U.S.C.
§ 5110(a)(1)). Judge Chen opines that this “unless”
clause proves that Congress “implicitly intended to
preclude the general availability of equitable tolling
by explicitly including a more limited, specific selection of equitable circumstances under which a veteran
is entitled to an earlier effective date . . . .” App. 57a58a.
Although Judge Chen concedes that § 5110(b)(1) is
not jurisdictional, App. 56a, his “unless” reasoning
is fundamentally a jurisdictional argument—i.e., that
Congress intended to expressly forbid equitable
tolling. See John R. Sand, 552 U.S. at 134 (referring
to “jurisdictional” as a “convenient shorthand” for
absolute time limits that forbid equitable tolling (citation omitted)); see also United States v. Kwai Fun
Wong, 575 U.S. 402, 408 n.2 (2015) (resolving the
argument that 28 U.S.C. § 2401(b) “prohibits” equitable tolling under the same analysis used to determine whether § 2401(b) is jurisdictional). The VA
must therefore show that the language of § 5110(b)(1)
meets the “high bar” of showing that Congress made
a “clear statement” towards such a prohibition. Kwai
Fun Wong, 575 U.S. at 409-10 (citation omitted). It
cannot do so.
As Judge Dyk explains in his concurrence, many
limitations periods are framed in language far more

24
emphatic and mandatory than § 5110(a)(1), yet they
have nevertheless been found to be nonjurisdictional
and subject to the general rule in favor of equitable
tolling. See App. 83a-84a; see also Henderson, 562
U.S. at 439 (“[W]e have rejected the notion that ‘all
mandatory prescriptions, however emphatic, are . . .
properly typed jurisdictional.’” (citation omitted)).
This Court has also rejected the idea that an “unless”
clause to an otherwise general prohibition such as
§ 5110(a)(1) creates a jurisdictional bar to equitable
tolling. Kwai Fun Wong, 575 U.S. at 410-11. The
Federal Tort Claims Act, 28 U.S.C. § 2401(b) (“FTCA”)
is one such example. Like § 5110(a)(1), it employs an
“unless” clause to forbid a tort claim against the United
States “unless” certain criteria are met: “A tort claim
against the United States shall be forever barred unless
it is presented in writing to the appropriate Federal
agency within two years after such claim accrues . . . .”
28 U.S.C. § 2401(b) (emphasis added). Despite the
FTCA’s emphatic “forever barred” language, this Court
found it to be “of no consequence” to the Irwin
presumption. Kwai Fun Wong, 575 U.S. at 410-11.
In his concurring opinion, Judge Chen also attempts
to rebut Irwin by branding § 5110(a)(1) as the general rule that controls the effective dates for various
VA benefits and characterizing § 5110(b)-(n) as “exceptions” to that rule. App. 59a-60a. Judge Chen relies
on TRW to argue that, because Congress enumerated exceptions to § 5110(a)(1), it must have intended
to bar implied exceptions anywhere in § 5110 that
touches on effective dates, including § 5110(b)(1). Id.
(citing TRW Inc. v. Andrews, 534 U.S. 19, 28 (2001)).
But this ignores the nexus element of TRW, i.e., that
the enumerated exceptions must relate to the specific
limitations period at issue.

25
This Court held in TRW that an implied general
discovery rule in the Fair Credit Reporting Act
(“FCRA”) was not applicable in calculating the FCRA’s
limitations period because the statute’s text and
structure established a two-year limitations period
and in the same sentence provided a limited exception
for cases of willful misrepresentation. See TRW, 534
U.S. at 28-31. The Court reasoned that a judicially
recognized general discovery rule under the FCRA
would render the narrower statutory misrepresentation exception “insignificant, if not wholly superfluous.” Id. at 31 (citation omitted); see also id. at 28
(“Where Congress explicitly enumerates certain exceptions to a general prohibition, additional exceptions
are not to be implied, in the absence of evidence of a
contrary legislative intent.” (citation omitted)).
Here, in contrast, no explicit exception exists for
§ 5110(b)(1)’s one-year deadline. Section 5110 generally lists additional limitations periods to receive
retroactive coverage for other types of VA benefits
such as disability pension or death compensation. See
38 U.S.C. § 5110(b)-(n). But these have no nexus with
§ 5110(b)(1) and can never stop or slow its one-year
clock. The provision for death compensation, for
example, would hardly be rendered “insignificant” or
“wholly superfluous” if equitable tolling were available for retroactive disability compensation under
§ 5110(b)(1). TRW, 534 U.S. at 31 (citation omitted);
compare 38 U.S.C. § 5110(d), with 38 U.S.C.
§ 5110(b)(1) (defining separate benefits).

26
C. If 38 U.S.C. § 5110(b)(1) Is Amenable to
Equitable Tolling, Mr. Arellano’s Case
Must Be Remanded for Further Factual
Development
The only issue raised before the Federal Circuit in
this case was whether 38 U.S.C. § 5110(b)(1) is amenable to equitable tolling as a matter of law. App.
18a. The Chen concurrence correctly explains that
“[b]ecause both the Board and the Veterans Court
concluded that equitable tolling was categorically
unavailable for § 5110(b)(1) as a matter of law, neither
had reason to consider whether the specific facts of
Mr. Arellano’s case justified equitable tolling.” App.
67a. Nevertheless, Judge Dyk would find in the first
instance that Mr. Arellano’s specific facts do not
warrant equitable tolling in this case. App. 96a-97a.
While Judge Dyk’s concurrence purports to be
merely applying the legal standard to undisputed
facts, it errs by relying on an undeveloped evidentiary
record in attempting to do so, going so far as to
construe the absence of certain facts in the undeveloped record as dispositive factual findings. See Florida
Power & Light Co. v. Lorion, 470 U.S. 729, 744 (1985)
(“If the record before the agency does not support the
agency action, if the agency has not considered all
relevant factors, or if the reviewing court simply
cannot evaluate the challenged agency action on the
basis of the record before it, the proper course, except
in rare circumstances, is to remand to the agency for
additional investigation or explanation.”); Camp v.
Pitts, 411 U.S. 138, 142 (1973) (“[T]he focal point for
judicial review should be the administrative record
already in existence, not some new record made
initially in the reviewing court.”).

27
Judge Dyk’s analysis relies primarily on the absence
of an “allegation that Mr. Lamar [Mr. Arellano’s
brother] was somehow prevented from filing, or faced
obstacles in his attempt to file, Mr. Arellano’s request
for benefits sooner.” App. 96a. But Mr. Arellano had
no reason to present such an allegation, if it exists,
because he was instructed at every stage of his claim
that equitable tolling was categorically unavailable to
him as a matter of law. Moreover, it is far from clear
that Judge Dyk’s proposed caregiver rule applies so
rigidly. See App. 68a (“[I]t is unsurprising that Mr.
Arellano has not alleged ‘any special circumstances’
in relation to his caregiver, as Judge Dyk observes,
since no one until today had suggested that having a
caregiver creates a default presumption against
equitable tolling in this context or in any other setting
where equitable tolling can arise.”).
As Judge Dyk acknowledges, “the mere fact that a
guardian has been appointed for a claimant is a factor
in the equitable tolling inquiry, but only one factor.”
App. 93a (emphasis added) (citing K. G. v. Sec’y of
Health & Hum. Servs., 951 F.3d 1374, 1381 (Fed. Cir.
2020)). Judge Dyk attempts to dispense with all the
other potential factors by alleging that “there is no
claim that Mr. Arellano was estranged from Mr.
Lamar or refused to interact with him,” a factual
scenario present in the K. G. case. App. 96a-97a (citing
K. G., 951 F.3d at 1377). Again, the Federal Circuit
has no way of knowing whether those (or other
compelling) facts might exist in this case because Mr.
Arellano was never given an opportunity to develop
the evidentiary record in support of equitable tolling.
It is undisputed that neither the Board nor the
Veterans Court made any factual findings relevant to
whether Mr. Arellano would be entitled to equitable

28
tolling if it was available for § 5110(b)(1). See App. 68a
(“The government, for its part, has never argued in
this court that we can—or should—affirm the denial
of equitable tolling on the facts of Mr. Arellano’s
case; it has only argued that equitable tolling is unavailable as a matter of law.”). As the Chen concurrence
correctly observes, the Veterans Court and the Board:
(1) did not address any of [Mr. Arellano’s]
facts in denying equitable tolling; (2) made
no factual findings on this issue; (3) did not
consider whether further factual development may be warranted to adequately answer
that question; and (4) did not consider Judge
Dyk’s rigid ‘caregiver rule’ that bars equitable
tolling for totally and permanently disabled
veterans who have a caregiver.
Id. Indeed, far from indicating that Mr. Arellano’s
facts could never support a claim for equitable tolling,
the Veterans Court stated that his allegations would
be “worth exploring” in the absence of Andrews. App.
6a (“If we were writing on a blank slate, appellant’s
argument would be worth exploring.”).
If Andrews is overturned, the six judges of the Chen
concurrence would “remand this case for further
factual development—which is all the more justified
because Mr. Arellano has expressly requested this
outcome under such circumstances and no party has
argued that we may affirm the Veteran Court’s
decision on factual grounds.” App. 68a-69a. This is the
correct result. Because Mr. Arellano has yet to be
afforded the opportunity to develop and argue his
facts, and because the agency specifically refrained
from making any factual findings relating to equitable
tolling, a remand is necessary if this Court holds that
38 U.S.C. § 5110(b)(1) is amenable to equitable tolling.

29
Chenery, 332 U.S. at 196; Florida Power, 470 U.S. at
744; see also Goonsuwan v. Ashcroft, 252 F.3d 383, 390
n. 15 (5th Cir. 2001) (“It is a bedrock principle of
judicial review that a court reviewing an agency decision should not go outside the administrative record.”);
Rhoa-Zamora v. INS, 971 F.2d 26, 34 (7th Cir. 1992),
as modified on denial of reh’g (Nov. 4, 1992) (“We will
not weigh evidence that the Board has not previously
considered; an appellate court is not the appropriate
forum to engage in fact-finding in the first instance.”);
Tejeda-Mata v. INS, 626 F.2d 721, 726 (9th Cir. 1980)
(“[T]his Court does not sit as an administrative agency
for the purpose of fact-finding in the first instance. . .”);
Uanreroro v. Gonzales, 443 F.3d 1197, 1208 (10th Cir.
2006) (“[W]e will not, as a reviewing court, step into
the agency’s role and engage in our own fact-finding.”).
CONCLUSION
For the reasons explained above, the Court should
grant the petition.
Respectfully submitted,
JAMES R. BARNEY
Counsel of Record
KELLY S. HORN
ALEXANDER E. HARDING
FINNEGAN, HENDERSON,
FARABOW, GARRETT &
DUNNER, LLP
901 New York Avenue, NW
Washington, DC 20001-4413
(202) 408-4000
James.Barney@finnegan.com
Counsel for Petitioner
September 17, 2021

APPENDIX

1a
APPENDIX A
Not Published
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
————
No: 18-3908
————
ADOLFO R. ARELLANO,
Appellant,
v.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Appellee.
————
JUDGMENT
The Court has issued a decision in this case. The
time allowed for motions under Rule 35 of the Court's
Rules of Practice and Procedure has expired.
Under Rule 36, judgment is entered and effective
this date.
Dated: August 14, 2019

FOR THE COURT:
GREGORY O. BLOCK
Clerk of the Court
By: /s/ Abie M. Ngala
Deputy Clerk

Copies to:
James R. Bareny, Esq.
VA General Counsel (027)

2a
APPENDIX B
Designated for electronic publication only
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
————
No. 18-3908
————
ADOLFO R. ARELLANO,
Appellant,
v.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Appellee.
————
Before ALLEN, Judge.
————
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
ALLEN, Judge: Appellant Adolfo Arellano served
the Nation honorably in the United States Navy. In
this appeal, which is timely and over which the Court
has jurisdiction,1 he contests a July 28, 2017, decision
of the Board of Veterans’ Appeals that denied him
an effective date before June 3, 2011, for service connection for schizoaffective disorder type with PTSD

1

See 38 U.S.C. §§ 7252(a), 7266(a).

3a
(what we will refer to as the “mental disorder”).2
Appellant’s sole argument on appeal is that the
Board erred when it did not “toll” the operation of 38
U.S.C. § 5110 concerning the “effective dates of
awards.” Because that argument is foreclosed by binding precedent from both this Court and the Federal
Circuit, we will affirm the Board’s decision.
I. ANALYSIS
Congress has provided in section 5110 that the
effective date of an award based on an initial claim
generally is assigned based on the facts found, but
shall not be earlier than the date of receipt of an application for compensation.3 This foundational principle
is also set forth in VA regulations.4 The Court reviews
the Board’s assignment of an appropriate effective
date for clear error.5 We will reverse a factual finding
of the Board when, after reviewing the evidence of
2

Record (R.) at 2-13. The Board’s decision to award an effective date of August 29, 2011, for appellant’s service-connected
tardive dyskinesia is a favorable finding the Court may not
disturb. See Medrano v. Nicholson, 21 Vet.App. 165, 170 (2007).
Appellant does not contest this finding to the extent it is not
favorable, expressly limiting his argument to the mental disorder. See Appellant’s Brief (Br.) at 1. Therefore, the Court considers any arguments about the effective date for tardive dyskinesia
abandoned. See Pederson v. McDonald, 27 Vet.App. 276, 283
(2015) (en banc). But even if that were not the case (appellant’s
briefing is somewhat confusing on that score) the sole argument
for an earlier effective date for this condition would be the same
as the one advanced for the mental disorder. It is as legally defective here as it is there.
3

38 U.S.C. § 5110(a).

4

38 C.F.R. § 3.400(b).

5

Canady v. Nicholson, 20 Vet.App. 393, 398 (2006); see also 38
U.S.C. § 7261(a)(4); Gilbert v. Derwinski, 1 Vet.App. 49, 53 (1990).

4a
record, the Court is left with ‘“a definite and firm
conviction that a mistake has been committed.”‘6 However, and importantly for this appeal, the Court
reviews legal questions de novo.7 Finally, for all its
findings on a material issue of fact and law, the Board
must support its decision with an adequate statement
of reasons or bases that enables a claimant to understand the precise bases for the Board’s decision and
facilitates review in this Court.8 If the Board failed to
do so, remand is appropriate.9
As noted above, appellant presents only a single
issue on appeal. He does not contest the Board’s finding that he filed his claim for service connection for
his mental disorder no earlier than June 3, 2011.10 The
Board used that date for the assignment of the
effective date for service connection for his mental
disorder.11 He claims that he is entitled to an earlier
effective date because his mental disorder was so
disabling from the moment he left service in 1981
that section 5110 should be tolled such that it would
be possible for him to obtain an effective date as early
as the date of his separation from service.
Appellant’s argument is squarely foreclosed by
binding precedent. In Andrews v. Principi the Federal
Circuit addressed whether section 5110 was subject to

6

Gilbert, 1 Vet.App. at 53 (quoting United States v. U.S. Gypsum Co., 333 U.S. 364, 395 (1948)).
7

Butts v. Brown, 5 Vet.App. 532, 538 (1993) (en banc).

8

38 U.S.C. § 7104(d)(1); Gilbert, 1 Vet.App. at 57.

9

Tucker v. West, 11 Vet.App. 369, 374 (1998).

10

See Appellant’s Br. at 2.

11

R. at 10-11.

5a
equitable tolling. It rejected that argument.13 Its core
reasoning is worth quoting at length:
12

[P]rinciples of equitable tolling . . . are not
applicable to the time period in § 5110(b)(1).
Equitable tolling may be applied to toll a
statute of limitations “where the claimant
has actively pursued his judicial remedies by
filing a defective pleading during the statutory period, or where the complainant has
been induced or tricked by his adversary’s
misconduct into allowing the filing deadline
to pass.” This is not such a case, as § 5110
does not contain a statute of limitations, but
merely indicates when benefits may begin
and provides for an earlier date under certain
limited circumstances. “Generally, the effective date of an award of disability benefits
can be no earlier than the date of application
for such benefits.” Section 5110 addresses
the question of when benefits begin to accrue,
not whether a veteran is entitled to benefits
at all. Passage of the one-year period in
§ 5110(b)(1) for filing a claim of disability
compensation therefore does not foreclose
payment for the veteran and thus cannot be
construed as establishing a statute of
limitations.[14]
Appellant attempts to avoid the clear holding in
Andrews by arguing that it did not establish a broad
12

351 F.3d 1134, 1137-38 (Fed. Cir. 2003).

13

Id.

14

Id. (citations omitted) (quoting, respectively, Irwin v. Dep’t
of Veterans Affairs, 498 U.S. 89, 96 (1990); McCay v. Brown, 106
F.3d 1577, 1579 (Fed. Cir. 1997)).

6a
rule that equitable tolling can never apply to section
5110, but was limited only to the factual situation
before the court in that case.15 And he makes similar
arguments16 concerning this Court’s decision in Noah
v. McDonald, in which we interpreted Andrews to
foreclose the application of equitable toiling to section
5110.17 But these cases simply cannot be read in the
manner appellant argues. And even if we could somehow avoid Andrews and Noah as appellant suggests,
the Court’s recent decision in Taylor v. Wilkie would
alone foreclose his argument.18 There, we stated unequivocally that “[t]his Court and the Federal Circuit
have considered whether section 5110 is subject to
equitable tolling and have found that it is not.”19
If we were writing on a blank slate, appellant’s
arguments would be worth exploring.20 But our slate
is far from blank. Instead, it is filled with caselaw
that binds the Court today and dooms appellant’s sole
argument that the Board’s decision is erroneous. As
the law stands today, it is not because section 5110 is
not subject to equitable tolling.

15

See, e.g., Appellant’s Br. at 7-9.

16

See id. at 9-10.

17

28 Vet.App. 120, 128 (2016)).

18

31 Vet.App. 147 (2019).

19

Id. at 154.

20

See, e.g., Butler v. Shinseki, 603 F.3d 922, 926-28 (Fed. Cir.
2010) (Newman, J., concurring in the result) (developing an argument for equitable tolling to apply to section 5110 in certain
circumstances).

7a
II. CONCLUSION
After consideration of the parties’ briefs, the governing law, and a review of the record, the Court
AFFIRMS the Board’s July 28, 2017, decision.
DATED: July 23, 2019
Copies to:
James R. Barney, Esq.
VA General Counsel (027)

8a
APPENDIX C
United States Court of Appeals
for the Federal Circuit
[Filed August 5, 2020]
————
2020-1073
Appeal from the United States Court
of Appeals for Veterans Claims in
No. 18-3908.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
SUA SPONTE HEARING EN BANC
JAMES R. BARNEY, Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP, Washington, DC, for claimantappellant. Also represented by ALEXANDER EDISON
HARDING, KELLY HORN.
ANDREW JAMES HUNTER, Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, DC, for respondent-appellee.
Also represented by ETHAN P. DAVIS, MARTIN F.
HOCKEY, JR., ROBERT EDWARD KIRSCHMAN, JR.;
CHRISTINA LYNN GREGG, Y. KEN LEE, Office of General

9a
Counsel, United States Department of Veterans
Affairs, Washington, DC.
————
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
This case was argued before a panel of three judges
on July 6, 2020. A sua sponte request for a poll on
whether to consider this case en banc in the first
instance was made. A poll was conducted and a majority of the judges who are in regular active service voted
for sua sponte en banc consideration.
Accordingly,
IT IS ORDERED THAT:
(1) This case will be heard en banc under 28 U.S.C.
§ 46 and Federal Rule of Appellate Procedure
35(a). The court en banc shall consist of all circuit judges in regular active service who are not
recused or disqualified.
(2) The parties are requested to file new briefs
addressing the following four issues:
A. Does the rebuttable presumption of the
availability of equitable tolling articulated
in Irwin v. Department of Veterans Affairs,
498 U.S. 89 (1990), apply to 38 U.S.C.
§ 5110(b)(1), and if so, is it necessary for the
court to overrule Andrews v. Principi, 351
F.3d 1134 (Fed. Cir. 2003)?

10a
B. Assuming Irwin’s rebuttable presumption
applies to § 5110(b)(1), has that presumption
been rebutted?
C. Assuming this court holds that Irwin’s rebuttable presumption applies to § 5110(b)(1),
would such a holding extend to any additional provisions of § 5110, including but not
limited to § 5110(a)(1)?
D. To what extent have courts ruled on the
availability of equitable tolling under
statutes in other benefits programs that
include timing provisions similar to § 5110?
(3) The opening brief of Appellant Adolfo R.
Arellano must be filed within 45 days from the
date of this order. The brief of Appellee Secretary of Veterans Affairs is due within 45 days
after service of Mr. Arellano’s opening brief.
Mr. Arellano’s reply brief must be filed within
30 days after service of the Secretary’s brief.
The parties’ briefs must comply with Fed. Cir.
R. 32(b)(1).
(4) The court invites the views of amici curiae. Any
amicus brief may be filed without consent and
leave of court. Any amicus brief supporting
Mr. Arellano’s position or supporting neither
position must be filed within 20 days after service of Mr. Arellano’s opening brief. Any amicus
brief supporting the Secretary’s position must
be filed within 20 days after service of the
Secretary’s brief. Amicus briefs must comply
with Fed. Cir. R. 29(b).
(5) The court requires 26 paper copies of all briefs
and appendices provided by the filer within 5
business days from the date of electronic filing

11a
of the document. Administrative Order No. 2001 does not exempt the filing of these paper
copies.
(6) This case will be heard en banc on the basis of
the briefing ordered herein and oral argument.
(7) Oral argument will be scheduled at a later date.
FOR THE COURT
August 5, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

12a
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
[Filed September 24, 2020]
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
ROBERT WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
PER CURIAM.
ORDER
On September 22, 2020, Paul Wright,
pro se, submitted an “informal amicus
Wright also requests an exemption from
August 5, 2020 order, which directed the
paper copies of all briefs.
Upon consideration thereof,

proceeding
brief.” Mr.
the court’s
filing of 26

13a
IT IS ORDERED THAT:
Mr. Wright’s brief is accepted. The court will not require paper copies of this brief.
FOR THE COURT
September 24, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

14a
APPENDIX E
United States Court of Appeals
for the Federal Circuit
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908, Judge Michael P. Allen.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
Decided: June 17, 2021
————
JAMES R. BARNEY, Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP, Washington, DC, argued for
claimant-appellant. Also represented by ALEXANDER
EDISON HARDING, KELLY HORN.
BARBARA E. THOMAS, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
argued for respondent-appellee. Also represented by
BRIAN M. BOYNTON, CLAUDIA BURKE, MARTIN F.
HOCKEY, JR., ANDREW JAMES HUNTER; CHRISTINA
LYNN GREGG, Y. KEN LEE, Office of General Counsel,

15a
United States Department of Veterans Affairs,
Washington, DC.
MELANIE L. BOSTWICK, Orrick, Herrington &
Sutcliffe LLP, Washington, DC, for amicus curiae
Military-Veterans Advocacy Inc. Also represented by
ANNE SAVIN; JOHN B. WELLS, Law Office of John B.
Wells, Slidell, LA.
JILLIAN BERNER, UIC John Marshall Law School
Veterans Legal Clinic, Chicago, IL, for amicus curiae
National Law School Veterans Clinic Consortium.
LIAM JAMES MONTGOMERY, Williams & Connolly
LLP, Washington, DC, for amici curiae National
Organization of Veterans’ Advocates, Inc., National
Veterans Legal Services Program. Also represented by
DEBMALLO SHAYON GHOSH, ANNA JOHNS HROM; BRIAN
WOLFMAN, Georgetown Law Appellate Courts Immersion Clinic, Washington, DC.
HANNAH LAUREN BEDARD, Kirkland & Ellis LLP,
Washington, DC, for amicus curiae Charles J.
Raybine. Also represented by WILLIAM H. BURGESS.
PAUL WRIGHT, Marietta, SC, as amicus curiae, pro se.
————
Before MOORE, Chief Judge*, NEWMAN, LOURIE, DYK,
PROST**, O’MALLEY, REYNA, WALLACH***, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.

*

Chief Judge Kimberly A. Moore assumed the position of
Chief Judge on May 22, 2021.
**

Circuit Judge Sharon Prost vacated the position of Chief
Judge on May 21, 2021.
***

Circuit Judge Evan J. Wallach assumed senior status on
May 31, 2021.

16a
Opinion for the court filed PER CURIAM.
Concurring opinion filed by CHEN, Circuit Judge, in
which MOORE, Chief Judge, and LOURIE, PROST,
TARANTO, and HUGHES, Circuit Judges, join.
Concurring opinion filed by DYK, Circuit Judge, in
which NEWMAN, O’MALLEY, REYNA, WALLACH, and
STOLL, Circuit Judges, join.
PER CURIAM.
Upon consideration en banc, a unanimous court
holds that equitable tolling is not available to afford
Mr. Arellano an effective date earlier than the date
his application for benefits was received.
The court is equally divided as to the reasons for its
decision and as to the availability of equitable tolling
with respect to 38 U.S.C. § 5110(b)(1) in other circumstances. The effect of our decision is to leave in
place our prior decision, Andrews v. Principi, 351 F.3d
1134 (Fed. Cir. 2003), which held that principles of
equitable tolling are not applicable to the time period
in 38 U.S.C. § 5110(b)(1).
Accordingly, the judgment of the United States
Court of Appeals for Veterans Claims is affirmed.
AFFIRMED
COSTS
No costs.

17a
United States Court of Appeals
for the Federal Circuit
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908, Judge Michael P. Allen.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
Decided: June 17, 2021
————
CHEN, Circuit Judge, with whom MOORE, Chief
Judge, and LOURIE, PROST, TARANTO, and HUGHES,
Circuit Judges, join, concurring in the judgment.
By statute, the “effective date of an award” of disability compensation to a veteran “shall not be earlier
than the date” the veteran’s “application” for such
compensation is received by the Department of Veterans Affairs (VA). 38 U.S.C. § 5110(a)(1). Section
5110(b)(1), however, provides an exception that permits an earlier effective date if the VA receives the
application within one year of the veteran’s discharge
from military service: under such circumstances, the
effective date of the award shall date back to “the day

18a
following the date of the veteran’s discharge or
release.” Id. § 5110(b)(1). This case poses the question
of whether, under an equitable-tolling theory, an
award on an application received more than one year
after the veteran’s discharge date may still be
accorded an effective date of the day after discharge.
Specifically, we consider whether the rebuttable presumption of equitable tolling for statutes of limitations
established in Irwin v. Department of Veterans Affairs,
498 U.S. 89 (1990), applies to the one-year period in
§ 5110(b)(1).
This question arises from Adolfo R. Arellano’s
appeal from a decision of the Court of Appeals for
Veterans Claims (Veterans Court) denying him an
effective date earlier than the date his disability
benefits application was received by the VA. Though
Mr. Arellano filed his application more than 30
years after he was discharged from the Navy, he
argues that § 5110(b)(1)’s one-year period should be
equitably tolled in his case to afford his award an
earlier effective date (and his compensation an earlier
starting date) reaching back to the day after his
discharge from service.
Mr. Arellano also urges us to overrule our prior
decision in Andrews v. Principi, which held that
§ 5110(b)(1) is not a statute of limitations amenable to
equitable tolling but merely establishes an effective
date for the payment of benefits, thereby categorically
foreclosing equitable tolling under this provision. 351
F.3d 1134, 1137–38 (Fed. Cir. 2003). Because this
court sitting en banc is equally divided on this issue,
our decision today does not alter our precedent that
§ 5110(b)(1) is not a statute of limitations to which
Irwin’s presumption of equitable tolling applies.
Accordingly, the Veterans Court’s decision, which

19a
relies on Andrews to deny Mr. Arellano an earlier
effective date under § 5110(b)(1), is affirmed.
Judge Dyk and five of our colleagues, however,
would overturn Andrews and conclude that § 5110(b)(1)
is a statute of limitations entitled to Irwin’s presumption. But their basis for affirming the Veterans
Court’s decision rests on deciding, in the first instance,
that the facts of Mr. Arellano’s case do not warrant
equitable tolling. We disagree with this approach
both in substance and process. Even if Irwin’s presumption were to somehow apply here, it would be
rebutted by the statutory text of § 5110, which evinces
clear intent from Congress to foreclose equitable
tolling of § 5110(b)(1)’s one-year period. Moreover, it is
not our role as an appellate court to decide whether
Mr. Arellano’s factual circumstances warrant equitable tolling where no prior tribunal has considered the
issue and no party has argued for such an outcome.
BACKGROUND
A
Congress has provided by statute for the payment
of monetary benefits to veterans with disabilities
arising from service. 38 U.S.C. § 1110. To obtain disability compensation, veterans must first file a claim
with the VA. 38 U.S.C. § 5101(a)(1). With certain
limited exceptions not relevant here, no compensation
may be paid before such a claim is filed. Id. (with
exceptions not applicable here, a “claim . . . must be
filed in order for benefits to be paid or furnished to
any individual under the laws administered by the
Secretary”). The size of a veteran’s disability compensation award is determined, in part, by the effective date assigned to his award—i.e., the date on

20a
which benefits begin to accrue. An earlier effective
date means a greater accrual of benefits.
Section 5110 of Title 38 governs the effective date
of VA benefits awards. Two of its provisions are at
issue in this appeal. First, § 5110(a)(1) sets forth the
default rule that the effective date of an award cannot
be earlier than the date the VA receives the veteran’s
application submitting a claim for that award:
Unless specifically provided otherwise in this
chapter, the effective date of an award based
on an initial claim, or a supplemental claim,
of compensation, dependency and indemnity
compensation, or pension, shall be fixed in
accordance with the facts found, but shall not
be earlier than the date of receipt of
application therefor.
§ 5110(a)(1).1 Accordingly, the natural consequence of
§ 5110(a)(1)’s default rule is that no disability compensation is payable for periods predating the VA’s
receipt of the application for benefits, “[u]nless specifically provided otherwise” by statute.
Section 5110 sets forth several exceptions to
§ 5110(a)(1)’s default rule, each providing for a retroactive effective date—that is, an effective date earlier
than the date VA received the application—which, in
turn, leads to a greater benefits award than under the
1

No party has identified a material difference, for present
purposes, between “claim” and “application,” and the VA’s regulations appear to use these terms interchangeably. See, e.g., 38
C.F.R. § 3.1(p) (defining “claim” as “a written or electronic communication requesting a determination of entitlement or evidencing a belief in entitlement, to a specific benefit under the laws
administered by the [VA] submitted on an application form prescribed by the Secretary”).

21a
default rule. See § 5110(b)–(n). Many of § 5110’s
exceptions pertain to specific circumstances that may
delay the filing of an application for benefits. These
include: discharge from the military, § 5110(b)(1);
increase in the severity of a disability, § 5110(b)(3);
the “permanent[] and total[] disab[ility]” of a veteran,
§ 5110(b)(4); death of a spouse, § 5110(d); and correction of military records, § 5110(i). Each of § 5110’s
enumerated exceptions, however, expressly limits the
retroactivity of the effective date to one year. See, e.g.,
§ 5110(g) (“In no event shall [an] award or increase
[under this paragraph] be retroactive for more than
one year from the date of application therefor . . . .”).
As relevant here, one of those enumerated exceptions § 5110(b)(1)—provides that a disability compensation award’s effective date may date back to the
day after a veteran’s discharge if the application for
such benefits is received within one year after
discharge:
The effective date of an award of disability
compensation to a veteran shall be the day
following the date of the veteran’s discharge
or release if application therefor is received
within one year from such date of discharge
or release.
§ 5110(b)(1).
On the face of the statute, then, the effective date
for awards based on applications received more than
one year after discharge (that do not otherwise fall
within any of § 5110’s other enumerated exceptions)
“shall not be earlier than the date of receipt of application therefor.” § 5110(a)(1). This appeal considers
whether equitable tolling may apply to § 5110(b)(1)’s
one-year period to permit an effective date reaching

22a
back to the day after the veteran’s discharge from
service, even though the application for that award
was received more than one year after discharge.
The equitable-tolling doctrine, as traditionally
understood, “permits a court to pause a statutory
time limit ‘when a litigant has pursued his rights
diligently but some extraordinary circumstance
prevents him from bringing a timely action.’” See
Cal. Pub. Emps.’ Ret. Sys. v. ANZ Sec., Inc., 137 S. Ct.
2042, 2050 (2017) (quoting Lozano v. Montoya Alvarez,
572 U.S. 1, 10 (2014)) . Such “extraordinary circumstances” include “where the claimant has actively
pursued his judicial remedies by filing a defective
pleading during the statutory period, or where the
complainant has been induced or tricked by his
adversary’s misconduct into allowing the filing deadline to pass,” but exclude “a garden variety claim of
excusable neglect.” Irwin, 498 U.S. at .96 (footnote
omitted). But before deciding whether the factual circumstances are extraordinary enough to justify equitable tolling, a court must first determine whether the
statutory time limit at issue is one amenable to
equitable tolling.
This court has previously addressed whether
§ 5110(b)(1)’s one-year period is subject to equitable
tolling in Andrews. There, the claimant-appellant,
Ms. Andrews, submitted a claim for disability compensation approximately fourteen months after her
discharge from service. 351 F.3d at 1135. As a result,
she was awarded compensation effective as of the
date the VA received her claim. Ms. Andrews appealed
that decision, arguing that § 5110(b)(1)’s one-year
period should be equitably tolled for at least two
months (on a failure-to-notify theory) to qualify her
for an earlier effective date dating back to the day

23a
after discharge. We disagreed, holding that the “principles of equitable tolling . . . are not applicable to
the time period in § 5110(b)(1).” Id. at 1137. This
follows, we explained, because § 5110(b)(1) “does not
contain a statute of limitations, but merely indicates
when benefits may begin and provides for an earlier
date under certain limited circumstances.” Id. at 1138.
Unlike how a statute of limitations operates, this
statutory provision “addresses the question of when
benefits begin to accrue, not whether a veteran is
entitled to benefits at all,” and “[p]assage of the oneyear period in § 5110(b)(1) . . . does not foreclose
payment for the veteran.” Id. On that basis, we
affirmed the denial of an earlier effective date for Ms.
Andrews’s claim.
B
We now turn to the facts of Mr. Arellano’s appeal.
Mr. Arellano served honorably in the Navy from
November 1977 to October 1981. Nearly 30 years later,
on June 3, 2011, the VA regional office (RO) received
Mr. Arellano’s claim for service-connected disability
benefits for his psychiatric disorders. The RO granted
service connection with a 100 percent disability rating
for “schizoaffective disorder bipolar type with PTSD
[post-traumatic stress disorder].” J.A. 506. The granted
effective date of Mr. Arellano’s award was the date his
claim was received—i.e., June 3, 2011.
Mr. Arellano appealed his effective-date determination to the Board of Veterans’ Appeals (Board),
arguing that his mental illness had prevented him
from filing his claim earlier. Mr. Arellano submitted,
as support, a medical opinion by his psychiatrist
indicating that he had been “100% disabled since
1980,” when he was “almost crushed and swept overboard while working on the flight deck of [an] aircraft

24a
carrier.” J.A. 529. Given his disability, Mr. Arellano
argued that § 5110(b)(1)’s one-year period should be
equitably tolled to qualify him for an effective date
retroactive to the day after his discharge from the
Navy. The Board rejected his equitable-tolling argument, and the Veterans Court affirmed that decision,
concluding that Mr. Arellano’s claim was “squarely
foreclosed by binding precedent” in Andrews. See
Arellano v. Wilkie, No. 18-3908, 2019 WL 3294899, at
*2 (Vet. App. July 23, 2019).
Mr. Arellano then timely appealed to this court, and
the case was heard before a panel on July 6, 2020. On
August 5, 2020, we took the case en banc and entered
a sua sponte order directing the parties to brief the
following issues:
A. Does the rebuttable presumption of the
availability of equitable tolling articulated in
Irwin v. Department of Veterans Affairs, 498
U.S. 89 (1990), apply to 38 U.S.C. § 5110(b)(1),
and if so, is it necessary for the court to
overrule Andrews v. Principi, 351 F.3d 1134
(Fed. Cir. 2003)?
B. Assuming Irwin’s rebuttable presumption
applies to § 5110(b)(1), has that presumption
been rebutted?
C. Assuming this court holds that Irwin’s
rebuttable presumption applies to § 5110(b)(1),
would such a holding extend to any additional
provisions of § 5110, including but not limited
to § 5110(a)(1)?
D. To what extent have courts ruled on the
availability of equitable tolling under statutes in other benefits programs that include
timing provisions similar to § 5110?

25a
Order Granting En Banc Review, No. 20-1073 (Aug.
5, 2020), ECF No. 45, at 2–3.
DISCUSSION
A
Our jurisdiction to review decisions of the Veterans
Court is limited by statute. See 38 U.S.C. § 7292. “The
Court of Appeals for the Federal Circuit shall decide
all relevant questions of law, including interpreting
constitutional and statutory provisions.” § 7292(d)(1).
Because our review of this decision involves a question of statutory interpretation—namely, the availability of equitable tolling for a particular statutory
provision—we have jurisdiction over this matter.
We review questions of law, such as this one, de novo.
Prenzler v. Derwinski, 928 F.2d 392, 393 (Fed. Cir.
1991).
Irwin sets forth the analytical framework that
guides our decision. At issue there was whether a
statute of limitations in a suit against the government
was subject to equitable tolling. Specifically, the
Irwin petitioner sought equitable tolling of 42 U.S.C.
§ 2000e-16(c)’s 30-day deadline for filing a Title VII
civil action against the federal government in district
court after receiving a right-to-sue notice from the
Equal Employment Opportunity Commission (EEOC).
While statutes of limitations in suits between private
litigants are “customarily” subject to equitable tolling,
an analogous presumption had not yet been established for suits against the government. See Irwin, 498
U.S. at 95. Irwin held that “the same rebuttable
presumption of equitable tolling applicable to suits
against private defendants should also apply to suits
against the United States.” Id. at 95–96. This case
thus established a rule of general applicability for

26a
equitable tolling of statutes of limitations in suits
against the government, with the caveat that “Congress,
of course, may provide otherwise if it wishes to do
so.” Id. at 96.
From this, we have understood the Irwin framework
to consist of two steps. First, we must determine
whether the rebuttable presumption of equitable
tolling applies to the statutory provision at issue.
And, if so, we must then determine whether that
presumption has been rebutted—or in other words,
whether there is “good reason to believe that Congress did not want the equitable tolling doctrine to
apply” to the statute. See United States v. Brockamp,
519 U.S. 347, 349–50 (1997). We address each step of
the analysis in turn.
B
Before determining whether Irwin’s presumption of
equitable tolling applies to § 5110(b)(1), we first elucidate our understanding of the presumption’s origins
and limits.
“Congress is understood to legislate against a background of common-law adjudicatory principles.”
Astoria Fed. Sav. & Loan Ass’n v. Solimino, 501 U.S.
104, 108 (1991). One such background principle is
that “federal statutes of limitations are generally
subject to equitable principles of tolling,” see Rotella v.
Wood, 528 U.S. 549, 560–61 (2000), which is “a longestablished feature of American jurisprudence derived
from ‘the old chancery rule,’” Lozano, 572 U.S. at 10–
11 (quoting Holmberg v. Armbrecht, 327 U.S. 392,
397 (1946)). Justification for this principle comes
from recognizing that tolling can be consistent with
the purpose of a statute of limitations under certain
circumstances. In other words, because a statute of

27a
limitations is designed “to encourage the plaintiff to
pursue his rights diligently” after a cause of action
has accrued, when an “extraordinary circumstance
prevents him from bringing a timely action” despite
his diligence, “the restriction imposed by the statute
of limitations [no longer] further[s] the statute’s
purpose” and can be equitably tolled. CTS Corp. v.
Waldburger, 573 U.S. 1, 10 (2014) (cleaned up).
Given that “Congress must be presumed to draft
limitations periods in light of this background
principle,” Young v. United States, 535 U.S. 43, 49–50
(2002), courts have customarily “presume[d] that equitable tolling applies if the period in question is a
statute of limitations and if tolling is consistent with
the statute,” Lozano, 572 U.S. at 11. And while this
practice began in lawsuits between private litigants,
Irwin subsequently extended the presumption to
suits against the government. 498 U.S. at 95– 96
(“[T]he same rebuttable presumption of equitable tolling applicable to suits against private defendants
should also apply to suits against the United States.”
(emphasis added)); see also id. at 96 (“[I]t is evident
that no more favorable tolling doctrine may be employed
against the [g]overnment than is employed in suits
between private litigants.”).
Because the presumption serves as a proxy for the
background legal principles that Congress is understood to legislate against, it follows that Irwin’s presumption is limited to only those statutory provisions
that are established in common law as subject to
equitable tolling—namely, statutes of limitations. See
John R. Sand & Gravel Co. v. United States, 552 U.S.
130, 137 (2008) (“[Irwin’s] presumption seeks to
produce a set of statutory interpretations that will
more accurately reflect Congress’ likely meaning in

28a
the mine run of instances where it enacted a
[g]overnment-related statute of limitations.”). To
that end, the Supreme Court has so far applied the
presumption of equitable tolling only to statutory
provisions that Congress clearly would have viewed as
statutes of limitations. See, e.g., Lozano, 572 U.S. at
13–14 (“[W]e have only applied [the] presumption [in
favor of equitable tolling] to statutes of limitations.”);
Zipes v. Trans World Airlines, Inc., 455 U.S. 385, 393–
95 (1982) (holding that a limited filing period for
EEOC charges is like a statute of limitations that is
subject to waiver, estoppel, and equitable tolling). This
comports with the understanding that equitable
tolling “applies when there is a statute of limitations;
it is, in effect, a rule of interpretation tied to that
limit.” Petrella v. Metro-Goldwyn-Mayer, Inc., 572 U.S.
663, 681 (2014) (emphasis added); see also Equitable
Tolling, BLACK’S LAW DICTIONARY (11th ed. 2019)
(defining “equitable tolling” as “[t]he doctrine that the
statute of limitations will not bar a claim if . . .”
(emphasis added)); Holmberg v. Armbrecht, 327 U.S.
392, 397 (1946) (“[E]quitable [tolling] is read into
every federal statute of limitation.”). Conversely, the
Supreme Court has declined to presume that equitable
tolling applies where the time limit at issue functions
“[u]nlike a statute of limitations,” see Hallstrom v.
Tillamook County, 493 U.S. 20, 27 (1989) (emphasis
added), or lacks “a background principle of equitable
tolling,” see Lozano, 572 U.S. at 12. See also Sebelius
v. Auburn Reg’l Med. Ctr., 568 U.S. 145, 158–59 (2013)
(declining to presume that “an agency’s internal
appeal deadline” is subject to equitable tolling because
the Supreme Court had “never applied the Irwin
presumption to [such a provision]”). As these cases
reflect, determining that Congress would have viewed
a provision as a statute of limitations is a necessary

29a
first step in inferring congressional intent to permit
equitable tolling of that provision. Accordingly, absent
some other established background principle of law
permitting equitable tolling for the statutory provision
at issue, Irwin’s presumption applies only to those
statutory provisions that Congress clearly would have
viewed as statutes of limitations.
Our conclusion is supported not only by Irwin’s
logic and the subsequent cases applying it, but also, by
the limitations of the Appropriations Clause of the
Constitution, art. I, § 9, cl. 7, on the payment of money
from the public fisc contrary to the express terms of
a statute. See Off. of Pers. Mgmt. v. Richmond, 496
U.S. 414, 424 (1990). The Appropriations Clause provides that “[n]o Money shall be drawn from the
Treasury, but in Consequence of Appropriations
made by Law.” As the Supreme Court explained in
Richmond: “For the particular type of claim at issue
here, a claim for money from the Federal Treasury, the
Clause provides an explicit rule of decision. Money
may be paid out only through an appropriation made
by law; in other words, the payment of money from the
Treasury must be authorized by a statute.” 496 U.S.
at 424.2 Thus, where a plaintiff seeks to enlarge the
monetary benefits awarded by the express terms of a
statute through equitable tolling (as Mr. Arellano does
here), we must decide whether Congress intended to
authorize payment of those additional benefits via
2

That is not to say, however, that the Appropriations Clause
bars all equitable tolling against the government for monetary
claims. Instead, if “application of the doctrine [of equitable tolling] is consistent with Congress’ intent in enacting a particular
statutory scheme, [then] there is no justification for limiting the
doctrine to cases that do not involve monetary relief.” See Bowen
v. City of New York, 476 U.S. 467, 479 (1986).

30a
equitable tolling. This, in turn, necessarily implicates
the question of whether Congress would have viewed
the benefits provision at issue as a statute of limitations carrying the usual feature of equitable tolling.
Our analysis therefore begins by asking whether
§ 5110(b)(1)’s effective date provision is such a provision. As discussed below, and consistent with our
reasoning in Andrews, § 5110(b)(1) is not a statute
of limitations.
C
To determine whether § 5110(b)(1) is a statute of
limitations, we consider whether this provision satisfies the “functional characteristics” of such statutes.
Lozano, 572 U.S. at 15 n.6 (“[T]he determination [of]
whether [a statutory provision] is a statute of limitations depends on its functional characteristics . . . .”).
As explained below, § 5110(b)(1) does not have the
functional characteristics of a statute of limitations.
We see two reasons why Congress would not have
thought that the provision belongs to that category of
laws.
First, § 5110(b)(1) does not operate to bar a veteran’s claim for benefits for a particular serviceconnected disability after one year has passed.
Instead, like the general rule of § 5110(a)(1), it
determines one of many elements of a benefits claim
that affects the amount of a veteran’s award but,
unlike a statute of limitations, does not eliminate a
veteran’s ability to collect benefits for that very
disability. Second, and relatedly, § 5110(b)(1) lacks
features standard to the laws recognized as statutes
of limitations with presumptive equitable tolling: its
one-year period is not triggered by harm from the
breach of a legal duty owed by the opposing party, and

31a
it does not start the clock on seeking a remedy for
that breach from a separate remedial entity. See 1
Calvin W. Corman, LIMITATION OF ACTIONS, § 6.1, at
370 (1991). The statutory scheme governing veterans’
benefits makes clear that the VA is not obligated to
pay any benefits before a claim applying for such
benefits is filed, so there is no duty, or breach of duty,
at the onset of § 5110(b)(1)’s one-year period (i.e., the
day after discharge). Moreover, no remedial authority
separate from the VA is involved in an initial
application for veterans’ benefits.3 The effective-date

3

Judge Dyk contends that the need for a separate remedial
authority is inconsistent with three cases purportedly establishing that “a statute governing the timeliness of a claim to an
agency for payment from that agency is a statute of limitations.”
Dyk Op. 7 (citing United States v. Williams, 514 U.S. 527, 534 &
n.7 (1995); Colvin v. Sullivan, 939 F.2d 153, 156 (4th Cir. 1991);
and Warren v. Off. of Pers. Mgmt., 407 F.3d 1309, 1316 (Fed. Cir.
2005)). None of these cases, however, addresses equitable tolling
of such statutes, let alone holds that they are entitled to Irwin’s
presumption. Instead, these cases merely use the phrase “statute
of limitations” briefly in dicta as a colloquial expression for a
statutory time limit. But as Williams readily demonstrates, the
fleeting and casual use of this phrase in no way establishes that
Irwin’s presumption applies to those time limits or that they can
be equitably tolled.
Williams concerns the same statutory provision (26 U.S.C.
§ 6511) revisited two years later in Brockamp. While equitable
tolling was not at issue in Williams, Brockamp raised the
question of whether § 6511 may be equitably tolled under Irwin.
Rather than concluding that Irwin’s presumption applies, the
Supreme Court carefully “assume[d] . . . only for argument’s
sake” that § 6511’s time limit was an Irwin-covered statute of
limitations. See Brockamp, 519 U.S. at 349–50; see also Auburn,
568 U.S. at 159. And even under that assumption, the Court nonetheless concluded that Congress did not intend for equitable tolling to apply to § 6511’s time limit. Brockamp, 519 U.S. at 350–54.

32a
provision in this case, then, is of a sufficiently different
character from that of statutes of limitations entitled
to Irwin’s presumption. These marked differences
undermine any inference that Congress would have
viewed § 5110(b)(1) as falling within that category of
laws, so as to justify judicial override of Congress’
express statutory limits on benefits payments. Below,
we address these differences in function and characteristics in detail.
1
A statute of limitations, simply put, is a “law that
bars claims after a specified period.” Statute of Limitations, BLACK’S LAW DICTIONARY (11th ed. 2019). “Statutes of limitations are designed to encourage plaintiffs
to pursue diligent prosecution of known claims,” Cal.
Pub. Emps. Ret. Sys., 137 S. Ct. at 2049 (internal
quotation marks omitted), by “prescrib[ing] a period
within which certain rights . . . may be enforced,”
Young, 535 U.S. at 47. By barring stale claims,
statutes of limitations “assure fairness to defendants”
and “promote justice by preventing surprises through
the revival of claims that have been allowed to slumber.” See Burnett v. N.Y. Cent. R.R. Co., 380 U.S. 424,
428 (1965) (internal quotation marks omitted).

These cases, moreover, do not involve statutory provision
functionally similar to § 5110(b)(1), or otherwise establish a
background principle of law that would authorize a tribunal to
override § 5110(b)(1)’s express statutory limits on monetary governmental benefits. And unlike an initial application for veterans’ benefits, these cases implicate a preexisting duty to pay owed
by the government. Williams, Colvin, and Warren therefore fail
to establish that a tribunal may override, through equitable
tolling, an indisputably applicable statutory limit on governmental monetary benefits.

33a
To determine whether the functional characteristics
of a statute of limitations are met, the Supreme Court
has focused the inquiry on whether the statute at
issue encourages plaintiffs to promptly pursue their
claims or risk losing remedies for those claims. In
Young, for instance, the Court held that a statutory
“three-year lookback period” for the IRS to collect
overdue, unpaid taxes from a taxpayer in bankruptcy
proceedings was a statute of limitations because it
“encourages the IRS to protect its rights” by “collecting
the debt or perfecting a tax lien—before three years
have elapsed.” 535 U.S. at 47 (citations omitted).
There, the relevant statute afforded the IRS certain
“legal remedies” for collecting a tax debt accrued
within three years before a debtor’s bankruptcy petition filing: the tax debt is nondischargeable and the
IRS’s claim enjoys eighth priority4 in bankruptcy. Id.
at 47–48. But if the IRS “sleeps on its rights” by failing
to act within the three-year lookback period, then the
IRS loses those “legal remedies” for collecting that
debt. Specifically, “its claim loses priority and the
debt becomes dischargeable” in bankruptcy, so that a
bankruptcy decree will release the debtor from any
obligation to pay and leave the IRS unable to collect on
that debt. Id. The Court concluded that such a provision which bars the IRS from recovering any tax debt
accrued more than three years before bankruptcy
proceedings begin—is a statute of limitations because
it serves the “same basic policies [furthered by] all
limitations provisions: repose, elimination of stale
4

The bankruptcy priority scheme determines the order in
which claims are paid. Claims with higher priority are entitled
to payment in full before anything can be distributed to claims of
lower rank. See 1 Richard I. Aaron, Bankruptcy Law Fundamentals § 8:10 (2020 ed.).

34a
claims, and certainty about a plaintiff’s opportunity
for recovery and a defendant’s potential liabilities.” Id.
The Supreme Court also employed similar reasoning
in Zipes, determining that the period for filing a
charge of employment discrimination with the EEOC
(a precondition to a federal-court action) operates as a
statute of limitations given “its purpose [of] preventing
the pressing of stale claims” and “giv[ing] prompt
notice to the [defendant] employer”—the very “end[s]
served by a statute of limitations.” 455 U.S. at 394, 398
(internal quotation marks omitted).
By contrast, Lozano considered a time limitation
that did not function as a statute of limitations and
was therefore not subject to equitable-tolling principles. There, the Supreme Court declined to apply the
presumption of equitable tolling to a treaty provision
that did not did not “establish[] any certainty about
the respective rights of the parties” and, instead,
addressed policy concerns irrelevant to the functioning
of a statute of limitations. 572 U.S. at 14–15. At issue
was a Hague Convention provision requiring the
return of a child abducted by a parent in a foreign
country, so long as the left-behind parent requests
return “within one year.” 572 U.S. at 4. After one year,
the child must still be returned to the left-behind
parent “unless it is demonstrated that the child is now
settled.” Id. at 15 (emphasis added). Expiration of the
one-year period thus “does not eliminate the remedy
[for] the left-behind parent namely, the return of the
child” and, instead, merely “opens the door” to consider
“the child’s interest” as well as the parent’s interest.
Id. at 14–15. Such a provision “is not a statute
of limitations,” the Court explained, because the
“continued availability of the return remedy after
one year preserves the possibility of relief for the leftbehind parent and prevents repose for the abducting

35a
parent.” Id. Moreover, the additional consideration of
the child’s interest is “not the sort of interest
addressed by a statute of limitations.” Id.; see also
In re Neff, 824 F.3d 1181, 1186–87 (9th Cir. 2016)
(holding that a statutory provision is not a statute of
limitations because it does not serve the purposes of
“repose, elimination of stale claims, and certainty”
and, instead, addressed unrelated policy concerns).5
The Court thus concluded that equitable tolling was
unavailable for the treaty provision at issue.
Similarly, in Hallstrom v. Tillamook County, the
Court determined that a provision requiring plaintiffs
to give notice of alleged environmental violations to
the relevant agency 60 days prior to commencing a
civil action was not a statute of limitations subject to
equitable modification. 493 U.S. at 27. The Court
explained: “Unlike a statute of limitations, [the] 60day notice provision is not triggered by the violation
giving rise to the action.” Id. (emphasis added).
Instead, plaintiffs “have full control over the timing
of their suit,” as “they need only give notice to the
appropriate [agency] and refrain from commencing
their action for at least 60 days. Id. The 60-day notice
period, therefore, did not encourage plaintiffs to
5

In Neff, the statutory provision at issue foreclosed discharge
in bankruptcy for debtors who improperly transferred property
“within one year” of filing a bankruptcy petition. 824 F.3d at
1183. The Ninth Circuit concluded that such a provision is not a
statute of limitations because it “is not designed to encourage a
specific creditor to prosecute its claim promptly to avoid losing
rights” and, in fact, “does not encourage (or require) a creditor
to take any action at all.” Id. at 1186. Moreover, the purpose of
the statute—to deter and penalize dishonest debtors from
“seeking to abuse the bankruptcy system”—concerned policy matters unrelated to “the sort of interest addressed by a statute of
limitations.” Id. at 1187 (citing Lozano, 572 U.S. at 15).

36a
diligently file claims or risk losing remedies for a
violation.
Here, as in Lozano and Hallstrom, § 5110(b)(1)’s
effective-date provision does not have the key “functional characteristics” that define a statute of limitations. Because a veteran seeking disability compensation “faces no time limit for filing a claim,” Henderson
ex rel. Henderson v. Shinseki, 562 U.S. 428, 431 (2011),
“[t]here is no statute of limitations” for filing such a
claim, Walters v. Nat’l Ass’n of Radiation Survivors,
473 U.S. 305, 311 (1985). The timing of when the
claim is filed affects only an element of the claim
itself—the effective date—and not whether the veteran is entitled to benefits at all. See Collaro v. West,
136 F.3d 1304, 1308 (Fed. Cir. 1998) (explaining that
“the effective date of the disability” is one of five
elements to a veteran’s application for benefits). A veteran is entitled to press the same claim for a specific
service-connected disability regardless of whether the
claim is filed within a year after discharge or 30
years after discharge, as was the case for Mr. Arellano.
Section 5110(b)(1), like the treaty provision in Lozano,
thus does not set forth any period after which a
veteran is foreclosed from pressing that claim and
receiving benefits if the claim is established.
The timing provision of § 5110(b)(1), in fact, does
not function to bar stale claims or encourage the diligent prosecution of known claims. To the contrary,
§ 5110(b)(1) was adopted to “remove[] injustices where
there is delay in filing [a] claim due to no fault of
the veteran and payment could otherwise be made
only from [the filing] date of [the] claim.” See 89 Cong.
Rec. A4026 (1943) (statement of Rep. Rankin). Section
5110(b)(1)’s one-year grace period thus forgives a
veteran’s temporary delay in filing a claim in the

37a
immediate aftermath of a veteran’s transition back
to civilian life upon discharge from military service.
This provision is itself an equitable exception provided
by Congress to address injustices that may arise from
§ 5110(a)(1)’s default rule and, in that respect, speaks
to policy concerns that are “not the sort of interest
addressed by a statute of limitations.” See Lozano, 572
U.S. at 15. Given (1) the well-established understanding of what constitutes a statute of limitations, and (2)
the nature of § 5110(b)(1)’s effective-date provision,
§ 5110(b)(1) does not satisfy the “functional characteristics” of a statute of limitations.
Mr. Arellano, in response, asserts that even if § 5110
preserves the possibility of prospective benefits for
an ongoing disability regardless of when the claim is
filed, a veteran will nonetheless lose out on retroactive
benefits dating back to the day after discharge if his
claim is not filed within one year of discharge. Section
5110(b)(1)’s one-year period therefore encourages veterans to diligently file their disability claims after
discharge to protect their rights to retroactive benefits. He argues that § 5110(b)(1) is “similar” to the
statutory-lookback periods for copyright and patent
damages in Petrella and SCA Hygiene Products
Aktiebolag v. First Quality Baby Products, LLC, 137 S.
Ct. 954 (2017), respectively, insofar as these statutes
all “limit [the amount of] claimants’ damages but not
their ability to seek redress for an ongoing . . . injury.”
Appellant’s Supp. Reply Br. 10. We disagree.
This argument overlooks the distinction that
§ 5110(b)(1) establishes the effective date of a single
benefits claim for an ongoing disability, whereas an
ongoing course of infringement in Petrella and SCA
Hygiene comprises a “series of discrete infringing
acts,” each of which is a distinct harm giving rise to

38a
an independent claim for relief that starts a new
limitations period. See Petrella, 572 U.S. at 671–72.
The copyright damages statute states: “No civil action
shall be maintained under the provisions of this title
unless it is commenced within three years after the
claim accrued.” 17 U.S.C. § 507(b). As Petrella explains,
this statute is subject to the “separate accrual rule”—
that is, “when a defendant commits successive violations, the statute of limitations runs separately from
each violation,” such that each violation “gives rise to
a discrete ‘claim’ that ‘accrue[s]’ at the time the wrong
occurs.” 572 U.S. at 671 (alteration in original)
(emphasis added). “In short, each infringing act starts
a new limitations period.” Id. (emphasis added). Subsequently, in SCA Hygiene, the Supreme Court
confirmed that the “same reasoning” from Petrella
applies to the six-year lookback period in the patent
damages statute, 35 U.S.C. § 286. As with copyright
infringement, each individual act of patent infringement gives rise to a discrete claim that starts its
own six-year limitations period for seeking a remedy
for that act. See 1 Robert A. Matthews, Jr., Annotated
Patent Digest § 9:2 (2021 ed.) (explaining that in a
series of discrete infringing acts, “each act . . . can
constitute its own separate act of [patent] infringement”). The lookback periods for copyright and patent
damages, therefore, function just as a traditional
statute of limitations would to foreclose pressing of
stale claims, while permitting timely claims to proceed.
By contrast, § 5110(b)(1)’s one-year grace period
never bars a veteran’s benefits claim regardless of
when it was filed and, instead, establishes an element
of the claim itself (i.e., the effective date of the award).
Cf. Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006)
(distinguishing an “essential element of a claim for
relief” from a jurisdictional statutory limitation). Mr.

39a
Arellano, moreover, has not demonstrated that a
single claim seeking benefits for a specific disability
can comprise two discrete claims for retrospective
and prospective benefits, each arising from a distinct
injury that starts its own limitations period. Nor is
there a basis for construing his claim in this manner,
given that retrospective and prospective benefits arise
from the same “five common elements” of a single
benefits claim: “[1] status as a veteran, [2] existence
of disability, [3] a connection between the veteran’s
service and the disability, [4] the degree of disability,
and [5] the effective date of the disability.” See Collaro,
136 F.3d at 1308. Thus, neither § 507(b)’s copyright
limitations period nor § 286’s patent limitations
period support finding that § 5110(b)(1) functions as a
statute of limitations amenable to equitable tolling.
Mr. Arellano next analogizes to Young’s three-year
lookback period, arguing that § 5110(b)(1)—which
bars only retroactive benefits predating the date the
VA received his claim, but not prospective benefits
beginning from the date the VA received his claim—is
no less a statute of limitations than the lookback
period in Young. We disagree. Young’s lookback period
is a “limited statute of limitations” in the sense that
it arises only in the situation when a tax debtor files
a bankruptcy petition and bars certain “legal remedies” (i.e., priority and nondischargeability in bankruptcy) outside of the lookback period. See 535 U.S. at
47– 48. But the Supreme Court concluded it was “a
statute of limitations nonetheless” because any tax
debt accrued more than three years before the date of
the bankruptcy petition becomes fully dischargeable,
leading to the “elimination of stale claims.” Id. Expiration of the three-year lookback period therefore barred
the entirety of the IRS’s claim, just as a traditional
statute of limitations would. See id. at 47 (explaining

40a
that the lookback period functions as a statute of
limitations by barring “[o]ld tax claims” falling outside
the statutory period). Here, under § 5110(b)(1), disability compensation claims received within one year of
discharge are afforded an earlier effective date that
results in, at most, one year of retroactive benefits. But
unlike Young’s lookback period, passage of this oneyear period does not bar a veteran from attaining any
effective date at all and, instead, bars only an effective
date earlier than the date of receipt. The practical
effect of § 5110(b)(1), then, is not to foreclose a veteran
from all benefits but only from those retroactive from
the day his claim is received.
Mr. Arellano, however, offers the following variation
on Young: instead of having only one tax year at issue,
suppose that the Youngs owed tax debt from multiple
years. The IRS would then be barred from recovering
tax debt from the years outside the three-year
lookback period but could still recover any of the
debt from within that period. See Oral Arg. at 30:32–
32:52. Under this hypothetical, Mr. Arellano contends,
the lookback period merely affects the amount of relief
the IRS would be entitled to recover but does not
entirely bar the IRS from such relief, meaning that it
is a “more limited statute of limitations, but a statute
of limitations nonetheless.” See Young, 535 U.S. at 48.
So too here, Mr. Arellano asserts, where filing a benefits claim after § 5110(b)(1)’s one-year grace period
merely affects the amount of benefits awarded without
barring the claim itself.
But this hypothetical is no different from the lookback periods in Petrella and SCA Hygiene and is
distinguishable for the same reason: § 5110(b)(1)
establishes the effective date of a single application
for disability benefits, whereas each year of tax debt

41a
in Mr. Arellano’s hypothetical corresponds to a separate IRS claim involving different facts and liabilities.
See, e.g., Young, 535 U.S. at 46 (three-year look-back
period applies to “claims” for unpaid taxes “for a
taxable year” (emphasis added)). In other words, “[i]f
the IRS has a claim for taxes for which the return was
due within three years before the bankruptcy petition
was filed,” then the IRS’s claim is protected and
“nondischargeable in bankruptcy.” Id. But if the claim
is for unpaid taxes from a return due more than three
years before the bankruptcy petition was filed, then
that individual claim is lost and dischargeable in
bankruptcy. Because the tax debt arising from each
tax year constitutes its own distinct claim against a
taxpayer, Young’s lookback period operates as any
other statute of limitations would to bar stale claims
arising from older tax years while providing remedies
for timely claims. See id. at 49 (the lookback period
“define[s] a subset of claims eligible for certain remedies” when a tax debtor is in bankruptcy (emphasis
added)). Accordingly, for the reasons discussed above,
Young’s lookback period fails to demonstrate that
§ 5110(b)(1) functions as a statute of limitations.
2
Section 5110(b)(1) also differs from statutes of
limitations in additional ways—namely, with respect
to the onset of its one-year period and the remedial
authority involved. These differences further undermine any inference that Congress must have viewed
§ 5110(b)(1) as a statute of limitations that would
presumptively allow judicial override of express statutory limits on benefits payments under Irwin.
The “standard rule” is that a statute of limitations
begins to run when the cause of action “accrues,” i.e.,
when “the plaintiff has a ‘complete and present cause

42a
of action.’” Bay Area Laundry & Dry Cleaning Pension
Trust Fund v. Ferbar Corp. of Cal., 522 U.S. 192, 201
(1997) (quoting Rawlings v. Ray, 312 U.S. 96, 98
(1941)); see also Wallace v. Kato, 549 U.S. 384, 388
(2007). Unless Congress indicates otherwise, “a cause
of action does not become ‘complete and present’ for
limitations purposes until the plaintiff can file suit
and obtain relief.” Bay Area Laundry, 522 U.S. at 201.
The earliest opportunity for a plaintiff to sue under
such circumstances is when the opposing party has
violated some duty owed to that plaintiff, such as
contractual obligations or a duty of care. See 1 Calvin
W. Corman, LIMITATION OF ACTIONS, § 6.1, at 370
(1991) (“The earliest opportunity for a complete and
present cause of action is that moment when the
plaintiff has suffered a legally recognizable harm at
the hands of the defendant, such as the time of
contract breach or the commission of a tortious
wrong.” (emphasis added)). In Bay Area Laundry, for
instance, the Supreme Court held that a cause of
action against an employer that withdraws from a
multiemployer pension plan is not complete, and
therefore the statute of limitations does not run, until
a demand for payment is made by the plan’s trustees
and rejected by that employer. 522 U.S. at 202. This
follows, the Court explained, because “the statute
makes clear that the withdrawing employer owes
nothing until its plan demands payment,” and absent
such a demand, the employer has no duty of payment
that could be violated to give rise to a cause of action.
See id. (emphasis added).
As applied to the veterans’ benefits context, the
earliest point at which a veteran could have a “complete and present cause of action” is when the VA has
failed to satisfy a legal duty owed to the veteran, such
as when his claim for benefits has been wrongfully

43a
adjudicated or denied. In this vein, we have recognized
that the 120-day time limit for a veteran to appeal an
unsatisfactory Board decision to the Veterans Court is
a statute of limitations to which Irwin’s presumption
applies. See Jaquay v. Principi, 304 F.3d 1276, 1283
(Fed. Cir. 2002) (en banc) (citing Bailey v. West, 160
F.3d 1360 (Fed. Cir. 1998) (en banc)). But the one-year
period in § 5110(b)(1), beginning on the day after
discharge from service, does not measure the time
from harm caused by a breach of duty, or even from a
breach of duty, to the filing of the claim. This, together
with the fact that the claim is not made to a separate
entity with authority to address an asserted breach,
makes it unlikely that Congress conceived of this
timing rule as a statute of limitations for Irwin
purposes.
Indeed, in an initial application for disability
compensation where § 5110 governs the effective-date
determination, the VA has not yet violated any legal
duty owed to the claimant that would trigger a statute of limitations to run. The statutory scheme
governing veterans’ benefits makes clear that the VA
is not obligated to pay any benefits before a claim
applying for such benefits is filed. In particular,
§ 5101(a)(1)(A) states that “a specific claim in the
form prescribed by the Secretary . . . must be filed in
order for benefits to be paid or furnished to any individual under the laws administered by the Secretary.”
§ 5101(a)(1)(A) (emphasis added). This provision
explains that the filing of a benefits claim must first
occur for any benefits to accrue or be paid by the VA.
The VA thus has no preexisting duty to award benefits, and a veteran has no corresponding right to
receive such benefits, until after a claim applying for
benefits is filed by the veteran with the VA. See Jones
v. West, 136 F.3d 1296, 1299 (Fed. Cir. 1998) (“Section

44a
5101(a) is a clause of general applicability and
mandates that a claim must be filed in order for any
type of benefit to accrue or be paid.”), cert. denied, 525
U.S. 834 (1998); McCay v. Brown, 106 F.3d 1577, 1580
(Fed. Cir. 1997) (stating § 5101(a) requires that “a
claim must be on file before benefits may be obtained”).
Without a preexisting right, there can be no violation
of that right for which a veteran would seek redress,
which could then be barred if not pursued within a
specified limitations period. See Henry M. Hart, Jr. &
Albert M. Sacks, THE LEGAL PROCESS 136–37 (William
N. Eskridge, Jr. & Philip P. Frickey eds., 1994); id. at
137 (stating that it is wrong to “allow a primary right
to be confused with a remedial right of action, which
is a very different legal animal” and criticizing “confusion between a primary claim to a performance and
a remedial capacity to invoke a sanction for nonperformance”). Section 5110(b)(1)’s effective-date provision,
then, is of a different character than a statute of
limitations because the filing of a benefits claim is
not an action seeking a remedy for previously due, but
wrongfully unpaid, benefits. See Hallstrom, 493 U.S.
at 27 (holding that a statutory time limit is “[u]nlike a
statute of limitations” because it is not “triggered by
the violation giving rise to the action” and is therefore
not subject to equitable modification and cure).
Logic also supports our conclusion that there is no
cause of action, and therefore no statute of limitations
that could be equitably tolled, until after a claimant
files an initial claim for benefits and receives an unsatisfactory VA decision on that claim. A claimant seeking an increased benefits award, as Mr. Arellano does
here, has no basis to maintain a suit against the VA
until at least two events have transpired. He must
first file an initial claim seeking benefits from the VA.
And second, he must receive the VA’s initial decision

45a
determining the amount of his award. Only then could
that claimant have a cause of action against the VA
if he disagrees with the amount of benefits awarded.
Cf. Bay Area Laundry, 522 U.S. at 202 (“Absent a
demand, even a willing employer cannot satisfy its
payment obligation, for the withdrawing employer
cannot determine, or pay, the amount of its debt
until the plan has calculated that amount.”). Yet if
§ 5110(b)(1) were a statute of limitations as Mr.
Arellano and Judge Dyk contend, a claimant would
have a cause of action on the day after his discharge
from service—before any claim for benefits has been
filed and before the VA has made an initial determination on the claim with which the claimant could
disagree. “Such a result is inconsistent with basic limitations principles,” id. at 200, and we do not see how
a statute of limitations could begin to run on the day
after discharge.
Judge Dyk responds that this reasoning is inconsistent with “cases holding that a provision barring
benefits for failure to file [a claim] within a prescribed
period constitutes a statute of limitations, regardless
of any alleged breach of duty by the government.” Dyk
Op. at 5. He cites our decision in Cloer v. Sec’y of
Health & Hum. Servs., where we held that the Vaccine
Act’s 36-month deadline for filing a petition for compensation for a “vaccine-related injury” is a statute of
limitations that begins to run on the date the first
symptom or manifestation of onset of the injury
claimed occurs. 654 F.3d 1322, 1340–44 (Fed. Cir.
2011) (en banc). The Vaccine Act’s 36-month filing
deadline, however, is easily distinguishable from
§ 5110(b)(1)’s effective date provision.
Unlike § 5110(b)(1), the Vaccine Act’s filing deadline
is phrased and functions as a traditional statute of

46a
limitations that bars a plaintiff from seeking relief
from a tribunal once the specified time limit has
passed. Specifically, 42 U.S.C. § 300aa-16(a)(2) recites:
“if a vaccine-related injury occurred as a result of the
administration of such vaccine, no petition may be
filed for compensation under the Program for such
injury after the expiration of 36 months after the date
of the occurrence of the first symptom or manifestation
of onset or of the significant aggravation of such
injury.” Nothing in this provision purports to affect the
amount of compensation awarded on a successful
petition. In contrast to § 5110(b)(1)’s effective date provision, which does not bar a claimant from filing an
application for benefits more than one year after
discharge, § 300aa16(a)(2) bars the filing of a petition
for compensation after 36 months have passed since
the “first symptom or manifestation of onset or of the
significant aggravation” of claimant’s vaccine-related
injury. Section 300aa-16(a)(2) thus exhibits the functional characteristics germane to all statutes of limitations by encouraging claimants to promptly file a
petition or risk losing remedies available under the
Vaccine Act.
Moreover, in contrast to an initial application
seeking veterans’ benefits from the VA, the Vaccine
Act’s filing deadline arises in a context in which a
plaintiff seeks redress in federal court for a preexisting
duty owed by the defendant. Prior to the Act, a
plaintiff injured by a vaccine could directly sue the
vaccine’s manufacturer in civil court, alleging harm
caused by that manufacturer’s breach of duty. But
due to concerns that civil actions against vaccine
manufacturers were unsustainably raising vaccine
prices and driving manufacturers out of the market,
Congress enacted the Vaccine Act to create a streamlined process to “stabilize the vaccine market and

47a
expedite compensation to injured parties.” Sebelius v.
Cloer, 569 U.S. 369, 372 (2013) (citing H.R. Rep. No.
99-908, at 4 (1986)). Payments awarded under the
Act are funded by the vaccine manufacturers themselves through an excise tax levied on each dose of
vaccine. See Bruesewitz v. Wyeth LLC, 562 U.S. 223,
239–40 (2011); H.R. Rep. No. 99-908, at 34 (excise tax
on vaccine manufacturers are intended to “generate
sufficient annual income for the Fund to cover all costs
of compensation”). However, the government (specifically, the Secretary of Health and Human Services)
administers the program and, in doing so, assumes
the preexisting legal duty owed to a claimant who
has suffered a vaccine-related injury. See 42 U.S.C.
§ 300aa-12(b)(1) (“In all proceedings brought by the
filing of a petition under [§] 300aa-11(b) of this title,
the Secretary shall be named as the respondent, shall
participate, and shall be represented.”).
While the Vaccine Act eases certain evidentiary
burdens by not requiring claimants to prove “wrongdoing by the manufacturer” or causation for on-Table
injuries, see H.R. Rep. 99-908, at 12 (1986), initiating
a Vaccine Act proceeding bears substantial similarities to initiating a civil action governed by a statute of
limitations. Both require an injured party to seek—
within a statutory time period a remedy before a
federal court predicated on a legal duty owed by
another. Just as a plaintiff initiates a civil action by
serving the defendant and timely filing a complaint in
court, “[a] proceeding for compensation under [the
Vaccine Act] shall be initiated by service upon the
Secretary and the filing of a petition . . . with the
United States Court of Federal Claims” within 36
months of the first symptom or manifestation of
vaccine-related injury. See 42 U.S.C. § 300aa–11(a)(1).
Nothing in this initiation process speaks to the

48a
administrative context in which § 5110(b)(1) operates,
wherein a claimant files an initial application with the
VA seeking an award of monetary benefits from that
agency, such that the application’s date of receipt
determines (in part) the total amount of benefits
awarded.
Our understanding of the functional distinction
between § 5110(b)(1)’s effective-date provision and a
statute of limitations is further confirmed by observing that “the creation of a right is distinct from the
provision of remedies for violations of that right.” See
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 392
(2006) (emphasis added). A statute of limitations pertains to the latter, but not the former, by establishing
a period for a veteran to seek a remedy for the violation
of a right to benefits. Section 5110(b)(1)’s effectivedate provision, on the other hand, is an element of the
veteran’s claim seeking benefits that pertains to the
creation of a right to benefits but not to the remedies
for violations of that right. Cf. Cloer, 654 F.3d at 1335
(explaining that § 300aa-11(c)(1)(D)(i)’s requirement a
claimant suffer the effects of a vaccine-related injury
for “more than 6 months after the administration of
the vaccine” is “a condition precedent to filing a petition for compensation” that “is intended to restrict
eligibility to the compensation program, not to act as
a statutory tolling mechanism for the [36-month]
statute of limitations”). Accordingly, § 5110(b)(1),
which establishes the effective date of a claim whose
filing is necessary “for benefits to be paid or furnished”
by the VA, is not a statute of limitations because it
pertains only to the creation of the right to be paid
benefits, and not to the provision of remedies for
violations of that right. For this reason, too, Congress
would not have viewed § 5110(b)(1) as a statute of
limitations.

49a
D
Having determined that Congress would not have
viewed § 5110(b)(1) as a statute of limitations, we are
left to consider whether some other background principle of law supports applying Irwin’s presumption of
equitable tolling to § 5110(b)(1)’s effective-date provision. We see nothing in the cases identified by Mr.
Arellano and Judge Dyk that would establish any
such principle of law.
1
We are unaware of any case that applies Irwin’s
presumption to a statutory provision functionally
similar to § 5110(b)(1)—namely, one that does not
encourage the diligent prosecution of a claim by barring a claimant from seeking relief after the statutory
period elapses and, instead, establishes an element of
the claim itself. Instead, cases applying Irwin’s presumption have all involved a time limit that functions
as a statute of limitations by foreclosing a plaintiff
from seeking relief once that time has passed. See, e.g.,
United States v. Kwai Fun Wong, 135 S. Ct. 1625
(2015) (two-year time limit for bringing a tort claim
against the government); Holland v. Florida, 560 U.S.
631 (2010) (one-year period for filing a petition for
federal habeas relief); Scarborough v. Principi, 541
U.S. 401 (2004) (30-day deadline for filing an application for attorney’s fees under the Equal Access to
Justice Act); Bailey, 160 F.3d at 1363–64 (120-day
time limit to file notice of appeal with the Veterans
Court); Cloer, 654 F.3d at 1341–42 (36-month deadline
to file a petition under the Vaccine Act).
Mr. Arellano and Judge Dyk point to a statute
governing Social Security disability insurance benefits, 42 U.S.C. § 423(b), which states: “An individual

50a
who would have been entitled to a disability insurance
benefit for any month had he filed application therefor
before the end of such month shall be entitled to such
benefit if such application is filed before the end of
the 12th month immediately succeeding such month.”
In other words, this provision provides that qualifying
claimants may receive retroactive benefits up to a year
prior to the date of application. But as Mr. Arellano
and amici concede, courts have so far declined to find
equitable exceptions available for this statutory
period. See Appellant’s Suppl. Br. 45–49; MilitaryVeterans Advocates Amicus Br. 8; see also Shepherd
ex rel. Shepherd v. Chater, 932 F. Supp. 1314, 1318 (D.
Utah 1996) (“Courts have uniformly refused to find
equitable exceptions to the statutory limit on retroactive benefits.”). Moreover, several cases explain
that “filing [an application within § 423(b)’s one year
period] is a substantive condition of eligibility” for
retroactive Social Security benefits, rather than a
statute of limitations that may be equitable tolled. See
Yeiter v. Sec’y of Health & Hum. Servs., 818 F.2d 8, 10
(6th Cir. 1987) (explaining that appellant was not
entitled to retroactive benefits from an earlier date
because she had not filed an application within 12
months of that date, and “filing is a substantive
condition of eligibility”); Sweeney v. Sec’y of Health,
Ed. & Welfare, 379 F. Supp. 1098, 1100 (E.D.N.Y.
1974) (declining to apply equitable exceptions based
on physical disability to award retroactive benefits
because “the filing of an application [is] a condition
precedent to payment of benefits”). While courts have
yet to analyze the availability of equitable tolling for
this statute under the Irwin framework, neither Mr.
Arellano nor amici argue that Irwin compels a different result. See Military-Veterans Advocates Amicus
Br. 10 (“Nonetheless, the reasoning of these courts

51a
points toward the conclusion that Irwin’s presumption
of equitable tolling would be rebutted in the context of
retroactive Social Security benefits under §§ 402(j) and
423.”).
Judge Dyk nonetheless contends that § 423(b) is not
only a “statute of limitations,” but that its approach to
claims involving retroactive benefits is “not unusual”
in government benefit programs, which purportedly
“often” permit claimants to recover future benefits
while establishing a statute of limitations for past
benefits. See Dyk Op. at 8. He cites a single district
court case for this proposition, see Begley v. Weinberger,
400 F. Supp. 901, 911 (S.D. Ohio 1975), which merely
opines in passing that § 423(b) is a “statute of limitations” for “retroactive disability insurance benefits.”
Begley, however, does not discuss equitable tolling,
and its holding does not rely on its characterization of
§ 423(b) as a statute of limitations. In the 46 years
since Begley was decided, no opinion has cited it for
the proposition that § 423(b) is a statute of limitations,
until Judge Dyk’s opinion in this appeal. Nor are we
aware of any other case characterizing § 423(b) as a
“statute of limitations.” Section 423(b) thus fails to
establish a background principle of equitable tolling
applicable to § 5110(b)(1).6
6

If § 423(b) were deemed a statute of limitations, as Judge
Dyk contends, such a determination would be a trailblazing
event, making equitable tolling potentially available (absent congressional intent otherwise) in large swaths of Social Security
cases involving retroactive benefits, contrary to what courts had
uniformly held pre-Irwin. Even more troubling is Judge Dyk’s
assertion that government benefits programs “often” include
“statutes of limitations” for retroactive benefits. If this too is
accurate, then the ramification of his reasoning is that equitable
tolling could potentially apply to many, if not all, of those statutes
(assuming Irwin’s presumption has not been rebutted), thereby

52a
Mr. Arellano responds that a background principle
of law applying equitable tolling to functionally similar statutes is not necessary for Irwin’s presumption
to apply to § 5110(b)(1). Appellant’s Reply Br. 13–14.
He contends that Scarborough expressly rejected
any such requirement by explaining that “it is hardly
clear Irwin demands a precise private analogue,”
especially in “matters such as the administration of
benefits programs.” 541 U.S. at 422; see also id.
(“Because many statutes that create claims for relief
against the United States or its agencies apply only to
Government defendants, Irwin’s reasoning would be
diminished were it instructive only in situations with
a readily identifiable private-litigation equivalent.”
(emphasis added)). But seeking a background principle of law that demonstrates equitable tolling is not
exclusive to statutes of limitations is a far cry from
requiring a “precise private analogue.” Scarborough
itself is instructive on this point. There, the Supreme
Court considered whether a timely application for
attorneys’ fees under the Equal Access to Justice Act
(EAJA) may be amended after the 30-day filing deadline expired to cure a defect in the application. The
Court held that a curative amendment should be
allowed based on the “relation back” doctrine, which
permits a later amendment to relate back to the day of
the original filing under certain circumstances. In
doing so, the Court rejected an argument that the
relation back doctrine is limited to its codification in
the Federal Rules of Civil Procedure, which governs
only amended district court “pleadings” and not
EAJA fee applications. See id. at 417– 18. While not
requiring “a precise private [litigation] analogue,” the
opening the door for retroactive benefits in numerous different
statutory schemes.

53a
Court observed that (1) it had previously applied the
relation back doctrine in “analogous settings” to fee
applications; and (2) the doctrine itself predated the
Federal Rules and had “its roots in [the] former federal
equity practice” of the courts. Id. at 417–18. Rather
than rejecting the requirement for a background
principle of law, the Court’s application of the relation
back doctrine in the context of an EAJA fee application
was premised on just such a principle—namely, the
historical practice of the relation back doctrine outside
the limited context of district court pleadings. Here,
however, courts have applied the presumption of equitable tolling only to statutes of limitations that run
once a cause of action accrues, and Mr. Arellano has
not identified a case or background principle of law
demonstrating otherwise.
2
The language and administrative context of
§ 5110(b)(1), moreover, are unlike that of any statute
of limitations we have seen. Neither Irwin, nor any of
the cases in this line, considered a statute of limitations having “effective date” language. At the same
time, § 5110(b)(1) does not use the typical statute-oflimitations language establishing when a plaintiff
must file an action against a defendant in a tribunal
or else lose the claim—the setting addressed by all
statutory provisions treated as statutes of limitation
in the Irwin line.
Section 5110(b)(1) instead addresses a structurally
distinct setting—i.e., filing an initial claim with a
federal agency to obtain monetary benefits from that
agency, wherein the claim’s receipt date determines
the amount of awardable benefits but not whether
the claim is barred. Unlike the traditional context in
which a statute of limitations operates, the relevant

54a
“defendant” and “tribunal” for § 5110(b)(1) are one and
the same (the VA), and the “defendant” has yet to
violate any legal duty owed to the claimant that would
give rise to a cause of action. While Judge Dyk asserts
that the Supreme Court and several circuits have
found equitable tolling applicable to “time requirements in administrative agency proceedings,” see Dyk
Op. at 3, none of the cases he cites address the type of
agency proceedings relevant here. These cases instead
involve filing deadlines for administrative complaints,
which address the same structural setting as any
statute of limitations, wherein a complainant seeking
redress for a respondent’s breach of duty before an
independent tribunal. Cloer, as previously explained,
involved a deadline for filing a petition before a federal
court and not an agency. See 42 U.S.C. § 300aa–
11(a)(1). This deadline is effectively no different than
a traditional statute of limitations that establishes a
period in which a plaintiff may sue a government
defendant in federal court. Similarly, Zipes, Kratville
v. Runyon, 90 F.3d 195, 198 (7th Cir. 1996), and Farris
v. Shinseki, 660 F.3d 557, 563 (1st Cir. 2011), which
all relate to the deadline for filing a charge of discrimination with the EEOC, address a setting in
which an injured complainant seeks redress before a
separate entity (the EEOC) with the authority to
address the asserted breach of duty by the employer,
whether through adjudication, enforcement, or lesser
measures. Thus, none of these cases speak to filing
an initial claim with a federal agency to obtain
monetary benefits from that agency, and we are
unaware of any case holding that a provision with
language or operational context similar to § 5110(b)(1)
is a statute of limitations.
Section 5110(b)(1), for these additional reasons,
would not have looked like a statute of limitations to

55a
Congress, meaning we cannot presume that Congress
intended for this provision to carry the default feature
of equitable tolling. The effective-date provision is
therefore not a statute of limitations but merely
determines the starting date for the right to payment
on a veteran’s benefits claim. Because no background
principle of law establishes that we may equitably toll
such a statutory provision, Irwin’s presumption is
inapplicable to § 5110(b)(1)’s effective date provision.
Our reasoning here is consistent with Andrews’
longstanding holding that principles of equitable
tolling are inapplicable to the one-year period in
§ 5110(b)(1), see 351 F.3d at 1137–38, our equally
divided court today leaves that holding undisturbed.
E
Although § 5110(b)(1) is not a statute of limitations
amenable to equitable tolling, even if Irwin’s presumption were to apply, equitable tolling would nonetheless
be unavailable because it is “inconsistent with the text
of the relevant statute.” Young, 535 U.S. at 49 (quoting
United States v. Beggerly, 524 U.S. 38, 48 (1998)).
“[T]he word ‘rebuttable’ means that the presumption
is not conclusive,” and “[s]pecific statutory language,
for example, could rebut the presumption by demonstrating Congress’ intent to the contrary.” John R.
Sand & Gravel Co., 552 U.S. at 137–38. Here, Irwin’s
presumption—were it to apply—would be rebutted by
Congress’ highly detailed statutory scheme dictating
specific legislative choices for when a veteran’s claim
may enjoy an effective date earlier than the date it
was received by the VA.
There are several ways to rebut the presumption
of equitable tolling, all of which seek to answer Irwin’s
“negatively phrased question: “Is there good reason to
believe that Congress did not want the equitable

56a
tolling doctrine to apply?” See Brockamp, 519 U.S. at
350. One way “is to show that Congress made the
time bar at issue jurisdictional.” Kwai Fun Wong, 135
S. Ct. at 1631. Another way is to demonstrate that
the statutory text precludes equitable tolling. See
Brockamp, 519 U.S. at 352; Beggerly, 524 U.S. at 48.
Additionally, the statutory history and administrative
context can demonstrate that Congress did not intend
for equitable tolling to apply. See Auburn, 568 U.S. at
159–60. We address each in turn.
Neither party here argues that § 5110(b)(1)’s effectivedate provision is jurisdictional. See Appellant’s Supp.
Br. 24–28; Appellee’s Supp. Br. 57–60. And for good
reason. Nothing in § 5110 purports to define a tribunal’s jurisdiction, and the filing of a benefits claim
more than one year after discharge does not deprive
any tribunal of jurisdiction to adjudicate that claim.
Cf. Henderson, 562 U.S. at 438 (finding no clear
indication that Congress intended for § 7266(a)’s 120day filing deadline for Veterans Court appeals to be
jurisdictional where the statute “does not speak in
jurisdictional terms or refer in any way to the jurisdiction of the Veterans Court” (cleaned up)). Filing a
claim more than a year after discharge merely means
that a provision of § 5110 other than § 5110(b)(1)
governs the claim’s effective date.
But concluding that § 5110(b)(1)’s effective date
provision is nonjurisdictional does not end our inquiry
because “Congress may preclude equitable tolling
of even a nonjurisdictional statute of limitations.” See
Kwai Fun Wong, 135 S. Ct. at 1631 n.2; see also
Auburn, 568 U.S. at 149 (holding that “the presumption in favor of equitable tolling does not apply” to
a nonjurisdictional agency appeal deadline given the
statutory history and administrative context); Nutraceu-

57a
tical Corp. v. Lambert, 139 S. Ct. 710, 714 (2019) (the
mere fact that a statutory provision “lacks jurisdictional force . . . does not render it malleable in every
respect,” for such provisions may nonetheless be “mandatory” and “not susceptible [to] equitable [tolling]”).
“Whether a rule precludes equitable tolling turns not
on its jurisdictional character but rather on whether
the text of the rule leaves room for such flexibility.” Id.
(emphasis added). We therefore look to the statutory
text to discern whether Congress intended to displace
the general availability of equitable tolling with its
own preferred regime of concrete deadlines.
Section 5110 begins with the default rule: “Unless
specifically provided otherwise in this chapter, the
effective date of an award . . . shall not be earlier
than the date of receipt of application therefor.”
§ 5110(a)(1) (emphasis added). Section 5110(a)(1),
together with § 5101(a)’s requirement that a claim
“must be filed in order for benefits to be paid or
furnished,” establishes the baseline rule that no
benefits may accrue or be awarded before a claim
asserting the right to such benefits is filed, “unless
specifically provided” for by statute. Section 5110 then
proceeds to list more than a dozen detailed exceptions
to the default rule that permit an earlier effective
date and, as a result, additional benefits accruing up
to one year before the VA receives the claim. Section
5110(b)(1)’s day-after-discharge provision is one such
enumerated exception. By mandating that any exception to the default rule must be provided for “specifically” and “in this chapter,” the most natural reading
of § 5110 is that Congress implicitly intended to
preclude the general availability of equitable tolling
by explicitly including a more limited, specific selection of equitable circumstances under which a veteran
is entitled to an earlier effective date and specifying

58a
the temporal extent of the exceptions for those circumstances. See TRW Inc. v. Andrews, 534 U.S. 19, 28
(2001). In other words, the text of § 5110 makes clear
that Congress did not intend for the VA or the courts
to create additional exceptions other than those choices
it “specifically provided” in the statute. Because none
of § 5110’s specifically enumerated exceptions, nor any
other provision “of this chapter,” provide for equitable
tolling of § 5110(b)(1)’s one-year period, such tolling is
unavailable as it is not “specifically provided” for “in
this chapter.”
Mr. Arellano and Judge Dyk respond that courts
have construed statutory language far more imperative than that of § 5110(a)(1) to permit equitable
tolling. Specifically, they rely on Kwai Fun Wong’s
analysis of the Federal Tort Claims Act, which states
that “[a] tort claim against the United States shall be
forever barred unless it is presented [to the agency]
within two years . . . or unless action is begun within
six months.” 28 U.S.C. § 2401(b) (emphasis added).
There, the Supreme Court held that the phrase
“shall be forever barred,” though “mandatory” and
“emphatic,” did not render the filing deadline at issue
jurisdictional and foreclosed from equitable tolling.
Kwai Fun Wong, 135 S. Ct. at 1632–33. But this
argument misses the mark. Kwai Fun Wong stands for
the unremarkable proposition that Irwin’s presumption is not rebutted merely because the statutory
text “reads like an ordinary, run-of-the-mill statute of
limitations” to bar relief unless a claim is brought
within a specified amount of time. Id. at 1633 (quoting
Holland, 560 U.S. at 647). Holding otherwise would
have effectively eviscerated Irwin’s presumption
because, as the Court explained, most statutes of
limitations are framed in that manner. Id. at 1632.
The Court clarified that “Congress must do something

59a
special, beyond setting an exception-free deadline,” to
prohibit a court from equitably tolling the deadline. Id.
Congress did just that here: not only is § 5110(b)(1)’s
one-year period itself an exception to the default
effective-date rule, § 5110 further provides numerous
other detailed, technical exceptions to the default
effective-date rule, thereby creating a catalog of congressional choices that foreclose courts from recognizing any additional, unwritten exceptions.
Indeed, § 5110’s enumeration of a wide range of
specific exceptions to the default rule hews closer to
the “highly detailed” and “technical” exceptions that
foreclosed equitable tolling in Brockamp than to Kwai
Fun Wong’s “fairly simple language [that] can often
[be] plausibly read as containing an implied ‘equitable
tolling’ exception.” Brockamp, 519 U.S. at 350. At issue
in Brockamp was a statute reciting time limits for
taxpayers to file tax refund claims. Just as with
§ 5110, the Brockamp statute provided a default rule
with “basic time limits” for filing such claims, followed
by “very specific exceptions” establishing “special time
limit rules” for certain claims relating to precise
circumstances (“operating losses, credit carrybacks,
foreign taxes, self-employment taxes, worthless securities, and bad debts”). Id. at 351–52. The Court
concluded that the statute’s “detail, its technical
language, the iteration of the limitations in both
procedural and substantive forms, and the explicit
listing of exceptions, taken together, indicate . . . that
Congress did not intend courts to read other unmentioned, open-ended, ‘equitable’ exceptions into the statute that it wrote,” thereby rebutting the presumption
of equitable tolling. Id. at 352. The same reasoning
applies here, where Congress has explicitly provided
more than a dozen detailed exceptions to § 5110(a)(1)’s
default rule prohibiting an effective date earlier than

60a
the date of receipt. And “[w]here Congress explicitly
enumerates certain exceptions to a general prohibition, additional exceptions are not to be implied, in the
absence of a contrary legislative intent.” TRW, 534
U.S. at 28 (quoting Andrus v. Glover Constr. Co., 446
U.S. 608, 616–17 (1980))7; see also Rotkiske v. Klemm,
140 S. Ct. 355, 360–61 (2019) (“[i]t is a fundamental
principle of statutory interpretation that absent provisions cannot be supplied by the courts” because doing
so “is not a construction of a statute, but, in effect, an
enlargement of it by the court” (internal quotation
marks omitted)).
The implication that § 5110’s explicitly enumerated
exceptions preclude the judicial recognition of additional equitable exceptions can, of course, be overcome
by “contrary legislative intent.” See TRW, 534 U.S. at
28 (quoting Andrus, 446 U.S. at 616–17). But we see
nothing in the statutory text, structure, or history that
persuades us that such an intent exists for § 5110. To
the contrary, § 5110’s enumerated exceptions confirm
that Congress has already considered which equitable
considerations may provide a retroactive effective date
and declined to provide the relief Mr. Arellano seeks.
These exceptions cover specific circumstances beyond
the veteran’s control that may delay the filing of
7

Mr. Arellano also argues that the principle of statutory construction quoted from TRW applies only where it would render
one of those exceptions insignificant or superfluous. E.g., Appellant’s Supp. Reply Br. 21–22. But while that principle may be
strongest in such a case, it is clearly instructive even where no
exception would be effectively read out of the statute. See Andrus,
446 U.S. at 616–17 (declining to recognize an additional exception
where statute recites explicitly enumerated exceptions to a general prohibition, even where no other exception would be rendered superfluous by the addition); United States v. Smith, 499
U.S. 160, 166 (1991) (same).

61a
a claim, such as: discharge from the military,
§ 5110(b)(1); increase in the severity of a disability,
§ 5110(b)(3); the “permanent[] and total[] disab[ility]”
of a veteran, § 5110(b)(4); death of a spouse, § 5110(d);
and correction of military records, § 5110(i).8
More importantly, § 5110(b)(4) addresses the precise
circumstances that prevented Mr. Arellano—a “veteran who is permanently and totally disabled”—from
filing his claim earlier, but in the context of disability pension, see 38 U.S.C. ch. 15, and not the disability compensation at issue here, id., ch. 11. Section
5110(b)(4) provides a one-year grace period for disability pension filings by a permanently and totally
disabled veteran who was “prevented by a disability
from applying for disability pension for a period of
at least 30 days beginning on the date on which the
veteran became permanently and totally disabled.”
8

Though several of § 5110’s enumerated exceptions address
equitable circumstances in which the filing of a claim may be
delayed, Judge Dyk nonetheless contends that no provision of
§ 5110 other than § 5110(b)(4) “speak[s] to equitable tolling,” and
§ 5110(b)(4) alone “can hardly be read as evincing a desire by
Congress to eliminate equitable tolling” generally as to disability
compensation. Dyk Op. at 16. He does not explain why, if retroactive effective date provisions are statutes of limitations (as he
insists), provisions analogous to § 5110(b)(4) that permit an
earlier effective date when a claimant delays filing a claim due
to the death of a spouse or parent, an increase in disability
severity, or even discharge from military service do not likewise
“speak to equitable tolling.” Judge Dyk appears to argue that
Irwin’s presumption may not be rebutted unless a statute explicitly references more than one circumstance for which courts have
traditionally permitted equitable tolling (e.g., defective pleadings, deception through defendant’s misconduct, severe disability) but cites no support for such a proposition. Nor would the
enumerated exceptions in Brockamp satisfy his heightened
standard for rebutting Irwin’s presumption.

62a
This provision demonstrates that Congress considered
the very circumstances that delayed Mr. Arellano from
filing a claim and nonetheless declined to afford
equitable relief beyond what was already provided in
§ 5110(b)(1). It is not our role as a court to secondguess Congress’ judgment as to when such equitable
exceptions are warranted. To decide otherwise would
amount to “[a]textual judicial supplementation,”
which “is particularly inappropriate when, as here,
Congress has shown that it knows how to adopt the
omitted language or provision” that would equitably
toll § 5110(b)(1) for permanently and totally disabled
veterans. See Rotkiske, 140 S. Ct. at 361; cf. Hamdan
v. Rumsfeld, 548 U.S. 557, 578 (2006) (“A familiar
principle of statutory construction . . . is that a
negative inference may be drawn from the exclusion
of language from one statutory provision that is
included in other provisions of the same statute.”).
We therefore decline, as the Supreme Court did in
Brockamp, to read additional, unwritten equitable
exceptions into the statute.
Though we need not look beyond the unambiguous
statutory text, the statutory history of § 5110 reinforces our conclusion that Congress did not intend for
equitable tolling to apply to § 5110(b)(1)’s effective
date provision. In the seventeen years since our
court decided Andrews in 2003, we have repeatedly
followed its holding, each time reiterating that equitable tolling is inapplicable to § 5110’s effective date
rules. See Titone v. McDonald, 637 F. App’x 592, 593
(Fed. Cir. 2016) (per curiam); Butler v. Shinseki, 603
F.3d 922, 926 (Fed. Cir. 2010) (per curiam); AF v.
Nicholson, 168 F. App’x 406, 408–09 (Fed. Cir. 2006);
Ashbaugh v. Nicholson, 129 F. App’x 607, 609 (Fed.
Cir. 2005) (per curiam). Congress has amended § 5110
four times since Andrews, and at no point has it

63a
expressed disapproval of Andrews and its progeny or
otherwise indicated that equitable tolling is available
under this statute. See Auburn, 568 U.S. at 159 (no
legislative intent of equitable tolling where Congress
had amended the relevant statute “six times since
1974, each time leaving [the provision at issue]
untouched” and had never “express[ed] disapproval” of
the agency’s longstanding regulation setting deadlines). To the contrary, Congress’ amendments adding
provisions § 5110(a)(2)–(3) under the Veterans Appeals
Improvement and Modernization Act of 2017 (AMA),
Pub. L. No. 115–55, § 2(l), 131 Stat. 1105, 1110, underscore an intent to continue limiting retroactivity to one
year. See § 5110(a)(2) (a claim receiving an adverse
decision retains “the date of the filing of the initial
application for a benefit” as the effective date on
appeal if the claim is “continuously pursued” within
“one year after the date” of the adverse decision);
§ 5110(a)(3) (the effective date of “supplemental claims
received more than one year” after the RO or Board
decision “shall not be earlier than the date of receipt
of the supplemental claim” (emphasis added)).
The statutory history of § 5110(b)(4) also confirms
that Congress did not intend to provide more equitable
relief than what was specifically enumerated in the
statute. When § 5110(b)(4) was proposed in 1973,
Congress explained that “[t]he 1-year period prescribed
by the proposal . . . is considered reasonable” to
address the filing “delays” of “permanently and totally
disabled” veterans whose “very condition upon which
entitlement may depend may also prevent prompt
application for benefit.” See H.R. Rep. No. 93-398), at
14 (1973) (emphases added). Congress, moreover,
remarked that the proposed one-year grace period
would bring the effective-date rules governing disability pension into conformity with those already

64a
governing disability compensation in § 5110(b)(1)
and death benefits in § 5110(d). See id. Because
§ 5110(b)(4)’s one-year grace period was considered a
“reasonable” equitable remedy for filing delays by
permanently and totally disabled veterans, this statutory history supports our conclusion that Congress
did not intend for equitable tolling of § 5110(b)(1)’s
analogous one-year grace period.
While acknowledging that § 5110(b)(4) speaks to
equitable tolling and indicates “Congressional willingness to delay veterans’ filing obligations where a
disability makes meeting them difficult or impossible,” see Dyk Op. at 26, Judge Dyk nonetheless argues
that this provision merely signals “a beneficent
Congressional act, [and] not a rebuttal of the Irwin
presumption,” id. at 16 (citing Cloer, 654 F.3d at
1343).9 But this ignores Cloer’s precise reasoning.
Cloer explains that enumerated statutory exceptions
do not necessarily rebut Irwin’s presumption where
those exceptions address a “special need” that is
unrelated to equitable tolling concerns. See id. Unlike
§ 5110(b)(4) and other exceptions addressing specific
equitable circumstances warranting a delayed claim
filing, Cloer concluded that the two exceptions to the
Vaccine Act’s 36-month filing deadline are driven by
“specific concern[s] unrelated to equitable tolling
considerations,” such as minimizing “confusion” and
addressing “scientific advances in medicine,” and thus
9

Despite maintaining that § 5110(b)(4) does not signal congressional intent to preclude equitable tolling beyond the statutory limits, Judge Dyk nonetheless claims this provision demonstrates congressional intent to deny Mr. Arellano and other
disabled claimants with a caregiver or other representative
equitable relief beyond what is expressly provided by statute. See
Dyk Op. at 22–24.

65a
do not “show a desire by Congress to bar equitable
tolling.” Id. at 1343–44; see also, id. at 1343 (“Individual factual circumstances, the first of equitable tolling
claims, played no role in enactment of this provision.”).
Mr. Arellano and Judge Dyk also argue that § 5110’s
listed exceptions are irrelevant because they are
exceptions to § 5110(a)(1)’s default effective-date rule,
and not § 5110(b)(1)’s one-year grace period. In their
view, the question is whether § 5110(b)(1)’s one-year
period can be tolled, and because that period does not
itself have any enumerated exceptions, precedent such
as TRW and Brockamp are not controlling. But this
argument ignores that tolling § 5110(b)(1)’s one-year
grace period would operate as an exception to not
only § 5110(b)(1)’s one-year grace period but also to
§ 5110(a)(1)’s default rule. This follows because, as
mentioned, § 5110(b)(1) is itself an equitable exception
to § 5110(a)(1)’s default rule. Cf. Beggerly, 524 U.S. at
48 (declining to further toll a statute “providing that
the statute of limitations will not begin to run until
plaintiff ‘knew or should have known of [the government’s] claim,’ [because it] has already effectively
allowed for equitable tolling”). It would be odd to
conclude that, because Congress chose to soften the
default effective-date rule by providing specific
enumerated equitable exceptions, it has somehow
opened the door for courts to create their own
exceptions-to-theexception through equitable tolling.
Mr. Arellano further argues that the relevant administrative context and subject matter of § 5110(b)(1)—
veterans’ benefits—support equitable tolling. We
acknowledge that Congress is more likely to have
intended equitable tolling for statutes “designed to be
‘unusually protective’ of claimants” where “laymen,
unassisted by trained lawyers, initiate the process.”

66a
See Auburn, 568 U.S. at 160 (citing Bowen v. City
of New York, 476 U.S. 467, 480 (1986) and Zipes, 455
U.S. at 397). And it is undoubtedly true that the
statutory scheme for veterans’ benefits is “uniquely
pro-claimant [in] nature,” Hensley v. West, 212 F.3d
1255, 1262 (Fed. Cir. 2000), and imbued with “[t]he
solicitude of Congress for veterans,” United States v.
Oregon, 366 U.S. 643, 647 (1961).
But these general background principles cannot
override the unambiguous meaning of the statutory
text. See Kisor v. Wilkie, 139 S. Ct. 2400, 2415–16
(2019) (ambiguity often resolved by full consideration
of “text, structure, history, and purpose”); cf. Andrus,
446 U.S. at 618–19 (“[A]lthough the rule by which
legal ambiguities are resolved to the benefit to the
Indians is to be given the broadest possible scope, a
canon of construction is not a license to disregard
clear expressions of . . . congressional intent.” (cleaned
up)); see also Conn. Nat’l Bank v. Germain, 503 U.S.
249, 253 (1992) (“canons of construction are no more
than rules of thumb,” and the text is the “one, cardinal
canon” a court must turn to “before all others”). Here,
for the reasons we have set forth, the comprehensiveness of the congressionally enumerated exceptions to
the § 5110(a)(1) default rule leave no room for
additional judicially recognized exceptions. Similarly,
the language, context, and characteristics of the
§ 5110(b)(1) time provision leave no room for reasonably concluding that Congress viewed it as a statute
of limitations. Those conclusions leave no ambiguity.
Where, as here, “the words of a statute are unambiguous, this first step of the interpretive inquiry is our
last.” Rotkiske, 140 S. Ct. at 360.
We recognize there are circumstances under which
it may seem unjust to preclude equitable tolling. But

67a
where the statutory text demonstrates “a clear intent
to preclude tolling, courts are without authority to
make exceptions merely because a litigant appears to
have been diligent, reasonably mistaken, or otherwise
deserving.” Nutraceutical, 139 S. Ct. at 714; see also
California v. Sierra Club, 451 U.S. 287, 297 (1981)
(“The federal judiciary will not engraft a remedy on a
statute, no matter how salutary, that Congress did
not intend to provide.”). “Under the system of government created by our Constitution, it is up to legislatures, not courts, to decide on the wisdom and utility
of legislation.” Ferguson v. Skrupa, 372 U.S. 726, 729
(1963); see also United States v. First Nat’l Bank of
Detroit, 234 U.S. 245, 260 (1914) (“The responsibility
for the justice or wisdom of legislation rests with
the Congress, and it is the province of the courts to
enforce, not to make, the laws.”).
For these reasons, equitable tolling is inconsistent
with Congress’ intent in enacting § 5110(b)(1), and
Irwin’s presumption—were it to apply in this
instance—would have been rebutted.
F
Lastly, we briefly address Judge Dyk’s conclusion
that equitable tolling is unavailable on the undisputed
facts of Mr. Arellano’s appeal. See Dyk Op. at 26 n.20.
Because both the Board and the Veterans Court concluded that equitable tolling was categorically unavailable for § 5110(b)(1) as a matter of law, neither had
reason to consider whether the specific facts of Mr.
Arellano’s case justified equitable tolling. Nor did they
consider whether further factual development would
be warranted if equitable tolling were not categorically unavailable. In the event of a reversal, Mr.
Arellano has requested that we remand this case for
further proceedings so he can present why his factual

68a
circumstances warrant equitable tolling. See Appellant’s Suppl. Br. 49; Appellant’s Br. 32. The government, for its part, has never argued in this court that
we can—or should—affirm the denial of equitable
tolling on the facts of Mr. Arellano’s case; it has only
argued that equitable tolling is unavailable as a
matter of law.
However, Judge Dyk contends that we may determine the application of equitable tolling in the first
instance “[w]here the facts are undisputed, [and] all
that remains is a legal question, even if that legal
question requires the application of the appropriate
standard to the facts of a particular case.” Dyk Op. at
26 n.20 (quoting Former Employees of Sonoco Prod.
Co. v. Chao, 372 F.3d 1291, 1294–95 (Fed. Cir. 2004)).
But neither Former Employees, nor any case cited
within, holds that we may apply a legal standard to
the facts where the Veterans Court (and the Board):
(1) did not address any of those facts in denying
equitable tolling; (2) made no factual findings on this
issue; (3) did not consider whether further factual
development may be warranted to adequately answer
that question; and (4) did not consider Judge Dyk’s
rigid “caregiver rule” that bars equitable tolling for
totally and permanently disabled veterans who have
a caregiver. For that reason, it is unsurprising that
Mr. Arellano has not alleged “any special circumstances” in relation to his caregiver, as Judge Dyk
observes, since no one until today had suggested that
having a caregiver creates a default presumption
against equitable tolling in this context or in any other
setting where equitable tolling can arise. Thus, even
if Irwin’s presumption of equitable tolling were to
apply to § 5110(b)(1), which it does not, we would
remand this case for further factual development—
which is all the more justified because Mr. Arellano

69a
has expressly requested this outcome under such circumstances and no party has argued that we may
affirm the Veterans Court’s decision on factual grounds.
CONCLUSION
For the aforementioned reasons, and consistent
with our longstanding holding in Andrews,
§ 5110(b)(1) is not a statute of limitations subject to
Irwin’s presumption of equitable tolling. But even if
Irwin’s presumption were to apply, it would be
rebutted by the statutory text of § 5110, which evinces
clear intent from Congress to foreclose equitable
tolling of § 5110(b)(1)’s one-year period.

70a
United States Court of Appeals
for the Federal Circuit
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908, Judge Michael P. Allen.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
Decided: June 17, 2021
————
DYK, Circuit Judge, with whom NEWMAN, O’MALLEY,
REYNA, WALLACH, and STOLL, Circuit Judges, join,
concurring in the judgment.
The court here agrees that Mr. Arellano’s claim for
benefits was untimely, but the court is equally divided
on the question whether 38 U.S.C. § 5110(b)(1) is
subject to equitable tolling. Judge Chen (joined by
Chief Judge Moore and Judges Lourie, Prost, Taranto,
and Hughes) would hold that the section is not a
statute of limitations, and, even if it were, the presumption of equitable tolling under Irwin has been
rebutted. An equal number of judges (Judges Newman,
O’Malley, Reyna, Wallach, Stoll, and myself) join this

71a
opinion and would hold that § 5110(b)(1) is a statute
of limitations subject to equitable tolling, that the
Irwin presumption of equitable tolling applies, but
that § 5110(b)(1) cannot be equitably tolled for mental
disability in the circumstances of this case.
I
The effective date of an award of service-connected
benefits is governed by 38 U.S.C. § 5110. “Unless
specifically provided otherwise in this chapter, the
effective date of an award . . . shall be fixed in
accordance with the facts found, but shall not be
earlier than the date of receipt of application therefor.”
38 U.S.C. § 5110(a)(1). An exception to § 5110(a)(1) is
available under § 5110(b)(1), which provides:
The effective date of an award of disability
compensation to a veteran shall be the day
following the date of the veteran’s discharge
or release if application therefor is received
within one year from such date of discharge
or release.
38 U.S.C. § 5110(b)(1); see also 38 C.F.R. § 3.400(b)(2)(i)
(2020) (“Day following separation from active service
or date entitlement arose if claim is received within 1
year after separation from service; otherwise, date of
receipt of claim, or date entitlement arose, whichever
is later.”).
Here, the claim for benefits was filed on June 3,
2011, thirty years after the veteran’s discharge, and
benefits were allowed as of the date the claim was
filed, June 3, 2011. The question is whether
§ 5110(b)(1) may be equitably tolled based on mental
disability so that the veteran can receive retroactive
benefits to the date his entitlement arose, which was
within a year of his discharge, thirty years earlier.

72a
II
“Time requirements in lawsuits between private
litigants are customarily subject to ‘equitable tolling.’”
Irwin v. Dep’t of Veterans Affs., 498 U.S. 89, 95 (1990)
(quoting Hallstrom v. Tillamook Cnty., 493 U.S. 20, 27
(1989)). Irwin held that “the same rebuttable presumption of equitable tolling applicable to suits
against private defendants should also apply to suits
against the United States.” Id. at 95–96.
The Supreme Court and several circuits have found
equitable tolling to be applicable to time requirements
in administrative agency proceedings. See Zipes v.
Trans World Airlines, Inc., 455 U.S. 385, 393 (1982)
(“[F]iling a timely charge of discrimination with the
[Equal Employment Opportunity Commission] is . . .
a requirement that, like a statute of limitations, is
subject to . . . equitable tolling.”); Farris v. Shinseki,
660 F.3d 557, 563 (1st Cir. 2011) (citation omitted)
(“[F]ailure to comply with an agency’s applicable
time limit may expose the plaintiff’s federal law suit
to dismissal . . . subject to narrowly applied equitable
doctrines such as tolling . . . .”); Kratville v. Runyon, 90
F.3d 195, 198 (7th Cir. 1996) (“Because the deadlines
for filing administrative complaints operate as statutes of limitations, the doctrines of equitable tolling
and estoppel apply.”). The Supreme Court has “never
suggested that the presumption in favor of equitable
tolling is generally inapplicable to administrative
deadlines,” Sebelius v. Auburn Reg’l Med. Ctr., 568
U.S. 145, 162 (2013) (Sotomayor, J., concurring), and
has suggested that Irwin can apply to “matters such
as the administration of benefit programs,” Scarborough v. Principi, 541 U.S. 401, 422 (2004).

73a
III
The framework governing the Irwin presumption of
equitable tolling has two steps.
The first step is determining whether the statute
is a statute of limitations, in which case the Irwin
presumption will apply. Courts “have only applied
[the] presumption [of equitable tolling] to statutes of
limitations,” Lozano v. Montoya Alvarez, 572 U.S. 1,
13–14 (2014), or a “filing period” that “operate[s] as a
statute of limitations,” Zipes, 455 U.S. at 394. The
second step is determining if the presumption has
been rebutted.
A
Judge Chen at the first step would hold that 38
U.S.C. § 5110(b)(1) is not a statute of limitations or
otherwise subject to tolling, and he would reaffirm our
Andrews panel decision in this respect. I think this
view is quite clearly incorrect.
Judge Chen urges that the limitations period
on past benefits for disability compensation in
§ 5110(b)(1) is not a statute of limitations because the
one-year period “[1] is not triggered by harm from the
breach of a legal duty owed by the opposing party, and
[2] it does not start the clock on seeking a remedy
for that breach from a separate remedial entity.” Chen
Op. 13 (citing 1 Calvin W. Corman, LIMITATION OF
ACTIONS, § 6.1, at 370 (1991)). In Judge Chen’s view,
§ 5110(b)(1) is not a statute of limitations because
“there is no duty, or breach of duty, at the onset of
§ 5110(b)(1)’s one-year period (i.e., the day after discharge)” and “no remedial authority separate from the
[Department of Veterans Affairs (“VA”)] is involved in
an initial application for veterans’ benefits.” Id. at 13–
14.

74a
Judge Chen’s opinion is bereft of support for these
supposed rules. The cited treatise contains only general language describing general principles of statutes
of limitations. See Corman, supra, § 6.1, at 370 (“The
earliest opportunity for a complete and present cause
of action is that moment when the plaintiff has
suffered a legally recognizable harm at the hands of
the defendant, such as the time of contract breach or
the commission of a tortious wrong.”). Judge Chen
cites no case, and I am aware of none, holding that
statutes of limitations are limited as Judge Chen
suggests.1
The cases establish that there are no such rules. The
notion that statutes of limitations are triggered only
by a breach of legal duty is quite inconsistent with
cases holding that a provision barring benefits for
failure to file within a prescribed period constitutes a
statute of limitations, regardless of any alleged breach
of duty by the government. This has been made clear
by Scarborough, where (as noted above) the Supreme
Court explained that Irwin’s reasoning may extend to
“the administration of benefit programs.” 541 U.S. at
422.
A primary example of a no-fault statute of limitations is the National Childhood Vaccine Injury Act of
1986 (“Vaccine Act”), which requires that, for vaccines
1

Judge Chen relies on Hallstrom, which concerned the citizen
suit provision of the Resource Conservation and Recovery Act of
1976 that required 60 days’ notice before filing suit. See 493 U.S.
at 22 (citing 42 U.S.C. § 6972(b)(1) (1982)). Hallstrom noted in
passing that, “[u]nlike a statute of limitations,” the “60-day notice
provision is not triggered by the violation giving rise to the
action.” Id. at 27. The Supreme Court’s characterization of the
notice provision at issue in Hallstrom hardly suggests that a
violation is essential to the existence of statute of limitations.

75a
administered after October 1, 1988, a “petition” for
“compensation” for a vaccine-related injury be filed
within 36 months “after the date of the occurrence of
the first symptom or manifestation of onset . . . of
such injury.” 42 U.S.C. § 300aa-16(a)(2).
Vaccine Act claims are not tied to fault by the
government. The system established by the Vaccine
Act “was ‘intended to be expeditious and fair’ and
‘to compensate persons with recognized vaccine
injuries . . . without a demonstration that a manufacturer was negligent or that a vaccine was defective.’”
Zatuchni v. Sec’y of Health & Hum. Servs., 516 F.3d
1312, 1316 (Fed. Cir. 2008) (quoting H.R. Rep. 99-908,
at 12, reprinted in 1986 U.S.C.C.A.N. 6344, 6353).
Under this compensation system, vaccineinjured persons may obtain a full and fair
award for their injuries even if the manufacturer has made as safe a vaccine as possible.
Petitioners are compensated because they
suffered harm from the vaccine—even a ‘safe’
one—not because they demonstrated wrongdoing on the part of the manufacturer.
H.R. Rep. 99-908, at
U.S.C.C.A.N. at 6367.

26,

reprinted

in

1986

We have nonetheless held en banc that 42 U.S.C.
§ 300aa-16(a)(2) establishes a statute of limitations
subject to equitable tolling under Irwin. See Cloer v.
Sec’y of Health & Hum. Servs., 654 F.3d 1322, 1340–
44 (Fed. Cir. 2011) (en banc); see also id. at 1341 n.9.
We held that “[t]he statute of limitations begins to run
on a specific statutory date: the date of occurrence of
the first symptom or manifestation of onset of the
vaccine-related injury recognized as such by the
medical profession at large.” Id. at 1340. We reached

76a
this conclusion because “the plain words of the statute
trigger the statute of limitations on the date of the
first symptom or manifestation of onset of the injury
claimed,” and Congress did not intend for a discovery
rule to apply. See id. at 1336, 1340. The prescribed
period is a statute of limitations even though the
underlying claim is not based on a breach of duty,
either by the government or the manufacturer. See
Zatuchni, 516 F.3d at 1316; H.R. Rep. 99-908, at 12,
reprinted in 1986 U.S.C.C.A.N. at 6353.
The second of Judge Chen’s factors—the involvement of a “separate remedial entity,” Chen Op. 13—is
also inconsistent with cases in the administrative
context, in which the Supreme Court and other courts
have made clear that a statute governing the timeliness of a claim to an agency for payment from that
agency is a statute of limitations. See United States v.
Williams, 514 U.S. 527, 534 & n.7 (1995) (26 U.S.C.
§ 6511(a) is a “statute of limitations” that “bar[s] . . .
tardy” tax refund claims filed with the Internal Revenue Service); Colvin v. Sullivan, 939 F.2d 153, 156 (4th
Cir. 1991) (referring to 42 U.S.C. § 1320b-2(a), which
provides for a two-year period during which states are
permitted to file claims with the federal government
for expenditures made in carrying out a state plan
under specific subchapters of the codification of the
Social Security Act, as a “statute of limitations”); cf.
Warren v. Off. of Pers. Mgmt., 407 F.3d 1309, 1316
(Fed. Cir. 2005) (referring to the two-year period “after
the date on which the marriage of [a] former spouse . .
. is dissolved” to make an election with the Office of
Personal Management to provide a survivor annuity
for the former spouse, see 5 U.S.C. § 8339(j)(3), as a
“statute of limitations”).

77a
B
Judge Chen offers an alternative theory—that
§ 5110(b)(1) is not a statute of limitations because it
“does not eliminate a veteran’s ability to collect
benefits for [a service-connected] disability,” Chen Op.
13, but instead “forgives a veteran’s temporary delay
in filing a claim in the immediate aftermath of a
veteran’s transition back to civilian life upon discharge from military service,” id. at 19 (emphasis
omitted). In my view, this analysis blinks reality.
The claim for benefits here has two components: (1)
a retrospective claim for benefits for past disability,
and (2) a prospective claim for future benefits. The
statute imposes no statute of limitations for prospective benefits, and a veteran may be entitled to forwardlooking benefits after the one-year period prescribed
by § 5110(b)(1) runs. See Henderson v. Shinseki, 562
U.S. 428, 431 (2011) (“A veteran faces no time limit
for filing a claim . . . .”). But § 5110(b)(1) does impose
what is clearly a one-year statute of limitations for
retrospective claims—making retrospective benefits
unavailable unless the claim is filed within one year
after discharge. Section 5110(b)(1) is a “more limited
statute of limitations,” see Young v. United States, 535
U.S. 43, 48 (2002), applicable only to retrospective
benefit claims, but it is a statute of limitations
nonetheless. Section 5110(b)(1) “is a limitations period
because it prescribes a period within which certain
rights . . . may be enforced.” See id. at 47. It bars
retroactive benefits if the claim is filed more than a
year after discharge.
This approach to periods of limitations for claims for
benefits is not unusual. Government benefits programs often provide that an individual qualifying
for benefits may recover future benefits once an

78a
application is filed but is limited in the recovery of
past benefits to a set period before the filing of the
application. One example is the statute providing for
Social Security disability benefits, which provides no
limit on the recovery of future benefits once an application has been filed but imposes a twelve-month
limitations periods on the recovery of past benefits—
in other words, a statute of limitations. Begley v.
Weinberger, 400 F. Supp. 901, 911 (S.D. Ohio 1975)
(noting a “one-year statute of limitations upon the
availability of retroactive disability insurance benefits”
established by 42 U.S.C. § 423(b)).2
Section 5110(b)(1) is nearly the same as the statutes of limitation in copyright actions and patent
infringement, where the statutes bar recovery for
past events if the claim is not filed within a specified
period, but permit recovery for future acts. The copyright limitations period is governed by 17 U.S.C.
§ 507,3 which the Supreme Court has described as a
“limitations period [that] allows plaintiffs during [the
copyright] term to gain retrospective relief running
2

The cases Judge Chen cites, both decided before Irwin, are
not to the contrary. See Chen Op. 31 (citing Yeiter v. Sec’y of
Health & Hum. Servs., 818 F.2d 8, 10 (6th Cir. 1987); and then
citing Sweeney v. Sec’y of Health, Ed. & Welfare, 379 F. Supp.
1098, 1100 (E.D.N.Y. 1974)).
Yeiter rejected the argument that “Congress did not intend the
one-year limit on retroactive benefits [in 42 U.S.C. § 423(b)] to
apply where the failure to file for benefits arises from the disability itself.” 818 F.2d at 9. Sweeney held that “equitable considerations [were] irrelevant” to the application of § 423 “to this case.”
379 F. Supp. at 1100–01. Neither held that § 423(b) is not a
statute of limitations.
3

”No civil action shall be maintained under the provisions of
this title unless it is commenced within three years after the
claim accrued.” 17 U.S.C. § 507(b).

79a
only three years back from the date the complaint was
filed.” Petrella v. Metro-Goldwyn-Mayer, Inc., 572 U.S.
663, 672 (2014); see also id. at 670 (describing copyright limitations period as a “a three-year look-back
limitations period”).4 Thus, “the infringer is insulated
from liability for earlier infringements of the same
work.” Id. at 671.
Likewise, § 5110(b)(1) is similar to the limitations
period in patent infringement actions, 35 U.S.C.
§ 286,5 which “represents a judgment by Congress that
a patentee may recover damages for any infringement
committed within six years of the filing of the claim.”
SCA Hygiene Prods. Aktiebolag v. First Quality Baby
Prods., LLC, 137 S. Ct. 954, 961 (2017). In so holding,
the Supreme Court rejected the argument that § 286
was not a “true statute of limitations” because it “runs
backward from the time of suit.” Id. at 961–62 (citing
Petrella, 572 U.S. at 672).6
Judge Chen attempts to distinguish these cases on
the ground that “§ 5110(b)(1) establishes the effective
4

The copyright statute of limitations has been held to be
subject to equitable tolling. See Prather v. Neva Paperbacks, Inc.,
446 F.2d 338, 340 (5th Cir. 1971) (“[T]he intent of the drafters [of
the predecessor of § 507(b)] was that the limitations period would
affect the remedy only, not the substantive right, and that equitable considerations would therefore apply to suspend the running
of the statute.”).
5

”Except as otherwise provided by law, no recovery shall be
had for any infringement committed more than six years prior to
the filing of the complaint or counterclaim for infringement in the
action.” 35 U.S.C. § 286.
6

The holdings of Petrella and SCA Hygiene addressed whether
the provisions were statutes of limitations because that affected
application of the doctrine of laches. See Petrella, 572 U.S. at 686;
SCA Hygiene, 137 S. Ct. at 967.

80a
date of a single benefits claim for an ongoing disability, whereas an ongoing course of infringement in
Petrella and SCA Hygiene comprises a ‘series of
discrete infringing acts,’ each of which is a distinct
harm giving rise to an independent claim for relief
that starts a new limitations period.” Chen Op. 20
(quoting Petrella, 572 U.S. at 671–72). The same is
true here. The claim is not a single benefits claim, but
a claim for a series of payments allegedly due. See
38 U.S.C. § 1110 (establishing basic entitlement
for disability compensation); id. § 1114 (providing
monthly rates for disability compensation); id. § 1115
(providing additional compensation for dependents);
see also Veterans’ Compensation Cost-of-Living
Adjustment Act of 2020, Pub. L. 116 178, 134 Stat. 853
(providing cost-of-living adjustment).
The Supreme Court’s decision in Young, 535 U.S. 43,
also supports the view that § 5110(b)(1) is a statute
of limitations. In Young, the Supreme Court considered whether a three-year lookback period provided
by § 507 of the Bankruptcy Code was a statute of
limitations. See 11 U.S.C. § 507(a)(8)(A)(i). Under this
lookback period, “[i]f the IRS has a claim for taxes
for which the return was due within three years before
the bankruptcy petition was filed, the claim enjoys
eighth priority . . . and is nondischargeable in
bankruptcy.” Young, 535 U.S. at 46. “The period thus
encourages the IRS to protect its rights—by, say,
collecting the debt, or perfecting a tax lien—before
three years have elapsed.” Id. at 47 (citations omitted).
“If the IRS sleeps on its rights, its claim loses priority and the debt becomes dischargeable.” Id. The
Supreme Court acknowledged that, “unlike most statutes of limitations, the lookback period bars only some,
and not all, legal remedies for enforcing the claim,”
id. (footnote omitted), and noted that “[e]quitable

81a
remedies may still be available,” id. at 47 n.1. That
qualification “ma[de] it a more limited statute of
limitations, but a statute of limitations nonetheless”
subject to equitable tolling. Id. at 48.
In determining that the lookback period was a
statute of limitations, the Supreme Court found it significant that “the lookback period serve[d] the same
‘basic policies [furthered by] all limitations provisions:
repose, elimination of stale claims, and certainty about
a plaintiff’s opportunity for recovery and a defendant’s
potential liabilities.’” Young, 535 U.S. at 47 (second
alteration in original) (quoting Rotella v. Wood, 528
U.S. 549, 555 (2000)).
Section 5110(b)(1), like the provision at issue in
Young, serves the same basic policies of limitations
periods. It encourages veterans to file for disability
compensation benefits within a year of their discharge, or else lose retroactive benefits that they
would otherwise be entitled to. It limits veterans’
“opportunity for recovery” and the government’s
“potential liabilities,” see Rotella, 528 U.S. at 555, to
only forward-looking benefits if the filing deadline is
missed.
Judge Chen attempts to find support in the Supreme
Court’s Lozano decision. Lozano involved Article 12
of the Hague Convention on the Civil Aspects of
International Child Abduction, which was held not
to be a statute of limitations. “When a parent abducts
a child and flees to another country,” the Hague
Convention “generally requires that country to return
the child immediately if the other parent requests
return within one year.” Lozano, 572 U.S. at 4. After
the one-year period has expired, under Article 12, the
court “shall also order the return of the child, unless
it is demonstrated that the child is now settled.” Id. at

82a
15 (citation and quotation marks omitted). Lozano did
not involve a statute, but rather a treaty provision,
which “was not adopted against a shared background
of equitable tolling.” Id. at 11. Also, this treaty provision in Lozano did not provide a cut-off for monetary
recovery, unlike § 5110(b)(1), which provides “certainty about a plaintiff’s opportunity for recovery and
a defendant’s potential liabilities” by providing a cutoff date for retroactive disability benefits. See Rotella,
528 U.S. at 555. Lozano has no relevance here.
Nor is this case similar to Hallstrom, on which
Judge Chen also relies. As noted above, Hallstrom
concerned a 60-day notice provision of the Resource
Conservation and Recovery Act of 1976. 493 U.S. at 22
(citing 42 U.S.C. § 6972(b)(1) (1982)). The Supreme
Court held that this “60-day notice provision” was
“[u]nlike a statute of limitations” because “petitioners
[had] full control over the timing of their suit: they
need only give notice to the appropriate parties and
refrain from commencing their action for at least 60
days.” Id. at 27. Section § 5110(b)(1) is not a notice
provision.
In sum, § 5110(b)(1) is a statute of limitations, and
the Irwin rebuttable presumption of equitable tolling
applies. As Judge Newman has noted, “[t]he time
period of § 5110(b)(1) is not a jurisdictional restriction,
and its blanket immunization from equitable extension, whatever the circumstances, appears to be
directly contrary to the legislative purpose.” Butler v.
Shinseki, 603 F.3d 922, 928 (Fed. Cir. 2010) (Newman,
J., concurring in the result).
IV
“To be sure, Irwin’s presumption is rebuttable.”
United States v. Kwai Fun Wong, 575 U.S. 402, 419

83a
(2015). Judge Chen concludes that even if the presumption of equitable tolling applies to § 5110(b)(1),
the presumption has been rebutted. I disagree.
Congress has not clearly indicated a general
prohibition against equitable tolling as to § 5110(b)(1).
The Supreme Court has identified several factors
that determine whether the equitable tolling presumption has been rebutted, and here, almost all of
the factors signal that there is no general prohibition
against equitable tolling.7
The first factor is the language of the statute. The
language of a statute of limitations may indicate that
it is jurisdictional, in which case a court must enforce
the limitation “even if equitable considerations would
support extending the prescribed time period.” Kwai
Fun Wong, 575 U.S. at 408–09. In determining
whether a statute is jurisdictional, courts have often
held that it does not matter if a statute’s language is
“mandatory” or “emphatic” if “text speaks only to a
claim’s timeliness, not to a court’s power.” Id. at 410–
11.
Section 5110(b)(1) is not jurisdictional, as Judge
Chen concedes. Chen Op. 36–37. Nevertheless, Judge
Chen relies on the use of the phrase “[u]nless
specifically provided otherwise in this chapter” in
§ 5110(a)(1), concluding that by using that term,
Congress “implicitly intended to preclude the general
availability of equitable tolling by explicitly including
a more limited, specific selection of equitable circumstances under which a veteran is entitled to an earlier
7

Our decision in Cloer identified many of the same factors. See
654 F.3d at 1342. The Supreme Court has identified further
factors since we decided Cloer that I discuss here. See generally
Auburn, 568 U.S. 145; Kwai Fun Wong, 575 U.S. 402.

84a
effective date and specifying the temporal extent of the
exceptions for those circumstances.” Id. at 37–38.
In Kwai Fun Wong, the Supreme Court held that
the use of the phrase “shall be forever barred” in the
Federal Tort Claims Act limitations period, 28 U.S.C.
§ 2401(b), though “mandatory” and “emphatic,” “[spoke]
only to a claim’s timeliness, not to a court’s power,”
and did not designate § 2401(b) as a jurisdictional
time bar not subject to equitable tolling. 575 U.S. at
410–11. Here, too, the phrase “[u]nless specifically
provided otherwise in this chapter” in § 5110(a)(1),
though mandatory and emphatic, does not clearly
foreclose equitable tolling of § 5110(b)(1).
Second, the detailed nature of a statute may suggest
that Congress did not intend for a statute of limitations to be equitably tolled. “Ordinarily limitations
statutes use fairly simple language, which one can
often plausibly read as containing an implied ‘equitable tolling’ exception.” United States v. Brockamp, 519
U.S. 347, 350 (1997). A statute that “uses language
that is not simple” and “sets forth its limitations in a
highly detailed technical manner, that, linguistically
speaking, cannot easily be read as containing implicit
exceptions” could indicate Congress’s intent to preclude equitable tolling. Id.
Judge Chen determines that the language and
structure of § 5110’s subsections are “highly detailed”
and “technical.” Chen Op. 39 (quoting Brockamp,
519 U.S. at 350). While it is true that § 5110 is a
detailed statute, it “use[s] fairly simple language.” See
Brockamp, 519 U.S. at 350. For example, § 5110(b)(1)
simply states that “[t]he effective date of an award of
disability compensation to a veteran shall be the day
following the date of the veteran’s discharge or release
if application therefor is received within one year

85a
from such date of discharge or release.” 38 U.S.C.
§ 5110(b)(1). Section § 5110, even considered as a
whole, is not as detailed as the tax statute at issue in
Brockamp, 26 U.S.C. § 6511, where equitable tolling
was disallowed. This factor does not weigh against
equitable tolling of § 5110(b)(1).
Third, we consider if a statute of limitations has
“explicit exceptions to its basic time limits,” which
may preclude equitable tolling. Brockamp, 519 U.S. at
351. Judge Chen concludes that “§ 5110’s enumerated
exceptions confirm that Congress has already considered which equitable considerations may provide a
retroactive effective date and declined to provide the
relief Mr. Arellano seeks.” Chen Op. 41.
We noted in Cloer that “exceptions to statutes of
limitations do not necessarily rebut the bedrock Irwin
presumption in favor of equitable tolling,” and that
“an exception may signal a beneficent Congressional
act, not a rebuttal of the Irwin presumption.” 654 F.3d
at 1343. Although § 5110(b)(1) is itself an exception to
the general effective date rule of § 5110(a)(1), there
are no explicit exceptions to the one-year period in
§ 5110(b)(1).8
Nor do the other provisions of § 5110 speak to
equitable tolling, with the exception of § 5110(b)(4),
which provides a retroactive period of disability pension benefits for a veteran who is “prevented by a

8

Under the VA’s regulation, “[t]ime limits within which claimants or beneficiaries are required to act to perfect a claim or
challenge an adverse VA decision may be extended for good cause
shown.” 38 C.F.R. § 3.109(b) (2020). The government argues that
this regulation does not apply to § 5110(b)(1), and Mr. Arellano
does not contend otherwise.

86a
disability from applying for disability pension.” 38
U.S.C. § 5110(b)(4)(B).
Apart from § 5110(b)(4), this is not a situation in
which the statute “has already effectively allowed for
equitable tolling.” See United States v. Beggerly, 524
U.S. 38, 48 (1998). The other § 5110 provisions discuss
situations—for example, when a child turns 18, 38
U.S.C. § 5110(e)(2); when there has been a report or
finding of death of a service member, id. § 5110(j); or
when there has been an annulment of marriage, id.
§ 5110(k)—which do not on their face relate to equitable tolling or indicate Congress’s intent to preclude
equitable tolling of § 5110(b)(1).
With respect to § 5110(b)(4), it is true that
§ 5110(b)(4) speaks to one limited aspect of equitable
tolling (tolling for disability), but only in the unique
context of disability pension and not disability compensation. While this may indicate a desire to limit
equitable tolling for mental disability in specific
circumstances (as discussed below), this can hardly
be read as evincing a desire by Congress to eliminate
equitable tolling generally as to disability compensation. It is simply an example of “a beneficent Congressional act, not a rebuttal of the Irwin presumption.”
See Cloer, 654 F.3d at 1343.
Fourth, Congress is more likely to have intended a
statute of limitations that governs a statutory scheme
“in which laymen, unassisted by trained lawyers,
initiate the process” to be subject to equitable tolling,
Zipes, 455 U.S. at 397 (quoting Love v. Pullman Co.,
404 U.S. 522, 527 (1972)), in contrast to statutory
schemes that govern sophisticated parties “assisted by
legal counsel,” Auburn, 568 U.S. at 160.

87a
The fact that “the veteran is often unrepresented
during the claims proceedings,” Shinseki v. Sanders,
556 U.S. 396, 412 (2009), especially, as here, “in the
early stages of the application process,” when “the
veteran is almost always unassisted by legal counsel,”
Hensley v. West, 212 F.3d 1255, 1262 (Fed. Cir. 2000),
suggests that Congress intended for equitable tolling
to be available.9 This is in contrast to situations such
as in Auburn, where the statutory scheme at issue
governed reimbursements to healthcare providers.
The statute “[was] not designed to be unusually protective of claimants,” was not one “in which laymen,
unassisted by trained lawyers, initiate the process,”
and “applie[d] to sophisticated institutional providers
assisted by legal counsel.” 568 U.S. at 160–61 (citations and internal quotation marks omitted) (holding
that equitable tolling did not apply to the 180-day
statutory deadline for health care providers to file
appeals with the Provider Reimbursement Review
Board under 42 U.S.C. § 1395oo(a)(3)).
Fifth, we consider the subject matter of the statute.
If the statute of limitations “is contained in a statute
that Congress designed to be ‘unusually protective’ of
claimants,” that will suggest Congress intended for
equitable tolling to apply. Bowen v. City of New York,
9

See also Department of Veterans Affairs Board of Veterans’
Appeals, Annual Report Fiscal Year 2020, 36, https://www.bva.
va.gov/docs/Chairmans_Annual_Rpts/BVA2020AR.pdf (24.4% of
legacy appeals before the Board of Veterans’ Appeals (“Board”) in
fiscal year 2020 had attorney representation); Connie Vogelmann,
Admin. Conf. of the United States, Self-Represented Parties in
Administrative Hearings 29 (Oct. 28, 2016), https://www.acus.
gov/sites/default/files/documents/Self-Represented-Parties-Admi
nistrative-Hearings-Final-Re-port-10-28-16.pdf (10.5% of claimants
before the Board between fiscal years 2011–2015 had attorney
representation).

88a
476 U.S. 467, 480 (1986) (quoting Heckler v. Day, 467
U.S. 104, 106 (1984)).
“[T]he uniquely pro-claimant nature of the veterans
compensation system” suggests that Congress intended
at least some form of equitable tolling to be available.
Hensley v. West, 212 F.3d 1255, 1262 (Fed. Cir. 2000).
The veterans’ claims process is “designed to be ‘unusually protective’ of claimants,” see Bowen, 476 U.S. at
480, and “is designed to function throughout with a
high degree of informality and solicitude for the claimant,” Henderson, 562 U.S. at 431 (quoting Walters v.
Nat’l Assn. of Radiation Survivors, 473 U.S. 305, 311
(1985)).10
“Congress has expressed special solicitude for the
veterans’ cause.” Shinseki, 556 U.S. at 412. “A veteran,
after all, has performed an especially important service for the Nation, often at the risk of his or her own
life.” Id. “[T]he veterans benefit system is designed to
award ‘entitlements to a special class of citizens, those
who risked harm to serve and defend their country.
This entire scheme is imbued with special beneficence
from a grateful sovereign.’” Barrett v. Principi, 363
F.3d 1316, 1320 (Fed. Cir. 2004) (quoting Bailey v.
West, 160 F.3d 1360, 1370 (Fed. Cir. 1998) (Michel, J.,
concurring)).11
10

Although Walters noted in passing that “[t]here is no statute
of limitations” in the veterans’ claims process generally, 473 U.S.
at 311, the court appears to have been referring to the fact that
“[a] veteran faces no time limit for filing a claim,” Henderson, 562
U.S. at 431.
11

In Bailey, we held that the 120-day period for a claimant to
appeal an adverse decision of the Board to the Court of Appeals
for Veterans Claims (“Veterans Court”), 38 U.S.C. § 7266, is
subject to equitable tolling. 160 F.3d at 1368 (en banc). Bailey and
its progeny, including Jaquay v. Principi, 304 F.3d 1276 (Fed.

89a
The veterans benefits system is unlike the tax collection system, which the Supreme Court held was not
subject to equitable tolling because “Congress decided
to pay the price of occasional unfairness in individual
cases (penalizing a taxpayer whose claim is unavoidably delayed) in order to maintain a more workable tax
enforcement system.” Brockamp, 519 U.S. at 352–53.
“[O]nce a claim is filed, the VA’s process for
adjudicating it at the regional office and the Board is
ex parte and nonadversarial.” Henderson, 562 U.S. at
431; see 38 C.F.R. §§ 3.103(a), § 20.700(c) (2020). “In
the context of the non-adversarial, paternalistic,
uniquely pro-claimant veterans’ compensation system,
and consistent with our decision in Bailey, the
availability of equitable tolling pursuant to Irwin
should be interpreted liberally with respect to filings
during the non-adversarial stage of the veterans’
benefits process.” Jaquay, 304 F.3d at 1286.
These factors, as well as “the canon that provisions
for benefits to members of the Armed Services are to
be construed in the beneficiaries’ favor,” King v. St.
Vincent’s Hosp., 502 U.S. 215, 221 n.9 (1991), lead to
the conclusion that there is no clear indication that
Congress intended to broadly foreclose equitable tolling in § 5110(b)(1), and that equitable tolling should
be available in appropriate cases.

Cir. 2002) (en banc), were overruled by our en banc decision in
Henderson v. Shinseki, 589 F.3d 1201, 1203 (Fed. Cir. 2009) (en
banc), reversed in Henderson v. Shinseki, 562 U.S. 428, 441–42 &
n.4 (2011). The effect of the Supreme Court’s decision was to reinstate our decision in Bailey, and we have since reaffirmed that
“[t]he filing deadline of § 7266 is not jurisdictional and may be
tolled where appropriate.” James v. Wilkie, 917 F.3d 1368, 1372
(Fed. Cir. 2019).

90a
Nor does the fact that Congress amended § 5110 four
times since Andrews indicate approval of Andrews.
The presumption that reenactment of a statute ratifies
the settled interpretation of that statute is strongest
when there is evidence that “Congress was indeed
well aware of [the prior interpretation].” Lindahl v.
OPM, 470 U.S. 768, 782 (1985); see also Lorillard v.
Pons, 434 U.S. 575, 580–81 (1978). However, “[r]eenactment—particularly without the slightest affirmative indication that Congress ever had the [prior
judicial interpretation] decision before it—is an
unreliable indicium at best.” C.I.R. v. Glenshaw
Glass Co., 348 U.S. 426, 431 (1955); see also Brown v.
Gardner, 513 U.S. 115, 121 (1994) (declining to find
that reenactment of a statute ratified the VA’s
interpretation of that statute in part because “the
record of congressional discussion preceding reenactment ma[de] no reference to the VA regulation
[interpreting the statute at issue], and there is no
other evidence to suggest that Congress was even
aware of the VA’s interpretive position.”); Micron
Technology, Inc. v. U.S., 243 F.3d 1301, 1310 (Fed. Cir.
2001). There is not the slightest indication that
Congress when it amended § 5110 was aware of our
decision in Andrews, and there is no basis for concluding that Congress intended to approve that decision.12 Nor is this a well-settled administrative interpretation as in Auburn, 568 U.S. 145. Auburn concerned Congress’s delegation of rulemaking authority
12

This is especially true because, as Judge Newman pointed
out in her concurrence in Butler, it is unclear whether the broad
language in Andrews was even relevant to its resolution of the
precise issue for which it is now cited to us. 603 F.3d at 927 (“The
Veterans Court enlarged Andrews beyond its premises, in holding
that tolling of the one-year term of retroactivity under § 5110(b)(1)
is never available.”).

91a
relating to a specific statutory provision to the
Secretary of Health and Human Services, and the
Secretary’s implementation of that authority. 568 U.S.
at 159. Here, by contrast, we are dealing with the
decision of a single circuit court, which has not been
reviewed by the Supreme Court.
Judge Chen’s approach is particularly difficult to
defend because it would bar equitable tolling in all
cases, including cases where equitable tolling could
be argued to be particularly important and appropriate. This approach forecloses the possibility of equitable tolling entirely, even in circumstances in which
there is no indication that Congress intended strict
enforcement of the one-year period of § 5110(b)(1).
V
The fact that the statute does not foreclose equitable
tolling in the case of § 5110(b)(1) does not suggest
that equitable tolling is available in every circumstance. While the statute does not indicate a general
prohibition against equitable tolling, “[f]ederal courts
have typically extended equitable relief only sparingly.” Irwin, 498 U.S. at 96. To determine when
equitable tolling is justified, we apply well-established
equitable tolling principles to the circumstances presented. Such analysis is done on a case-by-case basis,
though general principles will often guide the analysis
in a broad swath of cases.
Equitable tolling analysis begins with the governing
statutory scheme. Even where the Irwin presumption
has not been rebutted, the statute and statutory
scheme are instructive as to the particular circumstances that will justify equitable tolling. See Mapu v.
Nicholson, 397 F.3d 1375, 1381 (Fed. Cir. 2005)
(concluding that “Congress’s explicit decision not to

92a
broaden the postmark rule by extending it to delivery
services other than the Postal Service must trump
any extension of equitable tolling to this case”); Cloer,
654 F.3d at 1345 (no relief under equitable tolling
because of “a policy calculation made by Congress not
to afford a discovery rule to all Vaccine Act petitioners
and Dr. Cloer’s failure to point to circumstances that
could justify the application of equitable tolling to
forgive her untimely claim”). The statutory scheme
here helps inform the scope of equitable tolling on the
ground of mental disability.
First, an individual who lacks mental capacity may
have a caregiver sign a form for benefits on his or
her behalf. Under 38 U.S.C. § 5101, as amended in
2012,13 if an “individual lacks the mental capacity . . .
to provide substantially accurate information needed
to complete a form; or . . . to certify that the statements made on a form are true and complete,” 38
U.S.C. § 5101(e)(1),14 then “a form filed . . . for the
individual may be signed by a court-appointed representative, a person who is responsible for the care of
the individual, including a spouse or other relative, or
. . . agent authorized to act on behalf of the individual
under a durable power of attorney,” id. § 5101(a)(2).
In addition, 38 C.F.R. § 3.155 provides that “some
person acting as next friend of claimant who is not of
full age or capacity may indicate a claimant’s desire to
file a claim for benefits by submitting an intent to file
13

See Honoring America’s Veterans and Caring for Camp
Lejeune Families Act of 2012, Pub. L. 112-154, Title V, § 502(a),
126 Stat. 1165, 1190.
14

38 U.S.C. § 5101(d) (2020) was renumbered as § 5101(e) in
2021. See Johnny Isakson and David P. Roe, M.D. Veterans
Health Care and Benefits Improvement Act of 2020, Pub. L. 116315, § 2006(a), 134 Stat. 4932 (enacted Jan. 5, 2021).

93a
a claim to [the] VA.” 38 C.F.R. § 3.155(b) (2020). “Upon
receipt of the intent to file a claim, [the] VA will
furnish the claimant with the appropriate application
form prescribed by the Secretary.” Id. Thus, § 3.155
“provide[s] a way for claimants who cannot engage
in a legal contract due to age or disability to be
represented by someone (or next friend) who can do
so on their behalf.” Standard Claims and Appeals
Forms, 79 Fed. Reg. 57,660, 57,667 (Sept. 25, 2014)
(Final Rule).15
In the context of the Vaccine Act, the provision that
allows a “legal representative,” 42 U.S.C. § 300aa11(b)(1)(A), to file a petition on the behalf of a person
who is disabled, “does not foreclose the availability of
equitable tolling for claimants with mental illness,”
under all circumstances. K. G. v. Sec’y of Health &
Hum. Servs., 951 F.3d 1374, 1381 (Fed. Cir. 2020).
K.G. makes clear that the mere fact that a guardian
has been appointed for a claimant is a factor in the
equitable tolling inquiry, but only one factor. While
that fact is true for veterans as well, it is a more
important factor in the veteran’s context than in
Vaccine Act cases. That is because Congress has gone
further in the veteran’s context, by allowing any
person on the claimant’s behalf to indicate an intent to
file a claim, and making a mere indication of a desire
15

A similar provision existed under the informal claim system,
which ended in 2015. See Shea v. Wilkie, 926 F.3d 1362, 1366 n.3
(Fed. Cir. 2019). Under the informal claim system, “[a]ny communication or action, indicating an intent to apply for one or more
benefits under the laws administered by [the VA], from a claimant . . . or some person acting as next friend of a claimant who is
not sui juris” could be “considered an informal claim,” which was
a longstanding practice of the VA. 26 Fed. Reg. 1561, 1570,
(codified at 38 C.F.R. § 3.155(a)) (Feb. 24, 1961). Compare id. with
38 C.F.R. § 3.155(a) (2014).

94a
to file a claim sufficient to start the claims process. See
38 C.F.R. § 3.155(b) (2020).
Thus, absent special circumstances demonstrating
an inability of the caregiver to at least indicate an
intent to file a claim (which can trigger the claim filing
process),16 I believe it would be only the rare case
where a mentally disabled veteran with a caregiver
would be entitled to equitably toll § 5110(b)(1).
Second, 38 U.S.C. § 5110(b)(4) provides a one-year
period for a retroactive effective date for disability
pension (a form of compensation distinct from serviceconnected benefits).17 That subsection provides:
(A) The effective date of an award of disability pension to a veteran described in subparagraph (B) of this paragraph shall be the date
of application or the date on which the veteran became permanently and totally disabled,
if the veteran applies for a retroactive award
within one year from such date, whichever is
to the advantage of the veteran.
(B) A veteran referred to in subparagraph
(A) of this paragraph is a veteran who is
permanently and totally disabled and who is
16

For claims of equitable tolling prior to 2015, as is the case
here, the relevant inquiry would be whether there are special
circumstances demonstrating an inability of the caregiver to
submit an informal claim. See 38 C.F.R. § 3.155(a) (2014).
17

Disability pension is available for veterans who are “permanently and totally disabled from non-service-connected disability,”
38 U.S.C. § 1521(a), and pension is need-based, so veterans who
exceed a maximum annual income or net worth set by regulation
will not qualify. See id. § 1522; 38 C.F.R. §§ 3.274, 3.275 (2020);
see also H.R. Rep. No. 79-2425 (June 28, 1946); Act of July 9,
1946, Pub. L. No. 79-494, 60 Stat. 524.

95a
prevented by a disability from applying for
disability pension for a period of at least 30
days beginning on the date on which the
veteran became permanently and totally
disabled.
38 U.S.C. § 5110(b)(4) (emphasis added).
The predecessor to subsection (A) of § 5110(b)(4) was
adopted18 based on a proposal from the VA to address
“problems resulting from the veteran’s disability [that]
delays [the veteran’s] application for the benefit,”
whereby “the very condition upon which entitlement
may depend may also prevent prompt application for
the benefit.” H.R. Rep. 93-398, 1973 U.S.C.C.A.N.
2759, 2772 (July 25, 1973) (letter dated May 10, 1973,
from Donald E. Johnson, Administrator of Veterans
Affairs). The VA’s proposal “would alleviate this situation by affording the disabled veteran a year from
onset of disability to apply for pension and, if he is
otherwise eligible, authorize payment retroactively to
the date on which he became permanently and totally
disabled.” Id. “The 1-year period prescribed by the
proposal within which to apply for disability pension
[was] considered reasonable . . . .” Id.
This provision was further amended in 1984 in part
to add subsection (B), which specified that veterans
who qualify for the one-year lookback period for
disability pension are veterans “who [are] permanently and totally disabled and who [are] prevented
by a disability from applying for disability pension for
a period of at least 30 days beginning on the date on
which the veteran became permanently and totally
18

The predecessor to § 5110(b)(4)(A) was enacted in 1973 as
38 U.S.C. § 3010(b)(2). See Act of Dec. 6, 1973, Pub. L. 93-177,
sec. 6, 87 Stat. 694, 696.

96a
disabled.” Deficit Reduction Act of 1984, Pub. L. 98–
369, sec. 2501, 98 Stat. 494, 1116–17.19
While pension benefits are different from disability
benefits, this provision is instructive because it indicates Congressional willingness to delay veterans’
filing obligations where a disability makes meeting
them difficult or impossible, but not to do so indefinitely, or even for a substantial period of time.
Against this backdrop, I now turn to the particular
circumstances presented here.20 Mr. Arellano’s brother,
Pedro Arellano Lamar, has been Mr. Arellano’s “caregiver since [Mr. Arellano] returned home mentally
disabled in November 1981.” J.A. 554; see also id. at
565. Yet, the VA did not receive Mr. Arellano’s application until June 3, 2011. According to Mr. Arellano’s
counsel, Mr. Arellano’s brother, “acting as guardian ad
litem,” filed the application on Mr. Arellano’s behalf.
Oral Arg. 41:25–42:06, 43:27–44:10, http://oralargum
ents.cafc.uscourts.gov/default.aspx?fl=20-1073_02042
021.mp3. There is no allegation that Mr. Lamar was
somehow prevented from filing, or faced obstacles in
his attempt to file, Mr. Arellano’s request for benefits
sooner. Unlike in K. G., there is no claim that Mr.
Arellano was estranged from Mr. Lamar or refused to
19

The predecessor to § 5110(b)(4)(B) was enacted in 1984 as
38 U.S.C § 3010(b)(3)(B). Deficit Reduction Act of 1984, Pub. L.
98–369, sec. 2501(a)(1), 98 Stat. at 1116.
20

We have recognized that in determining the application of
equitable tolling, “[w]here the facts are undisputed, all that
remains is a legal question, even if that legal question requires
the application of the appropriate standard to the facts of a
particular case.” Former Employees of Sonoco Prod. Co. v. Chao,
372 F.3d 1291, 1294–95 (Fed. Cir. 2004) (collecting cases).
Because we assume the facts are as Mr. Arellano describes them,
we address the availability of tolling in the first instance.

97a
interact with him. See 951 F.3d at 1377. Indeed, Mr.
Arellano signed the application himself at Mr. Lamar’s
direction. There is nothing in the record that justifies
the inordinate thirty-year delay in filing the
application at issue.
Because Mr. Arellano had a caregiver who could
have filed (and indeed did later file) an application on
Mr. Arellano’s behalf, and no special circumstances
are alleged, equitable tolling on the ground of Mr.
Arellano’s mental disability is not warranted, especially for such an untimely filing. Equitable tolling for
mental disability is not available in this case.
CONCLUSION
I would hold that § 5110(b)(1) is a statute of limitations that is subject to the rebuttal presumption of
equitable tolling under Irwin. I would also hold that
the presumption has not been rebutted as to equitable
tolling, but that equitable tolling is not available to
Mr. Arellano’s specific circumstances. Thus, I concur
in the judgment.

98a
APPENDIX F
United States Court of Appeals
for the Federal Circuit
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908, Judge Michael P. Allen.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
JUDGMENT
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT
June 17, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

99a
APPENDIX G
United States Court of Appeals
for the Federal Circuit
————
2020-1073
Appeal from the United States
Court of Appeals for Veterans Claims in
No. 18-3908, Judge Michael P. Allen.
————
ADOLFO R. ARELLANO,
Claimant-Appellant
v.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent-Appellee
————
MANDATE
In accordance with the judgment of this Court,
entered June 17, 2021, and pursuant to Rule 41 of the
Federal Rules of Appellate Procedure, the formal
mandate is hereby issued.
FOR THE COURT
August 9, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

100a
APPENDIX H
U.S. Court of Appeals for Veterans Claim
Docket Sheet
Notice of Appeal (July 25, 2018)
Excerpts from Appellee’s Brief (May 30, 2019)
Excerpts from Decision (July 28, 2017)
Letter from R. Douyand, M.D. to Dept. of
Veterans Affairs (Jan. 31, 2012)
Appeal to BVA (January 2, 2017)
Notification Letter (December 23, 2015)
Notice of Disagreement (December 24, 2014)
Notification Letter (December 23, 2014)
Authorization to Disclose Personal Information
to a Third Party (Aug. 25, 2011)

101a
GENERAL DOCKET
United States Court of Appeals
for Veterans Claims
————
No. 18-3908
————
ADOLFO R. ARELLANO,
v.
ROBERT L. WILKIE
————
Docketed: July 25, 2018
————
Adolfo R. Arellano,
Appellant
James R. Barney, Esq., Attorney
Direct: 202-408-4412
[COR LD NTC]
Firm: 202-408-4412
Finnegan
901 New York Avenue, N.W.
Washington, DC 20001
Kelly S. Horn, Esq., Attorney
Direct: 202-408-4313
[COR NTC]
Firm: 202-408-4313
Finnegan, Henderson, Farabow,
Garrett & Dunner LLP
901 New York Avenue, N.W.
Washington, DC 20001
David T. Landers, Esq., Attorney
Direct: 202-408-4196
[CUR NTC]
Firm: 202-408-4196

102a
Finnegan, Henderson, & LLP
901 New York Ave., NW
Washington, DC 20001-4413
Ronald L. Smith, Esq., Attorney
Direct: 202-408-4195
[CUR NTC]
Firm: 202-408-4195
Finnegan
901 New York Ave., NW
Washington, DC 20001-4413
Thomas E. Sullivan, Esq., Attorney
Direct: 202-408-4113
[COR NTC]
Finn: 202-408-4113
Finnegan, Henderson, Farabow,
Garrett & Dunner LLP
901 New York Avenue, N.W.
Washington, DC 20001
v.
Robert L Wilkie, Secretary of Veterans Affairs,
Appellee
Robert Schneider, Esq., Attorney
[COR LD NTC]
Finn: 202-632-6988
Department of Veterans Affairs, OGC (027)
810 Vermont Ave., NW
Washington, DC 20420
OGC-ICM8, Non-Attorney
[COR NTC]
Department of Veterans Affairs, OGC (027)
810 Vermont Avenue, N.W.
Washington, DC 20420
————

103a
RELEVANT DOCKET ENTRIES
DATE

PROCEEDINGS

07/25/2018 

Notice of Appeal (JC)

07/25/2018 

Appearance of Thomas E. Sullivan,
Esq., as lead counsel (JC)

07/25/2018 

Fee Agreement (JC)

07/25/2018 

Declaration of Financial Hardship
(JC)

07/26/2018 

Notice of Docketing for BVA’s
decision w/in 30 days; RBA w/in 60
days (JC)

07/27/2018 

Appearance of Attorney(s) David T
Landers for party(s) Appellant
Adolfo R. Arellano, in case 18-3908
as co-counsel (DTL)

08/06/2018 

Appearance of Attorney(s) Ronald L
Smith for party(s) Appellant Adolfo
R. Arellano, in case 18-3908 as cocounsel (RLS)

08/16/2018 

BVA Decision transmittal (0)

08/16/2018 

Copy of BVA Decision (0)

09/06/2018 

Appearance of Attorney(s) Robert
Schneider for party(s) Appellee
Robert L. Wilkie, in case 18-3908 as
lead counsel (RS)

09/20/2018 

Record Before the Agency notice (0)

10/10/2018 

Notice to file Appellant’s Brief w/in
60 days (AMN)

104a
DATE

PROCEEDINGS

10/30/2018 

ORDERED that the Court will
initiate a telephonic briefing conference on November 27, 2018, at 1:30
PM (ET). It will be conducted by
Jennifer k Dowd, Esq., of the
Court’s Central Legal Staff (CLS),
and this conference may be rescheduled by the Court only upon a
showing of good cause. It is further
ORDERED that not later than 14
days prior to the scheduled conference, the appellant’s counsel or
representative shall submit to the
Secretary and the Central Legal
Staff (by e-mail or fax), a summary
of the issues that the appellant
intends to raise in the appeal before
the Court. to include citations to the
relevant authorities and the pertinent documents in the record.
(CLS). (AMN)

11/08/2018 

Appearance of Attorney(s) Kelly S
Horn for party(s) Appellant Adolfo
R. Arellano, in case 18-3908 as cocounsel (KSH)

11/16/2018 

Mot of Appellant to reschedule R33
Conference to 12/18/2018 (KSH)

105a
DATE

PROCEEDINGS

11/20/2018 

ORDERED that the motion is
granted. The Court’s order of October
30, 2018, is hereby amended as follows: Change briefing conference
date “November 27, 2018, at 1:30
PM (ET)” to read “December 18,
2018, at 10:30 AM (ET).” (AMN)

12/04/2018 

Rule 33 Certificate of Service (KSH)

12/06/2018 

Appearance of Attorney(s) James R
Barney for party(s) Appellant Adolfo
R. Arellano, in case 18-3908 as lead
counsel (SL)

12/18/2018

Conference held (JAD)

12/18/2018 

Mot of Appellant to extend time to
file appellant brief Requested date
03/04/2018.--[Edited 12/19/2018 by
AMN] (KSH)

12/19/2018

Clerk’s stamp ord granting appellant’s motion to extend time to file
appellant’s brief until 03/04/2019
(AMN)

03/04/2019 

Appellant’s Brief (KSH)

05/02/2019 

Mot of Appellee to extend time to
file appellee brief Requested date
06/17/2019. (RS)

05/02/2019

Clerk’s stamp ord granting appellee’s motion to extend time to file
appellee’s brief until 06/17/2019
(AMN)

05/30/2019 

Appellee’s Brief (RS)

106a
DATE

PROCEEDINGS

06/13/2019 

Appellant’s reply brief (KSH)

06/24/2019 

Record of Proceedings (RS)

07/10/2019

Assigned case to Judge Allen (MVL)

07/23/2019 

Memorandum Decision that the
BVA decision is affirmed (ALLEN)
(AMN)

08/14/2019 

Judgment (AMN)

10/07/2019 

Appellant’s Notice of Appeal to the
U.S. Court of Appeals for the
Federal Circuit (KSH)

10/21/2019 

Appellant’s Notice of Appeal transmitted to U.S. Court of Appeals for
the Federal Circuit (AMN)

[SEAL: UNITED STATES COURT
OF APPEALS FOR VETERANS CLAIMS]

107a
IN THE UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
————
VA File No. 264437740
————
ADOLFO R. ARELLANO,
Appellant,
v.
PETER O’ROURKE,
SECRETARY OF VETERANS AFFAIRS,
Appellee.
————
NOTICE OF APPEAL
Notice is hereby given that Appellant appeals to
the United States Court of Appeals for Veterans
Claims from the July 28, 2017, decision of the Board
of Veterans’ Appeals in docket number 17-02 159.1
Appellant’s address is 100 NE STREETPLACE.
Appellant’s telephone number is (000) 000-0000.
Respectfully submitted,
/s/ Thomas E. Sullivan
THOMAS E. SULLIVAN*
Finnegan, Henderson, Farabow,
Garrett & Dunner, LLP
901 New York Avenue, NW
Washington, DC 20001-4413
202.408.4113
thomas.e.sullivan@finnegan.com
1

A timely-filed Motion for Reconsideration was denied by the
Board of Veteran’s Appeals on April 10, 2018.
*

Admitted in California only; practicing under the supervision
of the partners of the Washington, DC office of Finnegan.

108a
IN THE UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
————
No. 18-3908
————
ADOLFO R. ARELLANO,
Appellant,
v.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
Appellee.
————
ON APPEAL FROM THE
BOARD OF VETERANS’ APPEALS
————
BRIEF OF THE APPELLEE
SECRETARY OF VETERANS AFFAIRS
————
JAMES M. BYRNE
General Counsel
MARY ANN FLYNN
Chief Counsel
SELKET N. COTTLE
Deputy Chief Counsel
ROBERT SCHNEIDER
Appellate Attorney
U.S. Department of Veterans Affairs
Office of the General Counsel (027i)
810 Vermont Avenue, N.W.
Washington, D.C. 20420
(202) 632-6988
Attorneys for the Appellee

109a
* * *
arguments must fail. As the Federal Circuit explained
in Andrews, 38 U.S.C. § 5110 does not contain a
statute of limitations; rather it illustrates when benefits may begin to accrue and provides for an earlier
effective date under specific limited circumstances.
Because 38 U.S.C. § 5110 does not include a statue of
limitations, equitable tolling is not applicable.
IV. ARGUMENTS
A. Standard of Review
The clearly erroneous standard of review applies
to situations in which the Court is applying facts to
established law to determine whether a claimant
is entitled to an earlier effective date. 38 U.S.C.
§ 7261(a)(4); see Ross v. Peake, 21 Vet.App. 528, 531
(2008). Under this deferential standard, the Court will
evaluate the Board’s findings of fact to determine
whether those findings are plausibly based in the
record. See Gilbert v. Derwinski, 1 Vet.App. 49, 52-53
(1990) (explaining how an appellate court reviews factual findings under the “clearly erroneous” standard
(quoting Anderson v. City of Bessemer City, 470 U.S.
564, 574 (1985)). When doing so, if there is evidence
both for and against a claim, but a review of the entire
record provides a plausible basis for the Board’s
decision that the preponderance of evidence is against
the appellant, and if the Board supports its rationale
with an adequate statement of reasons or bases, the
Court may not substitute its judgment of the facts for
that of the primary fact-finder. Overton v. Nicholson,
20 Vet.App. 427, 432 (2006) (citing Gilbert, 1 Vet.App.
at 52; Prejean v. West, 13 Vet.App. 444, 448-89 (2000)).
* * *

110a
DEPARTMENT OF VETERANS AFFAIRS
Board of Veterans’ Appeals
Washington DC 20038
[SEAL]
July 28. 2017
In Reply Refer To: (0141 A1 )
[FILLERTEXT]
ADOLFO R ARELLANO
[FILLERTEXT]
[CONTINUE].
Dear Appellant:
The Board of Veterans’ Appeals has made a decision
in this case, and a copy is enclosed. The records are
being returned to the Department of Veterans Affairs
office having jurisdiction over this matter.
The Board of Veterans Appeals has partnered with
J.D. Power and Associates to determine how our customers perceive the service we provide as an organization. You may be contacted by telephone from someone
at J.D. Power and Associates in the next 30-60 days
and asked to provide feedback on your experience
with the Board of Veterans Appeals by taking a brief
survey. We appreciate your willingness to help us
improve our processes and the service we provide for
Veterans by participating in this survey. Any comments provided to J.D. Power are 100% anonymous
and will not impact the delivery or timing of any future
benefits provided by VA.

111a
Thank you in advance for your willingness to
participate and share your feedback.
Sincerely yours,
/s/ Donnie R. Hachey
Donnie R. Hachey
Chief Counsel for Operations
Enclosures (1)
cc:

PEDRO ARELLANO
[FILLERTEXT]
[FILLERTEXT.]
————

112a
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
————
DOCKET NO. 17-02 159
————
IN THE APPEAL OF
ADOLFO R. ARELLANO
————
DATE July 28, 2017
————
On appeal from the
Department of Veterans Affairs Regional Office in St.
Petersburg, Florida
THE ISSUES
1. Entitlement to an effective date earlier than
June 3, 2011, for the grant of service connection for
schizoaffective disorder bipolar type with posttraumatic stress disorder (PTSD).
2. Entitlement to an effective date earlier than
January 31, 2012, for the grant of service connection
for tardive dyskinesia.
REPRESENTATION
Appellant represented by: Pedro Arellano Lamar
ATTORNEY FOR THE BOARD
D. Van Wambeke, Counsel
In the January 2017 VA Form 9, the Veteran’s
brother asserts that it was error for the RO to deny
the Veteran the service connection to which he was
entitled as of October 30, 1981, the day after he was

113a
discharged from active service, based on the psychosis,
delusions, schizoaffective disorders, paranoia and anxiety (including PTSD) that was documented by his
psychiatrists from November 1981 to the present and
submitted as part of his claim. The Veteran’s brother
cited to 38 C.F.R. § 3.309 and resubmitted several
opinions that were received in conjunction with the
original claim for service connection, which he asserts
supports a finding that the Veteran had been suffering
from a psychiatric disorder and tardive dyskinesia on
a continuing basis since 1981 and that his psychiatric
disorder left him completely disabled as of 1981. The
Veteran’s brother again asserts that error was committed when these medical opinions were ignored.
The effective date for an award of service connection
for claims received within one year after separation
from service shall be the day following separation from
service, or date entitlement arose; otherwise, the effective date shall be the date of receipt of claim, or
date entitlement arose, whichever is later. 38 U.S.C.A.
§ 5110; 38 C.F.R. § 3.400(b)(2).
Prior to March 24, 2015, the VA administrative
claims process recognized formal and informal claims.
A formal claim is one that has been filed in the form
prescribed by VA. See 38 U.S.C.A. § 5101(a) (West
2014); 38 C.F.R. § 3.151(a) (2014). An informal claim
was considered to be any communication or action
indicating an intent to apply for one or more benefits
under VA law. See Thomas v. Principi, 16 Vet. App.
197 (2002); see also 38 C.F.R. §§ 3.1(p), 3.155(a) (2014).
An informal claim needed to be written, see Rodriguez
v. West, 189 F. 3d. 1351 (Fed. Cir. 1999), and it had to
identify the benefit being sought. Brannon v. West, 12
Vet. App. 32, 34-5 (1998).

114a
Upon review of the record, the Board finds the RO
assigned the earliest possible effective date for its
grant of service connection for schizoaffective disorder
bipolar type with PTSD. Specifically, although the
supplemental claim for PTSD was not received until
June 13, 2011, and the supplemental claim for schizoaffective disorder was not received until October 9, 2012,
the RO clearly indicated that it had considered the
original claim for head injury received on June 3, 2011,
as part of the claim for a psychiatric or mental disorder. There is no indication from review of the claims
file, and neither the Veteran nor his representative
has alleged, that a claim was filed prior to receipt of
the June 3, 2011 VA Form 21-526. In fact, the Veteran’s representative, who is his brother, has candidly
acknowledged that it was not until after their father,
who was the Veteran’s principal source of support,
died in December 2010 that the Veteran, having no
income, was able to be convinced by his brother and
his psychiatrists to file the June 3, 2011 application.
See February 2015 letter to the VA Under Secretary
for Benefits.
The Veteran in essence contends that the effective
date for the grant of service connection for schizoaffective disorder bipolar type with PTSD should be based
on the date his psychiatric disability was incurred, in
other words, immediately after his discharge from
service, or, at the latest, as of January 1, 1982. However, the law governing effective dates is clear: the
effective date is the date of claim or date entitlement
arose, whichever is later. 38 C.F.R. § 3.400(b)(2)
(emphasis added).
Although it has been determined that the Veteran’s
schizoaffective disorder bipolar type with PTSD is
related to service, it does not follow that just because

115a
service connection is warranted, the effective date of a
grant of service connection should be during the time
frame in which the incident that formed the basis of
the grant occurred or the day following service, since
doing so would render meaningless many of the provisions of 38 U.S.C.A. § 5110 and 38 C.F.R. § 3.400.
Here, the Veteran’s original claim for benefits was
received approximately 30 years after his discharge
from service. Thus, under the law, there is no basis
to assign an effective date for service connection for
schizoaffective disorder bipolar type with PTSD earlier
than the date his original application was received.
In regards to the claim for an effective date earlier
than January 31, 2012 for the grant of service connection for tardive dyskinesia, the Board notes the claim
specifically seeking that benefit was received on
October 9, 2012. However, in a statement received on
August 29, 2011 requesting expedited processing of
the Veteran’s compensation claim, the Veteran’s representative mentioned parkinsonism. The Veteran
claimed his tardive dyskinesia as hand shaking. The
Board notes that the February 13, 2012 VA examination noted the Veteran had tardive and neuroleptic
induce parkinsonism. Resolving all doubt in the
Veteran’s favor, the Board finds that the August 29,
2011 statement constitutes an informal claim for the
tardive dyskinesia, and that the proper effective date
for that disability is August 29, 2011.
However, the Veteran in essence contends that the
effective date for the grant of service connection for
tardive dyskinesia should be based on the date his
disability was incurred, or, at the latest, as of January
1, 1982. In this case, the date of claim of August 29,
2011 is later than the date entitlement for service con-

116a
nection for tardive dyskinesia arose. Thus, an effective
date earlier than August 29, 2011 is not warranted.
Moreover, although the tardive dyskinesia was
granted as being secondary to the service-connected
psychiatric disorder, the effective date assigned for a
secondary condition does not automatically revert to
the effective date of service connection for the primary
condition. Rather, the effective date is based on the
date of claim or date entitlement to the secondary
disability arose. Ellington v. Nicholson, 22 Vet. App.
141 (2007); see also Ross v. Peake, 21 Vet. App. 528,
531 (2008); 38 C.F.R. § 3.400. In this case, the earliest
claim for tardive dyskinesia is August 29, 2011.
At this juncture, the Board will address several
assertions raised in support of the claims for earlier
effective dates. First, the assertion has been raised
that the Veteran’s mental illness prevented him from
filing a claim earlier than June 3, 2011. 38 U.S.C.A.
§ 5110 (4)(A) and 38 C.F.R. § 3.400 (b)(ii)(B) authorize
VA to assign an effective date earlier than the date of
claim when a disability is so incapacitating that it
prevents the claimant from filing the claim earlier.
However, both provisions apply only to claims for disability pension, rather than service-connected compensation. As disability pension and service-connected
compensation are distinct benefits, those regulations
do not apply in the instant case. Additionally, to the
extent the representative’s argument is one for equitable tolling, case law has established that with respect
to the question of equitable tolling for purposes of
establishing an award of retroactive benefits, there is
an “unequivocal command in 38 U.S.C. § 5110(a) that
the effective date of benefits cannot be earlier than the
filing of an application therefore.” Rodriguez v. West,
189 F.3d 1351 (Fed.Cir.1999), reh’g denied (en banc),

117a
cert. denied, 529 U.S. 1004, 120 (2000); see also Andrews
v. Principi, 16 Vet. App. 309, 312 (2002).
Second, the assertion has been raised that the RO
committed error in the December 2014 rating decision
that is the subject of this appeal because it did not
consider medical documentation from the Veteran’s
psychiatrists that the Veteran was 100 percent disabled on or before January 1, 1982, and did not consider
38 C.F.R. § 3.309, which provides that service connection for psychosis may be granted on a presumptive
basis if the disease is manifested to a compensable
degree within one year following service discharge. The
assertion that 38 C.F.R. § 3.309 was not considered
was accompanied by the contention that the Veteran
was entitled to service connection as of October 30,
1981, the day after he was discharged from active
service, based on the psychosis, delusions, schizoaffective disorders, paranoia and anxiety (including PTSD)
that was documented by his psychiatrists from
November 1981 to the present and submitted as part
of his claim.
However, as noted above, it the date of claim that
controls, not the date the medical evidence shows the
first indication of the disability. See Brannon v. West,
12 Vet. App. 32, 35 (1998) (“The mere presence of . . .
medical evidence does not establish an intent on the
part of the veteran to seek . . . service connection for
[a] condition.”). The RO did consider the medical
evidence attesting to the fact that the Veteran has
been disabled since 1981. However, meeting the
elements for service connection, whether it be under
38 C.F.R. § 3.303 or § 3.309, does not establish the
effective date for compensation purposes. As noted
above, the law governing effective dates is clear:
the effective date is the date of claim or date

118a
entitlement arose, whichever is later. 38 C.F.R.
§ 3.400(b)(2) (emphasis added).
Here, the Veteran has submitted evidence indicating his disability was present in 1981, contemporaneous with his service discharge. However, the Veteran
does not dispute that the original claim for service
connection was filed in June 2011 as to his psychiatric
disability. There has been no argument that a claim
for compensation was filed prior to June 2011. As a
claim for compensation benefits was not filed within
one year following the Veteran’s discharge from service, the effective date of the award of service connection can be no earlier than the date of receipt of the
claim; in this case, June 3, 2011 for the psychiatric
claim, and August 29, 2011 for tardive dyskinesia.
For the foregoing reasons, the claim for entitlement
to an effective date earlier than June 3, 2011 for the
grant of service connection for schizoaffective disorder
bipolar type with PTSD is denied. Additionally, an
effective date of August 29, 2011 for the grant of service connection for tardive dyskinesia is granted, but
an effective date prior to that date is denied.
ORDER
An effective date earlier than June 3, 2011 for the
grant of service connection for schizoaffective disorder
bipolar type with PTSD is denied.
An effective date of August 29, 2011, but no earlier,
for the grant of service connection for tardive dyskinesia is granted, subject to the rules and regulations governing the payment of VA monetary benefits.
/s/ K. A. Banfield
K. A. BANFIELD
Veterans Law Judge, Board of Veterans’ Appeals

119a
DEPARTMENT OF VETERANS AFFAIRS
Medical Center
1201 Northwest 16th Street
Miami FL 35125-1693
January 31, 2012
In Reply Refer To:
Department of Veterans Affairs
St. Petersburg Regional Office
PO Box 7000
Bay Pines, FL 33744
Re: Adolfo R. Arellano-[REDACT]
Service Connected Disability Application Supplement
to May 15, 2011 100% Disability Letter.
To Whom It May Concern:
I have known and treated the Navy Veteran Adolfo
R. Arellano ([REDACTED]) since on or before 2001,
both at the Inpatient facility of the Miami VA
Healthcare system, and at the Miami VA Outpatient
Behavioral Health Clinic.
In my medical opinion as Mr. Arellano’s psychiatrist
the cause of all of the psychiatric Medical Symptoms
which are part of his attached medical record,
including Prolonged Post Traumatic Stress Disorder
(309.81), Schizoaffective Disorder (295.70), Neuroleptic
Induced/Tardive Dyskinesia (333.82), disorders of
refraction and accommodations (ICD-0-CM 367.9),
Bipolar (296.7), and Anxiety State (300) symptoms, is
the trauma which he suffered on July 29, 1980, when
he was almost crushed and swept overboard while
working on the flight deck of the USS Midway aircraft
carrier, when the Cactus freighter collided with it in
the Persian Gulf during the Iranian Hostage Crisis,

120a
killing and injuring a number of his shipmates who
were working near him.
It is also my medical opinion that the psychiatric
symptoms resulting from this well documented trauma
rendered him 100% disabled since 1980, as outlined in
the attached May 17, 2011 disability letter.
Should you need additional information, please call
me at (000) 000-0000, extension 000, Fax (111) 111111, email email@email.com.
Sincerely,
/s/ Richard Douyon, MD
Richard Douyon, MD
Director of Hospital Programs, Mental Health
Services, Miami VA Healthcare System
Associate Professor of Clinical Psychiatry &
Behavioral Sciences,
University of Miami, Miller School of Medicine.

03102017 - VA Claims Intake Center, Janesville WI
BEST COPY

J

Form Approveil: .OMB No. 2900-0085
Explrallon Date: July 31, 2018
Res nclent Burden: -1 Hour

APPEAL TO BOARD OF VETERANS' APPEALS

rQ

.J f:.

~v

~~~~~~~~~~~~~~~--~--~~~~~--tq,.· "'
IMPORTANT: Read the attached instructions before you.fill out this fonn. VA also enrourages you to get assistance from your
q ::>
representative in filling out tflis form.
n \)I

e

i---------------------------------...-----------------.-----------------t~~
2. Cl.AIM FILE NO. (Include preftx)
1. NAME OF VETERAN (/,411 NOMc, Flr11 N-•· MU/JI• hrllia/)
3. INSURANCE Fll.E NO., OR LOAN NO.
<I

h

ARELLANO, Adolfo R.
4.1

THE:

0

0

VETERAN

---

0

VETERAN'S WlOOW/ER

0

VETERAN'S CHILD

VETERAN'S PARENT

0

~

t--~18l~x~_o_TH_ER_~~~·~<i!Y.~~==p=o=a~&=:-c~a~r~e=g=iv~e-r_s_i_n_c_e_1_9_s_1__TO-rn:;r'A'i'i:ru;;~m;:------------------------------------t -4 '1,!
5. TELEPHONE NUMBERS
B. WORK (Inchuk Artiz Code)

0

7.

T

S

:

---

_) ,....:J

(Nunlber cl Srn•t or Post Office Box, City, Stat• & ZIP Cod•)

A. HOME (brclude Area Code)

~ ._

U.

c .o. Adolfo R. Arellano
ERAN, MY NAME IS:

{Llut N11111e. Frm Nmne, M/'414 In/JUI/)

,r

ARELLANO LAMAR, Pedro

~~

J------- ~~
~

""s"'".'=TH
"'ES~E,...ARE
"""'"'
T,..,,,.,.,
HE !S.,,.
SU
...,.ES,,..,...,l..,.W"'~..,..,...,-=T""o'"'
AP
""PEAL""""'.,...,,T""o'=TH"'E"'""'"Bo
,...AA
=o:~
...(
-Be- S!""<
- ,,,-l'W
.......
d...,
/M-infomr.,..--atlo--no""'bout
__1..,.
his_bl.,.,Oct
....,.,1n_p
_arogrop
_--h_6:-of..,.llt.,..1o-nadl~od.,./l&Sl_nJCIJ__,011s.
__

A. -rvl I HAVE READ THE STATEMENT OF THE CASE ANO PHY SUPPLEMENTAL STATEME.NT OF lliE CASE I RECEIVED. I AM ONLY APPEAUNG THESE
IQ! ISSUES:
~~
.

Entitlement to an earlier effective date of

Janua~y

1, 1982 for service conhection of:

1.

Schizoaffective disorder , bipolar type, with ptsd is denied.

2.

Tardive Diskenesia is denied .

B

·

O

!

---:;;

~

• I! "'
5

i

e
~
"

t WANT TO APPEAL ALL OF THE ISSUES LISTED ON THE STATEMENT Of' THE CASE AND ANY SUPPLEMENTAL STATEMENT Of THE CASE
THATMYLOCALVAOFFICESENTTOME.

....,_

'W
~

<t <

9. HERE IS WHY I ililN.K THAT VA DECIDED MY CASE lNCORRECTl.Y: (lksure to rmd tAc IJ!li>mration about ttu. bloct In poragroplt 6 ofth atJad!rd bmntcttons.)

3.309, states that when a psychoses becomes manifest within one year of s ervice, such
disease s hall be presumed to have been i ncurred during the period of service.
Therefore, it was CUE for the St. Petersburg DRO in 20.14 and in 2016 to deny Veteran
the service connection to which he is entitled as of Oct ober 30, 1 981, t he day after he
was discharged from active service, based on the psicosis, delus ions , schizoaffective
disorders, paranoia and anxiety (including ptsd)

that was documented by his

psychiatrists from Nov. 1981 to the present, submitted as part of his claim, and
attached herein in Exhibit A.

The prejudice t o Veteran included increased anxiety

which caused him 3 a trial fibri llations during the past year and a TIA (near stroke},
as documented in the accompanying_motion for advancing the docket on ·this appeal.
10. OPTIO~L BOARD HEARING

IMPORT.ANT: Read the lnfonnation obo11t this block (If paragraph 6 of the artaclted i11structlb/!S. Tltis block is u.sed to request an optional Board ofVeterans'
Appeals (Board) ltearu1g. DO NOT USE THIS FORM TO REQUEST A H,EAJUNG BEFORE VA REGIONAL OFFICE PERSONNEL.
Check one (and only one) ofthe following boxe$:
A.

J8I

I 00-N_OT WANT AN OPTIONAL·BOARD"HEARING. (Choosing thu option of/tn rts11/u In the Board issuing Its deculon most q11f<ldy. (/you cltooss, you may writ•
down wltal you
soy at a htarlng and submil it direaly to tire &ardJ

"""'Id

I WANT AN OPTIONAL BOARD HEARJNG:

0
0
D. 0
B.

c.

BYLNE VlDEOCONFERENCEATALOCAL VA OFFICE. (ClrooWortltboprlDll wlfl adddelaytoiss"1Jnc<ofoBoordtl«llfMJ
IN WASHINGTON, DC. (Choosing thil option .,ilJ add~ to isivance ofa Boord dedsfon.)

VA FORM
JUL 2015

9

Reco1·d Befo1·e the Agency

Appx553

1.2 .201 7

Page 54

-

121a

1.2 . 2017

~

122a

[This page intentionally left blank.]

123a
Exhibit A- to Appeal- Form 9- dated 1.3.2017Arellano, Adolfo R.-REDACTED - US Navy Veteran
REPRESENTATIONVeteran Appellant is represented by Pedro Arellano
Lamar, veteran’s poa, brother, health care surrogate
and caregiver since Veteran returned home mentally
disabled in November 1981.
INTRODUCTION
The Veteran served on Active Duty from November
1, 1977 to October 29,19S1. Service Medical Records
reflect no complaints or diagnoses of a psychiatric
disorder upon the veteran’s entrance into the military.
On July 29, 1980, while servicing fighters on the
deck of the USS Midway, Veteran was almost killed
and swept overboard when a freighter rammed the
USS Midway and killed and injured a number of his
shipmates. Photos and Descriptions of the Accident,
attached as Exhibit 1 have been presented with
Veteran’s claim.
Veteran’s claim was originally submitted on June
3, 2011, and classified as a hardship claim, entitled to
expedited processing. As of this writing. Veteran’s
claim is now 5 1/2 years old.
This appeal comes before the Board of Veterans
Appeals (Board) from a. December 24, 2014 Decision
of the St. Petersburg RO (RO) which granted Veteran
Service Connection with an effective date of:


June 3. 2011 for Schizoaffective Disorder
bipolar type, with post traumatic stress
disorder, with 100 % disability, and of



January 31, 2012 for tardive diskenesia,
with zero disability.

124a
THE ISSUE BEING APPEALED
Is Veteran’s entitlement as a matter of law and of
fact to an earlier effective date of January 1,1982 for
Veteran’s Direct Service Connection - for 100 % disability benefits for following Chronic Conditions and
Disabilities affecting Veteran:
1. Schizoaffective Disorder, Bipolar type, with Ptsd
(involving Anxiety, Psychoses and Delusions)- caused,
according to Veteran’s psychiatrists from 1981 to the
present, by mental trauma suffered by Veteran while
serving aboard the USS Midway aircraft carrier (the
USS Midway).
2. Tardive Diskenesia (the shakes) caused, according to Veteran’s psychiatrists from 1981 to the present, by the medications used to treat the symptoms of
Veteran’s Schizoaffective Disorder, Bipolar type, with
Ptsd (involving Anxiety, Psychoses and Delusions)caused by his service aboard the USS Midway.
VETERAN’S. SEPARATE MOTION FOR ADVANCEMENT OF APPEALS DOCKET ON THIS CLAIM
DUE TO EXTRAORDINARY FINANCIAL HARDSHIP AND ILLNESS.
Is attached as Exhibit B.
THE LAW -AND THE FACTS- ENTITLING VETERAN TO A JANUARY 1, 1982 EFFECTIVE DATE
FOR SERVICE CONNECTION.
Service Connection may be granted for disability
resulting from disease or injury incurred in or aggravated by service. 38 U.S.C.A. 1131 (West 2002); 38
C.F.R. 3.303, 3.304.
Attached herein as Exhibit 2 are copies of the
psychiatric opinion of Dr. Angel Diaz, previously

125a
submitted as apart of Veteran’s claim, that Veterans
1981-1990 delusions, paranoia, anxiety (including
ptsd) and tardive diskenesia left him completely disabled and were the result of his service aboard the USS
Midway.
Attached herein as Exhibit 3 are copies of the psychiatric opinion of Dr. Richard Douyon of the Miami,
VA, previously submitted as apart of Veteran’s claim,
that Veterans 1981-2012 delusions, paranoia, thought
disorder, anxiety, ptsd, and tardive diskenesia left him
completely disabled and were the result of his service
aboard the USS Midway.
Attached herein as Exhibit 4 are copies of the
psychiatric opinion of Dr. Nita Kumar of the Miami,
VA, previously submitted as apart of Veteran’s claim,
that Veterans 100 % 1981-present delusions, paranoia, thought disorder, anxiety, ptsd, and tardive
diskenesia left him completely disabled and were the
result of his service aboard the USS Midway.
Veteran’s brother and caregiver has also attested
that from the time Veteran returned home in 1981,
Veteran was completely disabled with delusions, paranoia, and anxiety.
3.309- Where a veteran served 90 days or more . . .
during peacetime service after December 31, 1946, and
a psychosis becomes manifests within one year from
the date of termination of service, such disease shall
be presumed to have been incurred in service,, even
though there is no evidence of such disease during the
period of service.
3.384 —”The term “psychosis” means any of the
following disorders listed in the American Psychiatric
Association’s Diagnostic and Statistical Manual of
Mental Disorders, Fifth Edition (DSM-5):

(b)

126a
Delusional Disorder.

(e)

Schizoaffective Disorder.

3.307- (1) Service- the veteran must have
served 90 days or more . . . after December 31,
1946 . . .
3.303 (d) The fact that the diagnosis occurred
after discharge from service does not preclude
service connection.
The Psychiatric Opinion of Dr. Angel Diaz (Exhibit
2- previously submitted as part of the Veteran’s claim)
establishes that Veteran was disabled with psychosis,
including delusional disorder, paranoia and schizoaffective disorder, from the time Veteran arrived home
in November 1981 after his discharge from the Navy
on October 29, 1981- until 1990, when Veteran stopped
treatment with Dr. Diaz.
Veteran brother’s and caregiver has also attested
that since returning home from the Navy (in
November 1981) Veteran was exhibiting disabling
symptoms of delusions, paranoia and anxiety, which
continue to the present date.
According to the Psychiatric Opinions of Dr. Diaz,
Dr. Douyon, and Dr. Kumar, attached as Exhibits 2,
3, and 4, and according to Veteran’s brother’s lay
opinions (all of which were previously submitted as
part of Veteran’s claims) Veteran has been chronically
ill with psychoaffective disorder, bipolar type, with
ptsd, and related anxiety, delusions and psycosis’s,
since Veteran came home from the Navy in November
1981 to the present.
3.4 (b) Disability benefits 2) Disability compensation- i) Direct service connection. Day following
separation from active service.

127a
According to 3.4.b.i, due to his psychoses and mental
disabilities which were manifested and diagnosed by
Dr. Angel Diaz within several weeks from his October
29, 1981 discharge from active service, pursuant to
3.309, Veteran is entitled to direct service connection
with an effective date of October 30, 1982, the day
after separation from active military service.
Accordingly Veteran qualifies for direct service connection with an effective date of on or before January
1, 1982, as requested by Veteran in this appeal.
Given that Veteran’s disabling chronic psychoses
manifested and was diagnosed and treated by Dr.
Diaz within a month of Veteran’s discharge, and given
that Veteran is entitled to direct service connection
pursuant to 3.309, is Veteran required to have filed a
disability claim within a year of discharge, in order to
be entitled to direct service connection from October
30, 1981, the day after discharge?
NO. Even assuming arguendo that Veteran was
required as a matter of claims regulations to file a
disability claim within a year of discharge, such
requirements would be equitably tolled as a result of
Veteran’s extraordinary circumstances, including Veteran’s psychoses, repression of the July 29, 1980 accident aboard the Midway, and Veteran’s inability to
understand that he was mentally disabled and entitled to apply for and procure 100 % disability benefits.
Is there documentation in the Veteran’s claim’s
record establishing extraordinary circumstances that
prevented Veteran from filing a disability claim prior
to June 3, 2011 ?
YES.

128a
1. The medical opinion of Veteran’s Psychiatrist
from 1981 to 1990-Dr. Diaz- in Ex. 2.
“As of 1990 when Veteran stopped coming for treatment, Veteran was still suffering from the same
anxiety, delusions, paranoia that I had been treating
him for since 1981. He was so sick that he believed
that nothing was wrong with him and therefore he did
not need to continue taking antipsychotics or anxiolitics; or to seek medical help from the Veteran’s
Administration; or to apply for service connected disability benefits.
2. The medical opinion of Veteran’s Psychiatrist
from 1991 to 2012- Dr. Douyon- in Ex. 3,
“From 1991 to 2012, the physicians who treated
Veteran at the Miami VA Mental Health Facility on
both an inpatient and outpatient basis, including
myself, were not aware until late 2011 that Veteran
had almost been killed and swept of the deck of the
USS Midway on July 29, 1989 [typo 1980]. Once
Veteran disclosed this repressed memory, he was
immediately diagnosed with ptsd.
“In my medical opinion, since 1980 the mental
trauma experienced while serving aboard the USS
Midway, Veteran’s resulting anxiety, paranoia, delusions and thought disorder has prevented Veteran
from understanding that he is suffering from a grave
mental illness that has rendered him 100 % disabled;
and also prevented him from understanding his right
and need to apply and procure the service connected
disability benefits that he earned as a result of his
military service.”

129a
3. The medical opinion of Veteran’s Psychiatrist
from 2012 to the present, Dr. Kumar-in Ex. 4.
“As you can see from my September 13, 2012 Progress Notes on Veteran (Tab 9), patient is still voicing
delusions about the accident that killed and injured
a number of his shipmantes, and did cause him
irreparable harm” . . . In my independent medical
opinion . . . Veteran suffered a psychotic break that
rendered him disabled with anxiety, delusions and
paranoia as the result of:
a). the constant psychological pressure of being
“hunted and/or observed” by the Russian submarines,
airplanes and other vessels that were tracking, the
USS Midway during the Iranian Crisis; and,
b) the psychological trauma of the July 29, 1980
accident that almost killed veteran and swept him
overboard, and did kill and injure a number of his
shipmates.
4. The lay opinion of Pedro Arellano Lamar.
Veteran’s brother and caregiver from 1981 to
the PresentFrom his return from the Navy on or about November
1981, to the present, Veteran could not understand
that he was mentally disabled, and did not and could
not tell us (because he had repressed this memory
until 2011), that he had suffered a mental trauma in
the service that entitled him to he a claim for direct
service connection and 100 % disability benefits.
According to the VA’s analysis of Presumptions of
Service Connection: When the party invoking a presumption (in this case, the Veteran) establishes the
basic fact(s) giving rise to the presumption (in this
case, the effective date of Veteran’s disabling

130a
psychoses) the burden of proof shifts to the other party
to prove non existence of the presumed fact. 38
U.S.C.A., 1101, 1112, 113 (West 2002 & Supp. 2005);
38 C.F.R. 3.307, 3.309 (2005).
The St. Petersburg RO did not (and could not) raise
any arguments to prove the non existence of Veteran’s
psychoses ( including delusions, paranoia, anxiety and
ptsd from the time that Dr. Diaz diagnosed these
disabling symptoms in 1981, attached as Exhibit 1).
Furthermore, Veteran has been suffering these
disabling psychoses and tardive diskenesia on a
continuing basis since 1981, as established by the
Psychiatric Opinions of Dr. Diaz, Dr. Douyon, and Dr.
Kumar, attached as Exhibits 2, 3 and 4, previously
submitted to the VA; and as established by the
opinions of Veteran’s brother and caregiver which are
part of Veteran’s claim’s file.
Because the VA has not met its legal burden to prove
the non existence of the presumption that Veteran was
completely disabled with the psychoses and delusions
well within a year of being discharged from the service
on October 29, 1981, Veteran is entitled to an earlier
effective date of October 30, 1981 for these disability
benefits (Or January 1, 1982- as requested by
Veteran)- 38 U.S.C.A., 1101, 1112, 113 (Best 2002 &
Supp. 2005); 38 C.F.R. 3.307, 3.309 (2005).
3.102- Reasonable doubt doctrine . . . Requires
doubts be resolved in favor of the claimant, even in the
absence of official records. See also 38 USC Section
5107-benefit of the doubt-”The benevolent intent
behind the veteran’s system” supported the conclusion
that “a showing of clear and convincing evidence to the
contrary is [required] to rebut the presumption of
service connection afforded a veteran under U.S.0 105.

131a
Instead, in its November 15, 2016 Decision and
SOC the DRO ignored the opinions of the 3 psychiatrists and the Veteran’s caregiver submitted as part of
the claims and summarized herein, and without presenting any evidence, much less the required clear and
convincing evidence to rebut the presumption of evidence of service connection, it rendered the following
decisions based on the RO’s erroneous opinion :
1. Your claims folder does not support a claim [for
service connection of schizoaffective disorder bipolar
type, with post traumatic stress disorder prior to this
date [June 3, 2011]. The mere fact that you were being
treated for a mental disorder within your VA treatment report does not support a claim.
2. Your claims folder does not support a claim [for
service connection of tardive diskenesia prior to this
date [January 31,2012]. The mere fact that you were
being treated for this condition within your VA treatment reports does not support a claim.
This constitutes Clear and Unmistakeable Error
(CUE) by the RO, which has prejudiced the Veteran,,
and requires advancement of his appeal docket, as
requested in Exhibit B, attached herein.
SUMMARY OF PSYCHIATRIC OPINIONS
DOCUMENTED TO THE VA
By Dr. Angel Diaz, Board Certified Psychiatrist
(See attached Exhibit 2).
From 1981 to 1990 Dr. Angel Diaz treated Veteran
with antipsychotics and anxiolitics, to help alleviate
Veteran’s symptoms of :
(a) anxiety disorder, a general diagnosis that
includes anxiety produced by post traumatic stress.

132a
(b) Delusions, including of being hunted by
Russians and being swept of the deck of
the aircraft carrier.
(c) Tardive diskenisia, resulting from the
antipsychotics.
Documentation presented to the VA includes
attached Dr. Diaz letters of 10.21.2013, 11.25.2013., in
which Dr. Diaz states that in his medical opinion“Veteran’s PTSD, Schizoaffective disorder,
and the Tardive diskenesia resulting from the
medications required to treat Veteran’s symptoms, were caused by the mental trauma he
suffered when he was almost swept off the
deck us the USS Midway aircraft carrier and
almost killed on July 29 1980”.
and his 12.52015 medical opinion in which Dr. Diaz
states“In 1990, when Veteran stopped coming for
treatment, Veteran was still suffering from
the same anxiety, delusions, paranoia that I
had been treating him for since 1981. He was
so sick that he believed that nothing was
wrong with him, and therefore he did not
need to continue antipsychotics of anxiolitics;
or to seek medical help from the Veteran’s
Administration; or to apply for service
connected disability benefits.”
By Dr. Richard Douyon, Director of
Hospital Programs see attached Ex. 3.
Mental Health Services,
Miami VA Healthcare System,
Associate Professor of Clinical PsychiatryUniversity of Miami.

133a
From on or before 2001 to 2012, Dr. Douyon treated
Veteran with antipsychotics and anxiolitics, to help
alleviate Veteran’s symptoms of :
a) anxiety disorder, a general diagnosis that
includes anxiety produced by post traumatic stress.
b) Delusions, including of being hunted by
Russians and being swept of the deck of
the aircraft carrier.
c) Tardive diskenisia, resulting from the
antipsychotics.
Documentation presented to the VA includes attached
Dr. Douyon 100% disability determination letter of
5.17.11, and his 1.31.2012 opinion stating “In my medical opinion as Mr. Arellano’s
psychiatrist the cause of all the psychiatric
symptoms that are part of his attached
medical record, including Prolonged Post
Traumatic Stress Disorder (309.81), Schizoaffective Disorder (295.70), Neuroleptic Induced/
Tardive Diskinesia (333.82), disorders of
refraction and accommodations (ICD-O-CM
367.9), Bipolar (296.7) and Anxiety State
(300) Symptoms, is the trauma which he
suffered on July 29, 1980, when he was
almost crushed and swept overboard while
working on the flight deck of the USS Midway
aircraft carrier, when the Cactus freighter
collided with it in the Persian Gulf during the
Iranian Hostage Crisis, killing and injuring a
number of his shipmates that were working
near him.

134a
It is also my medical opinion that the psychiatric symptoms resulting from this well
documented trauma rendered him 100 %
disabled since 1980, as outlined in the
attached May 17, 2011 disability letter”.
Other documention presented to the VA is Dr.
Douyon’s Nexus statements of 4.4.2012 and of
11.22.2013, in which Dr. Douyon reaffirms that“Veteran’s anxiety, delusions, psychoses, and
tardive diskenesia were caused by his accident on July 29. 1980 while serving aboard
the USS Midway.”
Additional documentation presented to the VA is Dr.
Douyon’s 12.23.2014 letter to the Board of Veteran
Appeals in which in addition to confirming once again
that Veteran is suffering from anxiety, ptsd, and tardive diskenesia, Dr. Douyon states:
“My medical diagnosis and opinion carries the
considerable probative value of over 15 years
of hearing veteran’s delusions of being swept
of the deck of the aircraft carrier, and of his
anxiety and paranoia of being persecuted by
the Russians . . . .
In my medical opinion, Veteran suffered a
psychotic break that rendered him disabled
with anxiety, delusions and paranoia as the
result of (a) the constant psychological pressure of being “hunted and/or observed” by the
Russian submarines, airplanes, and other
vessels that were tracking the USS Midway
during the Iranian crises, combined with (b)
the psychological trauma of the July 29, 1980
accident that almost killed veteran and swept
him overboard . . .”

135a
By Dr. Nita Kumar, Attending
Psychiatrist
Mental Health Services, Miami
VA Healthcare System.
Dr. Kumar’s Medical Opinion of 11.22.2013 states:
“I have been treating Veteran as his attending physician . . . since early 2012 . . . As
you can see from my September 13, 2013 Progress Notes on Veteran (Tab 9), patient is
still voicing delusions about the accident that
killed and injured a number of his shipmates,
and did cause him irreparable mental trauma.
I concur with all of the opinions submitted
by Dr. Douyon in the attached Nexus statement, including his opinion that Veteran’s
PTSD, Schizoaffective disorder and the tardive diskenesia . . . were caused by the mental
trauma suffered by Veteran when he was
almost killed and swept of the deck of the USS
Midway aircraft carrier on July 29, 1980.”
Dr. Kumar’s Medical Opinion of December 3, 2014 to
the Board of Veteran’s Appeals, includes the following
statement:
“Veteran suffered a psychotic break that rendered him disabled with anxiety, delusions
and Paranoia as the result of
a) the constant psychological pressure of
being “hunted and/or observed” by the
Russian submarines, airplanes and other
vessels that were tracking the USS Midway
during the Iranian Crisis; and

136a
b) the psychological trauma of the July 29,
1980 accident that almost killed veteran
and swept him overboard, and did kill and
injure a number of his shipmates.”
TESTIMONY OF VETERAN’S CAREGIVER
SINCE 1981
Pedro R. Arellano Jr. aka Pedro Arellano Lamar
On. April 28, 2012, Veteran’s caregiver and poa
provided the VA with the following testimony:
“Veteran has been having terrifying memories and dreams of “falling of the flight deck
of the USS Midway aircraft carrier, surviving, and being captured by the Russians”
since on or about late 1980. As a result of the
stress caused by these terrifying memories
and dreams Veteran has been treated with
antipsychotic medications by VA doctors
since the early 1980’s, on both an outpatient
and inpatient basis. The antipsychotic medications gave veteran “the shakes”, and the
shakes made it difficult for Veteran to procure and maintain work.”
On January 8, 2014, Veteran’s caregiver and poa
provided the VA a list of facts and medical opinions
and documentation entitling Veteran to service connection from 1981, including following answer to
whether Veteran exhibited symptoms of psychosis
well within 1 year of being released from active service
on the USS Midway. (i.e. from 1.1.1981).

137a
YES. Pedro Arellano Lamar attests that since
arriving at his parents home a couple of
weeks after being released from active duty
aboard the USS Midway, on October 29, 1981,
Veteran stayed in his room, would not converse with his parents or his brother, was
anxious, could not sleep, was hypervigilant,
paranoid and would seldom go out of the
house, much less date, play sports or relax. To
the point that his father got him an appointment with a psychiatrist, Dr. Angel Diaz.
Pedro Arellano Lamar testimony in Veteran’s claim
files includes the following:
Since on or before January 1, 1982, well
within 1 year of separation from the service,
Veteran exhibited disabling delusions, anxiety and paranoia which required him to be
treated with antipsychotics, which gave him
violent shakes (tardive diskenesia). Veteran
returned home from the service disabled as a
result of his psychotic symptoms, and could
not understand then, or now, that he was
suffering from a serious and disabling mental
illness that entitled him to 100 % disability
benefits from the VA.
From 1990 to on or about 1994 when Veteran
was admitted to the VA for treatment, Veteran continued to be treated with antipsychotics on an outpatient basis by Dr. Gaston
Magrinat, a psychiatrist at the UM who was
also a psychiatrist at the Miami VA. Dr.
Magrinat was unable to testify. He passed
away soon thereafter. His records were
destroyed.

138a
From 1994 to on or about 2000, a number of
psychiatrists at the Miami VA have treated
Veteran with antipsychotics and anxiolitics,
including Dr. Ambrose. When Dr. Ambrose
retired from the VA, Dr. Douyon became his
attending physician. Dr. Ambrose is unable to
testify. He passed away.
From January 1, 1982 to the present Veteran
suffered delusions, anxiety, and paranoia,
had great difficulty procuring and keeping
work, interacting with his family and others,
and required repeated involuntarily admissions to the VA for treatment with antipsychotics and anxiolitics.
Having known Veteran all of his life, Pedro
Arellano Lamar believes Veteran suffered
irreparable mental trauma while serving
aboard the USS Midway that rendered him
100% disabled by the time he came back home
on or about November 1981 and his father
and I took Veteran to Dr. Angel Diaz, to
diagnose and treat the disabling symptoms he
was manifesting. It is my opinion that from
1981 to the present, Veteran has been so
disabled with all of the psychoses and mental
disabilities attested to by his psychiatrists,
that he could not understand then or now that
he was seriously disabled and entitled to file
a claim for service connected disability
benefits.
I pray the VBA advances the docket on
Veteran’s appeal, as requested in attached
Exhibit B, and approves without further
delays the direct service connected disability

139a
benefits to which Veteran has been entitled
since October 30, 1981.
Respectfully Submitted on
January 3, 2011 by
/s/Pedro Arellano Lamar
Pedro Arellano Lamar
POA and Caregiver for VeteranAdolfo R. Arellano- since 1981.

140a
Department of
Veterans Affairs
PO BOX 1437
ST PETERSBURG FL 33731

December 23, 2015
Veteran’s Name:
Arellano, Adolfo, R

ADOLFO R ARELLANO
[REDACTED]
{REDACT] [ED]
This letter is a summary of benefits you currently
receive from the Department of Veterans Affairs (VA).
We are providing this letter to disabled Veterans to
use in applying for benefits such as housing entitlements, free or reduced state park annual memberships, state or local property or vehicle tax relief, civil
service preference, or any other program or entitlement in which verification of VA benefits is required.
Please safeguard this important document. This letter
replaces VA Form 20-5455, and is considered an
official record of your VA entitlement.
—America is Grateful to You for Your Service—
Our records contain the following information:
Personal Claim Information:
Your VA claim number is: [REDACTED]
You are the Veteran
Military Information:
Your character(s) of discharge and service date(s)
include:
Navy, Honorable, 01-Nov-1977 - 29-Oct-1981
(You may have additional periods of service not listed
above)

141a
VA Benefits Information:
Service-connected disability: Yes
Your combined service-connected evaluation is: 100
PERCENT
The effective date of the last change to your current
award was: 01-DEC-2014
Your current monthly award amount is: $2,906.83
Are you considered to be totally and permanently
disabled due to your service-connected disabilities: Yes
You should contact your state or local office of
Veterans’ affairs for information on any tax, license, or
fee-related benefits for which you may be eligible.
State offices of Veterans’ affairs are available at
http://www.va.gov/statedva.htm.
Need Additional Information or Verification?
If you have any questions about this letter or need
additional verification of VA benefits, please call us at
1-800-827-1000. If you use a Telecommunications
Device for the Deaf (TDD), the federal relay number is
711. Send electronic inquiries through the Internet at
https://iris.va.gov.
Sincerely yours,
Regional Office Director

142a

[This page intentionally left blank.]

PA-

0 l.FC

Aa_s; U-Af\Jo

6.

;j.

!

8.

JI.\ ~U..I\"-<-

4 C. LA;iT NAME

12. EMO.IL ADDRESS

-

. \1 0. 7. C ITY

l"..

<IB . MIDDLE NA,J11E-

3 , VETERANS S

9 . Z IP CODE

-. A TE

(VA DATE STAMP)

{DO NOT W R ITE IN THIS S PA C E}

PART 1- PERSONAL INFORMA TION
1B. MIDDLE NA~IE
1C. LAST NAME

R·

0.\18 .~ pp<o,~d !\o, 2900-0791
R.t:!pemkr.\ Sw:d<:n: ~)nlinutcs

NOTICE OF DISAGREEMENT

p.1

0

VES

Phor e n twnber I can t>e readled

~t the

~me :

\ 1.,. ~4.. 7.0 \~

~O o.m. - 2:00 o.m.

0

2:00 p.m. - 4:30 p.m.

VA FORM
FEB 2013

Oe c:....,~'1L-f1'. no..,., t=:'M> ~

lO <.SA ei u::l)
~ Sett 1U> ~Ffi:il:.nu.l

21 ·0 9 5 8

0

D

0
0

D
0
0

Othe r (!'lease specify)

Evalu ation of O'sability

Effeclive Date of Award

Service Connection

Otl'ler (J'/caJf s~cifYJ

~V<Jluation of D c~bitity

Effective Dale of Award

Service CQ1nection

Other (Plum specify/

Eva luation of OiS<lbility

~ctive D ate of Aw ard

D
0
0

Service Connection

B. Area of Diaagrccm<>nl

D

~-------

Appx953

Recor d Before the Agency

'D ~oU ~ ( PAM"-<>L") ~ !LO

U.-lnt

~II; S cf2> ~ l O o °}0

k P ~ t-\E:(hc:. A t- E >C A""4-i f.4l'S
G S.T"Allu&H'CS T"'~l\"t V~~~

"°

Tit e

A. Spec;;.if i c Is s ue o f Oi3 a greefl'l0nt

Page 454

fra-1/3

(Cominued on 1rex1 page)

C. Pe rGe n tag o (%) Ev8 l11at ion Sought (lf lm>@wn)

EVALUATION OF A DISABILI TY, SPECIFY PERCENTAGE EVAL UATION SOUGHT, IF KNOWN , PLEASE LIST ONLY ONE DISAB ILITY
IN EACH BOX. YOU MAY ATTACH ADDITIONAi.. SHEETS IF NECESSARY.

15. PLEASE LIST EACH SPECIFIC ISSUE OF DISAGREEMENT A ND NOTE TtiE A REA OF DISAGREEMENT. IF YOU DISAGREE ON T tfE

above cr ecked

l}?"fO:ooa.m. -12:30 p.m.

li'fltt ;xrt(J(fyou select belcn11. Please sel ect up to Jll:O fimf! p!n"ods you are avaiiahla 10 receln: a plxJrH! ca{I)

NO (lf,ro• altSM'•red 'Tn." VA will make up 10 lll'O a11en1pts 10 (Q{/ )'011 b•Meen 8:0() a.m. a11d 4: JO p.m. local rime {I/ ''"telephone nwn ber llnd

8:00 a.m. - 10:00 a.m.

0

1<1. NOTIFICATION/DECISION LETTER DATE

0

PART 11 - TEL EP HONE CO NTACT
13. WOU LD YOU LIKE TO RECE:IVE A TELEPHONE CALL OR El\AAJL FROVI A REPRESENTA TIVE A T YOUR LOCAL REGIONJ>L OF "ICE
REGAROlNG YOUR NOD?

A O o &.Sc

41\. Ct.AIMA "T'S FIRST l'IAM E

j:\_ 0

1A. VETERAN S FIRST NAM E

TO FllE A VALID NOD, 11-E'lE IS A Tl'AE LIMIT OF ONE YEAR FRO'.! Ti-'E
DATE VA MAILED THE NOTIF'CATIO'lf OF THE DECISION TO THE CLA!MA\IT.
"OR CO\ITESTED CLAIMS INCLUDING CLAlllS OF APPORTIQM.,tENT. '"t.llS
TIME LIMIT IS $l DAYS FRCM THE DATE VA MAILED TuE \IOTl"ICATION OF
THE DECISION TO THE CLAIMANT.

JURISDICTION. A DESIRE TO CONTEST THE RESULT WILL CONSTITlr.E A
\IOTICE OF D SAG'lEEll/ENT [NCO.I WHILE SPECIAL WORDING IS \IOT
REQUIRED. T'i= NOD MJST BE f·J l=fiMS WYICH CAN BE REASON!' BLY
CO'lST'<UED AS DiSAGREEWENT WIT'-' r!AT DETERMINATION ANO A
D!:Sl'lE "OR A? PELLATE REVIEW, (AUTHORITY: 38 U.S.C. 7105)

Fll.E ~OTICE EX0 RE~Sltl<> TI1EIR OISSAT!:;l'AC'TION OR Ol:SAGREell'I E~T
V\1-l-' AN ADJUDICATIVE oe-ERMINATION BY THE JIGENCY OF ORIGINAL

A CLAIMA'lr OR 1-'I S OR HE'l DULY A0 POINTED REPRESENTATIVE \IAY

Department of Veterans Affairs

Feb 24 15 04:49a

VA Claims Intake Center, Newnan, GA- 01 02242015

143a

144a

145a

146a

[This page intentionally left blank]

147a
February 24, 2015
Department of Veterans Affairs
Evidence Intake Center
PO Box 44445
Newman, GA 30217-0020
Re:

317/VSC/APPLS/MRH- CSS [REDACTED]
ARELLANO, Adolfo R.- NOTICE OF DISAGREEMENT-on that part of December 24, 2014
Decision Limiting Effective Date of benefits to
June 3, 2011 date of application, instead of 1981
date of disability.

Dear Board of Veteran Appeals (BVA),
In deciding on a June 3, 2011 effective date, the
rating department appears to have overlooked, or
ignored that part of the medical opinions of Dr. Diaz
and Dr. Douyon, and Dr. Kumar (the “psychiatric
opinions”) which state that Veteran was 100% disabled as a result of his service connected schizoaffective
and post traumatic disorders. The rating department
also appears to have overlooked that part of the psychiatric opinions which stare that Veteran was so ill,
that he could not realize that he was all, or disabled,
or that he was entitled to and needed to make an
application for service connected disability benefits.
It appears to me to be erroneous for the VA to deny
this Veteran the benefits to which he is entitled from
the date he became 100% disabled as a result of his
service. Accordingly, could you please supplement
your December 24, 2014 decision to change the
effective date of June 3, 2011 to January 1, 1982 ( the
date by which Veteran’s psychiatrist and his family
member established that Veteran was 100% disabled)?

148a
If for any reason you can not voluntarily correct
your error, I am submitting Veteran’s Form 9
requesting a Hearing asap with the Board of Veteran
Appeals by live videoconference with Veteran and his
witnesses at the Miami Office of the VA to appeal the
above referenced effective date for benefits, and
respectfully request the service connection be awarded
retroactively From the date Veteran was observed by
his psychiatrist and family members as being 100
%disabled, January 1, 1982) to the present June 3,
2011 effective date.
Respectfully,
/s/ Pedro Arellano
Pedro Arellano
Personal Representative of Veteran
[REDACTED REDACTED
REDACTED REDACTED]

149a
Department of
Veterans Affairs
PO BOX 1437
ST PETERSBURG FL 33731

December 23, 2014
Veteran’s Name:
Arellano, Adolfo, R

ADOLFO R ARELLANO
[REDACTED]
{REDACT] [ED]
This letter is a summary of benefits you currently
receive from the Department of Veterans Affairs (VA).
We are providing this letter to disabled Veterans to
use in applying for benefits such as housing entitlements, free or reduced state park annual memberships, state or local property or vehicle tax relief, civil
service preference, or any other program or entitlement in which verification of VA benefits is required.
Please safeguard this important document. This letter
replaces VA Form 20-5455, and is considered an
official record of your VA entitlement.
—America is Grateful to You for Your Service—
Our records contain the following information:
Personal Claim Information:
Your VA claim number is: [REDACTED]
You are the Veteran
Military Information:
Your character(s) of discharge and service date(s)
include:
Navy, Honorable, 01-Nov-1977 - 29-Oct-1981
(You may have additional periods of service not listed
above)

150a
VA Benefits Information:
Service-connected disability: Yes
Your combined
30 PERCENT

service-connected

evaluation

is:

The effective date of the last change to your current
award was: 01-DEC-2014
Your current monthly award amount is: $407.75
You should contact your state or local office of Veterans’ affairs for information on any tax, license, or feerelated benefits for which you may be eligible. State
offices of Veterans’ affairs are available at http://www.
va.gov/statedva.htm.
Need Additional Information or Verification?
If you have any questions about this letter or need
additional verification of VA benefits, please call us at
1-800-827-1000. If you use a Telecommunications
Device for the Deaf (TDD), the federal relay number is
711. Send electronic inquiries through the Internet at
https://iris.va.gov.
Sincerely yours,
S. L. SMITH
VETERANS SERVICE CENTER MANAGER
————
VA Benefit Details
SERVICE-CONNECTED DISABILITY: A condition
incurred during or aggravated by military service, for
which the Veteran is receiving VA benefits.
COMBINED SERVICE-CONNECTED EVALUATION: The Veteran’s disability rating for all conditions determined to be service-connected.

151a
CURRENT MONTHLY AWARD AMOUNT: The
monthly monetary benefit paid to the Veteran or survivor receiving benefits under a VA program.
NON-SERVICE-CONNECTED PENSION: Benefit
for a non-service connected Veteran who meets specific criteria, which include disability or age, wartime
service, minimum length of service, and income
restrictions. If a Veteran is eligible for serviceconnected benefits and pension benefits, VA will pay
the higher benefit.
INDIVIDUAL UNEMPLOYABILITY (IU): The
Veteran is receiving payment at the 100 percent rate,
even though the combined service-connected evaluation is not 100 percent. The Veteran’s service-connected conditions cause him/her to be unable to
obtain or maintain substantially gainful employment
because of the Veteran’s service-connected conditions.
The Veteran must periodically certify continued
unemployability, but if there is no scheduled future
reduction or medical examination required, he/she
may be considered by some states to be permanently
and totally disabled.
PERMANENT AND TOTAL (P&T) DISABILITY:
The Veteran is considered by VA to be permanently
and totally disabled because of his/her serviceconnected conditions.
SPECIAL MONTHLY COMPENSATION: The Veteran is receiving additional compensation for one or
more of the following: a service-connected loss of or
loss of use of one or more specific organs or extremities; a combination of severe disabilities; is 100 percent
disabled and housebound, bedridden, or in the need of
the aid and attendance of another person.

152a
SPECIALLY ADAPTED HOUSING and/or SPECIAL HOME ADAPTATION GRANT: Grants provided by VA to service-connected veterans and service
members to help build a new specially adapted house,
to adapt a home they already own, or buy a house
and modify it to meet their disability-related
requirements.
Wartime Service Periods
Mexican Border Period: May 9, 1916, through April
5, 1917, for veterans who served in Mexico, on its
borders or in adjacent waters.
World War I: April 6, 1917, through Nov. 11, 1918;
for veterans who served in Russia, April 6, 1917,
through April 1, 1920; extended through July 1, 1921,
for veterans who had at least one day of service
between April 6, 1917, and Nov. 11, 1918.
World War II: Dec. 7, 1941, through Dec. 31, 1946.
Korean War: June 27, 1950, through Jan. 31, 1955.
Vietnam War: Aug. 5, 1964 (Feb. 28, 1961, for
veterans who served “in country” before Aug. 5, 1964),
through May 7, 1975.
Gulf War: Aug. 2, 1990, through a date to be set by
law or Presidential Proclamation.

153a
[SEAL]
DEPARTMENT OF VETERANS AFFAIRS
St Petersburg VA Regional Office
St Petersburg Florida
————
ADOLFO R. ARELLANO
VA File Number
[RECACTED]
————
Represented by:
AGENT OR PVT ATTY-EXCLUSIVE
CONTACT NOT REQUESTED
————
Rating Decision
December 23, 2014
————
INTRODUCTION
The records reflect that you are a veteran of the
Peacetime. You served in the Navy from November 1,
1977 to October 29, 1981. We received your Substantive Appeal on December 17, 2014. Based on a review
of the evidence listed below, we have made the
following decision(s) on your claim.
DECISION
1. Service connection for schizoaffective disorder
bipolar type, with post traumatic stress disorder is
granted with an evaluation of 100 percent effective
June 3, 2011.

154a
2. Service connection for tardive dyskinesia (also
claimed as the shakes”) is granted with an evaluation
of 0 percent effective January 31, 2012.
3. Basic eligibility to Dependents’ Educational
Assistance is established from June 3, 2011.
EVIDENCE


VA treatment reports from May 30, 1994
to December 17, 2014, Orlando



All evidence cited, and considered in
statement of the case October 15, 2014,
with included hearing testimony



Copy of SOC submitted by veteran with
additional comments, and remarks



Facts, and statement with attached documentation received 12/17/2014



Medical assessment from Dr. Douyton
dated 05/17/2011



Medical assessment dated 12/03/2014
from Dr. Kumar



Medical assessment from Dr. Douyon date
signed 12/03/2014



Veterans supplemental claim received
06/13/2011 for PTSD



Military service treatment reports, and
personnel file from Navy from November
1, 1977 to October 29, 1981

155a
REASONS FOR DECISION
1. Service connection for schizoaffective disorder
bipolar type, with post traumatic stress disorder.
Service connection for schizo-affective disorder
bipolar type, with post traumatic stress disorder has
been established as directly related to military service.
We have reviewed your entire claims folder, but only
the pertinent evidence has been noted, and discussed.
We have reviewed the evidence of record, and have
considered the evidence submitted with your Form 9.
Upon review of your entire claims folder, with the
new evidence reviewed, service connection has been
establish3ed for schizo-affective disorder with post
traumatic stress disorder has been granted. We have
reviewed your statement in regards to the stressful
event during service. Your personnel file does support
that you were assigned to the USS Midway when the
reported crash occurred. Your DD214, and personnel
file does support your military occupation. You have
had numerous statements, and clinical assessments
submitted. The medical assessment from Dr. Douyton
from December 3, 2014 supports that your residuals of
your post traumatic stress disorder with schizoaffective disorder are related to your military stressful
event of the crash on the USS Midway. More weight
is given to Dr. Douytons assessment due to the fact
that he cited his ratinale, along with this clinical
assessment of your mental status over the past 15
years. We considered the articles, and the photograghs
of the crash in July 1980. Your VA treatment reports
from Orlando from 05/30/1994 to 12/17/2014 were
considered. You are rountinely seen for therapy, and
medication administration to assist with the control of
your residual symptoms to include altered thought

156a
patterns. Medical assessment also supports that you
are shown to be compenent for VA purposes.
An evaluation of 100 percent is assigned from June
3, 2011, the date we received your original claim for
service connection with numerous documents to
support your altered claim for mental disorder, also
claimed as traumatic brain injury. Informal assessments were received on June 3, 2011, with a formal
claim received on June 13, 2011.
The effective date is June 3, 2011, and no eariler, as
this is the first time that you formal claim was
submitted. Your claims folder does not support a
claim prior to this date. The mere fact that you were
being treated for a mental disorder within your VA
treatment reports does not support a claim. Therefore,
there is no entitlement for compensation prior to the
date of June 3, 2011.
We have assigned a 100 percent evaluation for
your schizoaffective disorder bipolar type, with post
traumatic stress disorder based on:


Intermittent inability to perform activities
of daily living



Gross impairment in thought processes



Persistent hallucinations



Persistent delusions



Difficulty in
circumstances



Inability to establish and maintain effective relationships



Difficulty in adapting to a worklike setting

adapting

to

stressful



157a
Occupational and social impairment, with
deficiencies in most areas, such as work,
school, family relations, judgment, thinking, or mood



Flattened affect



Difficulty in establishing and maintaining
effective work and social relationships



Impairment
memory



Impaired judgment



Depressed mood



Mild memory loss



Chronic sleep impairment



Anxiety



Suspiciousness



The examiner’s assessment of your current mental functioning, which is partially
reflected in your Global Assessment of
Function score found below. .

of

short-

and

long-term

Your Global Assessment of Function (GAF) score is
40. A range of 31-40 indicates some impairment in
reality testing or communication; or major impairment in several areas, such as work or school, family
relations, judgment, thinking, or mood. Your VA
treatment reports do support that when medicated
properly your judgment is intact. Upon review of all
the medical assessments, with clinical assessments
supports that your residuals of your schizo-affective
disorder with post traumatic stress disorder warrants
a 100 percent evaluation. Under the law, separate
evaluations for mental disorders are not warranted,

158a
and would be considered parymiding. Your residuals
for your overall residuals are shown as assigned, with
an evaluation of 100 percent.
The overall evidentiary record shows that the severity of your disability most closely approximates the
criteria for a 100 percent disability evaluation.
This is the highest schedular evaluation allowed
under the law for schizo-affective disorder with post
traumatic stress disorder.
2. Service connection for tardive dyskinesia (also
claimed as the shakes”) as secondary to the
service-connected disability of schizoaffective
disorder bipolar type, with post traumatic
stress disorder.
Service connection for tardive dyskinesia (also
claimed as the shakes”) has been established as
related to the service-connected disability of schizoaffective disorder bipolar type, with post traumatic
stress disorder.
A noncompensable evaluation is assigned from
January 31, 2012, the date we received your claim for
this contention. We have considered the statement in
support of claim, with medical assessment from Dr.
Douyton. His clinical assessment supports that it is
as likely as not that your residuals of your tardive
dyskinesia as secondary to the medications used to
treat your mental disorder. We have reviewed your
VA treatment reports from 1994 to 2014. Your
residuals are shown as mild, with clinical neurological
assessments are shown as normal. Your VA treatment
reports supports some hand tremors, which is controlled with medications.

159a
A noncompensable evaluation is assigned for tics
which are mild in severity. A higher evaluation of 10
percent is not warranted unless tics are moderate.
This is a complete grant of this issue under appeal
status, as the benefit has been granted.
3. Eligibility to Dependents’ Educational Assistance under 38 U.S.C. chapter 35.
Eligibility to Dependents’ Educational Assistance is
derived from a veteran who was discharged under
other than dishonorable conditions; and, has a permanent and total service-connected disability; or a permanent and total disability was in existence at the
time of death; or the veteran died as a result of a
service-connected disability. Also, eligibility exists for
a serviceperson who died in service. Finally, eligibility
can be derived from a service member who, as a
member of the armed forces on active duty, has been
listed for more than 90 days as: missing in action;
captured in line of duty by a hostile force; or forcibly
detained or interned in line of duty by a foreign
government or power.
Basic eligibility to Dependents’ Education Assistance is granted as the evidence shows the veteran
currently has a total service-connected disability,
permanent in nature. The effective date is June 3,
2011, the date you met reequirements for this benefit.
REFERENCES:
Title 38 of the Code of Federal Regulations, Pensions, Bonuses and Veterans’ Relief contains the
regulations of the Department of Veterans Affairs
which govern entitlement to all veteran benefits. For
additional information regarding applicable laws and
regulations, please consult your local library, or visit
us at our web site, www.va.gov.

160a
RATING DECISION
Department of Veterans Affairs
St Petersburg VA Regional Office
[Filed December 23, 2014]
————
NAME OF VETERAN: ADOLFO R. ARELLANO
VA FILE NUMBER: [REDACTED]
SOCIAL SECURITY NR: [REDACTED]
POA AGENT OR PVT ATTY-EXCLUSIVE CONTACT
NOT REQUESTED
COPY TO:
————
ACTIVE DUTY
EOD

RAD

BRANCH

CHARACTER OF
DISCHARGE

Navy

Honorable

11/01/1977 10/29/1981

Legacy Codes
ADD’L SVC
CODE

COMBAT
CODE

SPECIAL
PROV CDE

1
JURISDICTION:
12/17/2014

Substantive

FUTURE
EXAM
DATE
None

Appeal

Received

ASSOCIATED CLAIM(s): 172; Partial Grant - Form 9;
12/17/2014
SUBJECT TO COMPENSATION (1. SC)

161a
9411-9211 SCHIZOAFFECTIVE DISORDER BIPOLAR TYPE, WITH POST TRAUMATIC
STRESS DISORDER
Service Connected, Peacetime, Incurred
Static Disability
100% from 06/03/2011
Original Date of Denial: 08/13/2013
5203-5201 STATUS POST REPAIR OF
ACROMIOCLAVICULAR JOINT
SEPARATION LEFT SHOULDER
(CLAIMED AS LEFT SHOULDER)
Service Connected, Peacetime, Incurred
Static Disability
20% from 06/03/2011
5237

L3L4 AND L4-L5 SPONDYLOSIS
(CLAIMED AS LUMBAR CONDITION)
Service Connected, Peacetime, Incurred
Static Disability
10% from 06/03/2011

8103

TARDIVE DYSKINESIA (ALSO
CLAIMED AS THE SHAKES")
ASSOCIATED WITH
SCHIZOAFFECTIVE DISORDER
BIPOLAR TYPE, WITH POST
TRAUMATIC STRESS DISORDER
Service Connected, Peacetime, Secondary
Static Disability
0% from 01/31/2012
Original Date of Denial: 08/13/2013

COMBINED EVALUATION FOR COMPENSATION :
100% from 06/03/2011
NOT SERVICE CONNECTED/NOT SUBJECT TO
COMPENSATION (8.NSC Peacetime)

8045

162a
HEAD INJURY
Not Service Connected, Not
Incurred/Caused by Service
Original Date of Denial: 03/14/2012

ANCILLARY DECISIONS
Basic Eligibility under 38 USC Ch 35 from 06/03/2011

I certify that I have reviewed and electronically signed
this decision /s/ M.Aprile, DRO

lO~''

~ t...

:~ ~;~ i~~f_ ')

, :· ~ • .,.

0

Limited Information (Go to Item 8)

Payment history

Current benefit and rate

Status of pending claim or appeal

0
0
0

Change of address or direct deposit

Request a benefit payment letter

Amount of money owed VA

0

(Specify date · month, day, year)

Other

J.\uG 1..1sr

12B. i>A TE SIGNED

B. ANSWER

:i..6

~Ot

l

VA FORM
MAY 201 0

21 -0845

Appx2779

Record Befor e the Agency

SUPERSEDES VA FORM 21-084 5. DEC 2009, WHICH
WILL NOT BE USED.

i

Page 2280

RESPONDENT BURDEN/ We need lhis information l o release your privale benefit and/or d aim information to a designated third party(ies). The execution of this form
does not aUlhorize the release of Information other than thal specifically described. The Information requested on this form will aUlhorize release of the infonnation you
specify. rllfe 38, United Slates Code, allows us lo ask for this information. We estimate that you will need an average of 5 minutes to review the instructions, find lhe information
and complete this form. vA cannot conduct or sponsor a collection of information unless a valid OMB control number i s displayed. You are not required to respond
to a collection of information ~this number is nol displayed. Valid OMB control numbers can be localed on the OMB Internet Page at
www wbjtehouse gov!orobpibrary/OMBINV VA EPA btml#VA. If desired, you can call 1·800.827.. 1000 to get information on where to send comments or su ggeS1ions
about this form.
.

RMATION:
will not disclose information collected o n this form to any source other than what has been authorized under the Privacy Act of 1974
or title 38,
F ederal Regulations 1.576 for routine uses (I.e., cl vii or criminal law enforcement, congressional communications, epidemiological or research studies,
the collection of money owed to the United States, litigation in which the United States is a party or has an i nterest. the administration of VA programs and delivery of
VA benellts, verificalion ol Identity and status, and personnel administration as identified in the VA system of records. 58VA21122/28 Compensation, Pension, Education,
and Vocational Rehabil~ation and Employment Records - VA, published in the Federal Register. Your obligation to respond is voluntary. VA uses your SSN to identify
your daim file. Providing your SSN will help ensure that your records are properly associated with your daim file. Giving us your SSN account information is voluntary.
Refusal to provide your SsN by itself will not resutt in the denial of benefits. The VA will not deny an individual benefits for refusing to provide his or her SSN unless
the disclosure of the SSN ls required by Federal Stalute of law In effect prior to January 1, 1975. and still in effect.

Your first pet's name
Your favorite teacher's name

The city and ~tale your mother was born in
The name of the high school you attended

A. SECURITY QUESTION

11. SPECIFY THE SECURITY QUESTION YOU WAITT USED WHEN VERIFYING THE IDENTITY OF YOUR DESIGNATED TH IRD PARTY. CHECK ONLY QM;. SECURITY
QUESTION BOX IN 11A AND PROVIDE THE ANSWER IN 11B .

-

10. VA IS AUTHORIZED TO DISCLOSE THE INFORMATION AS SPECIFIED ABOVE TO THE PERSON OR ORGANIZATION LISTED BELOW. NOTE: IF
AUTHORIZATION IS Fb R AN ORGANIZATION, PLEASE PROVIDE THE FIRST AND LAST NAME OF THE ORGANIZATION'S REPRESENTATIVE. (Please prinl clearly)

0 One time only
0 From the date of signing below until
~ng until written notice is given to VA to terminate

9. IF YOU SELECTED "ANY INFORMATION"', THE TERMS OF SUCH RELEASE OF INFORMATION WILL BE:

0
0
0

8. IF YOU SELECTED ••L MITED INFORMATION", CHECK ALL THAT APPLY

~Information (Go to Item 9)

7. I (beneficiary/claim~nt) authorize the Department of Veterans Affairs (VA) to contact the person or organization listed below for the purposes
of providing the following information pertaining to my VA record . (Check only one bax below to tell VA 1he specific benefl1 or claim information
you want disclosed.)

c. E - MAIL ADDRESS (If applicable)

1---'-~~:;_.::::........_..,..:-:o....;.,~..:..:,_~:..;;;:..=::-=-~-:-~-'::-'.""--'-="
~G
::=-"'0:....u."""-:-==-=--=-":::::...;=-:c..:...:..~___.:.....:.:...;:....:....::....:....>.~--'-"'-=-.......__._--"t 2

3!

v~. \;~}

(DO NOT WRITE IN THIS SPACE)
(VA DATE STAMP)

5 minutes

~b_e_n_e_fi_c_iary. . : . . _re_c_o~gn_1_·z~ed~as.;,._in_c_o_m~p-et_e_n_t_fo_r_V_A_._p_urpo_.__s_es_.~-.-~----------~-=~,.,---=-=--==---=-_,_~..._.....,.-·;,.....f~U~~.,..._,,....,...,.~:
1.
2 . FIRST, MIDDLE , LAST NAME OF BENEFICIARY/CLAIMANT WHO IS NOT THE VETERAN
r'f.fi!:.' clearly)

INSTRUCTIONS: Use this form if you want to give the Department of Veterans Affairs permission to
release your personal beneficiary or claim information to a third party. This form may not be executed by
any beneficiary recognized as incompetent for VA purposes, nor can VA accept this form from any

AUTHORIZATION TO DISCLOSE PERSONA L INFORMATION
TO A THIRD PARTY

Department of Veterans Affairs

Respondent Burden:

OMB Approved No . 2900.()736

163a

164a

[This page intentionally left blank]

165a
Report from MIAMI VAME——Station #546
Medical Record
Date
Recorded

PROBLEM LIST
Problems

Date of
Date
Onset Resolved

1.

6/7/11

Prolonged posttraumatic
stress disorder (309.81)

2.

5/17/11

Schizoaffective Disorder,
unspecified (195.70)

3.

2/16/11

Sensorineural hearing loss,
asymmetrical (ICD-9-CM
389.16) (389.16)

4.

2/14/11

Screening Colonoscopy with
Fam Hx of Colon CA (V76.51)

5.

5/14/10

Neuroleptic-Induced Tardive
Dyskinesia (333.82)

6.

1/26/10

Actinic Keratosis (ICD-9-CM
702.0) (702.0)

7.

1/26/10

Personal History of other
Malignant Neoplasm of Skin
(ICD-9-CM v10.83) (V10.83)

8.

3/11/00

Fuchs' Endothelial Dystrophy
(ICD-9-02a 371.57) (371.57)

9.

3/1/07

Left Nasal Defect, hx Moh's 2/1/07
Resection for Cancer (799.9)
re-excision skin margins,
debridement, FTSG to defect

10. 10/19/06 Hypertension, Essential
(401.9)
11. 3/21/06

Psoriasis (696.1)

12. 12/6/04

166a
Disorders of refraction and
accommodation (ICD-9-CM
367.9) (367.9)

13. 11/13/02 HYPERLIPIDEMEIA (272.2)
14. 8/21/02

OBESITY (278.00)

15. 7/3/01

BIPOLAR I D/O (296.7)

16. 8/5/02

$ ANXIETY STATE NOS
(300.00)

5/14/07

$ = Requires verification by provider
ARELLANO,
ADOLFO
[redacted]

MIAMI VAMC
Pt Loc:
OUTPATIENT

Printed: 7/26/11
VA FORM 10-1415

